<html>
<title> - THE KOSOVO REFUGEE CRISIS</title>
<body><pre>[Senate Hearing 106-443]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-443

                       THE KOSOVO REFUGEE CRISIS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

THE CURRENT KOSOVO REFUGEE SITUATION AND THE SCOPE AND ADEQUACY OF THE 
     RESPONSE OF THE UNITED STATES AND THE INTERNATIONAL COMMUNITY

                               __________

                             APRIL 14, 1999

                               __________

                          Serial No. J-106-14

                               __________

         Printed for the use of the Committee on the Judiciary

                     U.S. GOVERNMENT PRINTING OFFICE
63-248                       WASHINGTON : 2000




                   SENATE COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                      Subcommittee on Immigration

                  SPENCER ABRAHAM, Michigan, Chairman

ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York

                   Lee Liberman Otis,  Chief Counsel

                 Melody Barnes, Minority Chief Counsel

                                  (ii)
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Abraham, Hon. Spencer, U.S. Senator from the State of Michigan...     1
Hatch, Hon. Orrin G., U.S. Senator from the State of Utah........     3
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts..................................................     5
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     7
Feinstein, Hon. Dianne, U.S. Senator from the State of California     9
Biden, Hon. Joseph, R., Jr., U.S. Senator from the State of 
  Delaware.......................................................    37

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Vjosa Dobruna, Kosovar refugee, and director 
  and founder, Center for the Protection of Women and Children, 
  Pristina, Kosovo; Aferdita Kelemendi, Kosovar refugee, and 
  director, Radio/TV 21, Pristina, Kosovo; and Mentor Nimani, 
  Kosovar refugee, and coordinator, Humanitarian Law Center, 
  Pristina, Kosovo...............................................    10
Statement of Julia V. Taft, Assistant Secretary of State, Bureau 
  of Population, Refugees, and Migration, Department of State, 
  Washington, DC.................................................    41
Panel consisting of Bill Frelick, senior policy analyst, U.S. 
  Committee for Refugees, Washington, DC; and Maureen Greenwood, 
  advocacy director for Europe and the Middle East, Amnesty 
  International USA, Washington, DC..............................    59

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Dobruna, Vjosa:
    Testimony....................................................    10
    Prepared statement...........................................    13
        Attachment: Reports of Massacres by Serb Forces in 
          Kosovo, dated Mar. 27-Apr. 8...........................    15
Frelick Bill:
    Testimony....................................................    59
    Prepared statement...........................................    63
Greenwood, Maureen:
    Testimony....................................................    71
    Prepared statement...........................................    74
Kelmendi, Aferdita:
    Testimony....................................................    16
    Prepared statement...........................................    19
Nimani, Mentor:
    Testimony....................................................    20
    Prepared statement...........................................    22
        Attachment: From the Humanitarian Law Center, dated Apr. 
          12, 1998...............................................    23
Taft, Julia V.:
    Testimony....................................................    41
    Prepared statement...........................................    45

                                APPENDIX
                         Questions and Answers

Responses of Julia V. Taft to Questions From Senator Leahy.......    79

 
                       THE KOSOVO REFUGEE CRISIS

                              ----------                              


                       WEDNESDAY, APRIL 14, 1999

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:11 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Spencer 
Abraham (chairman of the subcommittee) presiding.
    Also, present: Senators Specter, Grassley, Kennedy, 
Feinstein, Schumer, Hatch (ex officio), Leahy (ex officio), and 
Biden (ex officio).

OPENING STATEMENT OF HON. SPENCER ABRAHAM, A. U.S. SENATOR FROM 
                     THE STATE OF MICHIGAN

    Senator Abraham. We will begin our hearing at this time, 
and I want to thank so many people who have been involved in 
helping to put together today's activities, to our ranking 
member, Senator Kennedy, and his staff, and to Chairman Hatch 
and the full Judiciary Committee staff.
    Today's hearing, of course, is on the Kosovo refugee 
crisis. I will make a few opening remarks, and then I have 
asked Senator Hatch, who has had a long interest and 
involvement in these issues, to join us today and he will make 
some brief remarks, as will our ranking member of the Judiciary 
Committee, Senator Leahy. And we are also joined, of course, by 
subcommittee members Senators Kennedy and Feinstein.
    Today, we will examine the Kosovo refugee crisis. The 
hearing will focus on what I consider to be a tragedy of epic 
proportions, a tragedy that constitutes the single largest 
humanitarian disaster in Europe since the end of World War II.
    On March 24, just 3 weeks ago, NATO launched air strikes 
against Serb targets in Yugoslavia. Mr. Milosevic immediately 
raised to a new level his brutal campaign against the 
inhabitants of the province of Kosovo. He directed his forces 
to sweep through towns and villages, and target their 
residents, 90 percent of whom were ethnic Albanians.
    ``Ethnic cleansing'' is a euphemism. What Slobodan 
Milosevic's forces did was to rape, murder and remove ethnic 
Albanians from Kosovo. It is said that one's home is the safest 
refuge, but for Kosovar Albanians this has not been the case. 
Across Kosovo, individuals, indeed entire families, were forced 
to leave their houses. Many were awoken in the middle of the 
night with a knock on the door or worse. Fathers and sons were 
removed from their families, leaving women and children to 
wander toward the border, not knowing, and perhaps never 
knowing, the fate of their loved ones.
    According to U.S. intelligence and other sources, the human 
rights abuses being committed in Kosovo are immense. In Arllat, 
Serb forces executed 200 ethnic Albanian men. In Dakovica, the 
bodies of 70 ethnic Albanians were found in two houses, and 
another 33 bodies were found in a local river. In Goden, on 
March 25, Serb forces executed 20 men, including school 
teachers. In Likovc, Malisevo and other towns and villages, 
they torched homes and burned shops to the ground.
    And in town after town, in village after village, Serb 
forces expelled Kosovar Albanians, with the numbers soon 
climbing into the hundreds of thousands. It is difficult to 
fathom the horror of police and military forces surrounding 
entire neighborhoods and forcing those of a particular 
ethnicity to leave, but that is precisely what has happened.
    There have been some who have questioned the extent of the 
atrocities being committed in Kosovo. I think that today's 
hearing and the testimony we are about to hear will help 
resolve any doubt. We will also be addressing the scope and the 
adequacy of the response of the United States and the 
international community, focusing on several aspects of this 
subject.
    First, it is reported that last week Macedonian police 
removed refugees from a site there, separating people from 
their families and forcing them onto planes bound for Turkey. 
More than $400,000 in U.S. taxpayer money was used for these 
flights which apparently removed many people against their 
will.
    Second, food, shelter and other items needed by the 
refugees for their survival were not available for many days 
after the refugee flow began and are still in desperately short 
supply in some places. These shortages raise questions about 
the level of preparedness for the brutal campaign Mr. Milosevic 
began as soon as international observers had left Kosovo in 
anticipation of the air strikes.
    Third, the administration announced last week that it might 
place up to 20,000 Kosovar refugees whom the United States has 
offered to accept at our naval base in Guantanamo Bay. This 
gives rise to some questions about what this plan involves and 
how it would work in practice. Finally, we will see what we can 
learn about what is happening and what is likely to happen to 
the internally displaced Kosovars who are still within Yugoslav 
territory.
    This crisis has touched the lives of not only Kosovar 
Albanians, but also families right here in the United States 
and in my home State of Michigan. Many Americans are eager to 
help and have offered food, shelter and money to aid the 
refugees.
    To give just one example, the Gerber Baby Products Company, 
based in Fremont, MI, has donated 21,984 cases of baby food 
products for the infants of refugees fleeing from Kosovo. 
Gerber informed our office yesterday that two truckloads had 
already arrived in Albania and that five to eight more 
truckloads were being readied for shipment. As Michigan's U.S. 
Senator, I want to commend this Michigan company, but all 
Americans who have made donations, for stepping in to help in 
this needy situation.
    Of course, that is not the only way the crisis has affected 
Americans. In California, Texas and Michigan, and throughout 
the Nation, the fate of Staff Sergeant Andrew Ramirez, 
Specialist Steven Gonzalez, and Staff Sergeant Christopher 
Stone is very much on our minds.
    The numbers we are dealing with in this refugee crisis are 
enormous. Yet, with large numbers, it is often possible to lose 
the full picture of human tragedy, the human face, for behind 
every number and every statistic, there is a story that must be 
heard.
    One of the goals of this hearing is to see to it that we do 
not lose sight of the human face of this tragedy. That is why I 
am pleased that we were able to help bring here three people 
forced out of Kosovo who will tell their stories. And I would 
like to thank the International Crisis Group, the Kosovo Action 
Coalition, Mercy Corps International and the International 
Rescue Committee for their help in locating these important 
witnesses.
    At this time, I would like to also mention that not 
everyone who would have liked to tell their story could be with 
us here today. We will not hear from people like Eranda Rudari, 
a 28-year-old ethnic Albanian. A resident of Pristina, Eranda 
knew the Serbs were removing people from their homes in Kosovo, 
but she felt relatively safe. She was 9 months pregnant and 
could not imagine being evicted.
    But 10 days ago, Serbian troops wearing masks barged into 
her apartment and ordered her and her family to leave. She told 
them she was about to have a baby. They said they didn't care. 
Her family drove for 4 days to reach the Macedonian border 
before they were forced to abandon their car. They soon entered 
a muddy field, where she was forced to sleep in the cold and 
the rain under plastic sheeting. The next day, she made it to a 
camp with tents, but she has yet to have her baby and can only 
hope that she will receive the medical care she needs to ensure 
the safe delivery of her child.
    I hope that we will not forget about Eranda and her child 
as we consider what actions we as a Nation must take in regard 
to the refugee crisis in Kosovo. I look forward to hearing the 
stories of those witnesses who could be with us here today, as 
well as testimony from the administration and from refugee 
organizations involved in facing this tragedy. That testimony 
should be before the Congress as we continue to consider how we 
respond to this refugee crisis.
    I want to thank everybody, as I said at the outset, who has 
helped us to prepare today's hearing.
    At this point, I will turn to the chairman of the Senate 
Judiciary Committee, Senator Hatch, for his comments.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Mr. Chairman and members of the 
subcommittee, Assistant Secretary Taft, representatives of the 
humanitarian assistance community, and our guests from Kosovo, 
thank you all for being here. And I appreciate your courtesy in 
yielding to me, and also Senator Kennedy's courtesy, which he 
has always shown to me.
    I commend Senator Abraham and Senator Kennedy for holding 
this important hearing so soon after we have reconvened from 
the spring recess. Senator Abraham and Senator Kennedy have 
been voices for responsible and humanitarian refugee and 
immigration policies since both of them first came to the 
Senate. I was pleased we were able to work together on this 
very important matter.
    I commend the State Department and the non-governmental 
organizations for everything they have done thus far. I believe 
I share with every member of this committee the conviction that 
Congress should assist in doing all it reasonably can to 
alleviate the suffering that has been caused by Milosevic's 
barbaric campaign.
    Barbarism is how one might perhaps inadequately describe 
the deliberate and despicable policy Milosevic has unleased in 
Kosovo. ``Ethnic cleansing'' has been another term used to 
describe depopulation of ethnic groups in the Balkans. But that 
term fails to capture the horror of systematic executions, 
rapes, and forced exodus of Muslims that we have witnessed in 
the past weeks. This is, ladies and gentlemen, quite starkly, 
genocide.
    Applying the legal definitions in the Convention on the 
Prevention and Punishment of the Crime of Genocide, we are, in 
my view, confronting the most severe man-made humanitarian 
crisis in Europe since World War II. Another point on 
definitions. Having read Dr. Dobruna's powerless testimony 
early this morning, I think we should strictly accept her point 
and refer to the Kosovars as deportees rather than refugees.
    For the purposes of this hearing, we need to adhere to a 
certain focus that limits our discussions to the deportee 
crisis at hand. We do not as of this day have a comprehensive 
view of the degree of devastation wrought by Serbian forces 
against the Kosovars. We have seen over half a million people 
on the borders of the contiguous nations, but we don't have any 
idea exactly how many are there.
    We do not know today the fate of thousands of men and boys 
separated from their families. There are credible reports of 
mass rapes, of children's throats slit in front of their 
parents. We have no idea as to the dimension of this terror, 
and I hope that one of the first things today's hearing begins 
to articulate before the American public is the level of 
atrocities committed by Serbian military police and 
paramilitaries against this civilian population.
    While this deportee crisis is inseparable from the broader 
foreign policy issues confronting this administration, 
Congress, and NATO today, we will have other forums to debate 
the broader policy. But two questions have been raised about 
this deportee crisis that should be addressed today. One has to 
do with the charges that NATO's intervention caused this 
crisis, and the other has to do with the question as to why the 
administration and its allies were unprepared for the level of 
humanitarian disaster that we face today.
    Let me say here that I find the first suggestion, that 
NATO's bombings caused this crisis, to be completely without 
merit. We have plenty of evidence that these genocidal plans 
were already in place and, in fact, were already being slowly 
implemented before March 24. Further, we have a clear 
historical record that these types of barbarous policies are 
what Milosevic perpetrates. The attacks on civilian populations 
throughout the wars in Croatia and Bosnia are well-established. 
Therefore, I find it completely unfair and wholly dishonest to 
accuse the administration and NATO of causing this crisis.
    To assert this specious causation, however, raises a 
disturbing irony. I have a vivid and bitter memory of a 
dramatic discussion I had with then Bosnian Prime Minister 
Haris Siladzic in the summer of 1995, when he had come to the 
United States to plead for us to lift our arms embargo against 
his forces besieged by the well-armed Serbs.
    He met with me moments after pleading unsuccessfully with 
Vice President Gore. President Clinton had refused to meet with 
him. When I asked the Prime Minister what was the Vice 
President's reasoning, I was told that the administration 
believed that lifting the arms embargo would cause the Serbs to 
attack the eastern enclaves of Zepa, Gorazde and Srebrenica. 
This is, of course, what the Serbs did anyway weeks later. Over 
7,000 unarmed men and boys were herded out of town and 
massacred.
    In retrospect, I do not know what is more astounding, the 
administration's completely fallacious logic then or the fact 
that, with the graves of Srebrenica as a glaring lesson, they 
were unprepared for Milosevic's campaign of genocide unleashed 
in the last 2 weeks. By looking at the number of deportees and 
learning of then new atrocities, I fear that many more 
Srebrenicas have occurred. If the administration learned the 
lessons of Srebrenica, then whywere they unprepared?
    Again, I thank you, Mr. Chairman, for your hard work, your 
leadership and your courtesy, and I thank my colleagues, 
Senator Kennedy and the other Democrats as well, for allowing 
me to go forward.
    Senator Abraham. Senator Hatch, thank you very much.
    We will now turn to our ranking member on this 
subcommittee, Senator Kennedy, and again I thank you for your 
help in putting the hearing together, Senator.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Well, thank you, Senator Abraham. All of 
us are deeply appreciative of you to have this hearing this 
morning. And we thank our chairman and Senator Leahy, as well, 
giving the Senate of the United States an opportunity to hear 
from our friends. And we want to extend to them the warmest 
welcome.
    We know it is never easy to relive these days of terror 
which each of you have gone through, but we want you to know at 
the very start how welcome you are and how important your 
presence here is and how the American people value, one, your 
extraordinary courage and, second, your commitment to your 
families and your loved ones, and for your willingness to share 
with us what is happening over in your homes and in your 
communities and in your country. So we thank all of you very, 
very much for being here.
    Slobodan Milosevic's reign of terror has created the 
largest refugee crisis since World War II. Hundreds of 
thousands of Kosovar Albanian refugees have been forced to seek 
safe haven in other countries. From the testimony of refugees 
who have made it to safety, we are beginning to learn the true 
dimension of the brutal atrocities that they have witnessed and 
suffered.
    Serbian forces have terrorized villages and towns 
throughout Kosovo, forcing ethnic Albanians to flee their homes 
on a moment's notice. They have seen Serbs destroy all that 
they hold dear. They have seen family members, friends and 
neighbors tortured and murdered. As they fled to save their 
lives, they saw their homes destroyed. Those who could not run 
fast enough, like one handicapped man and his wife, were shot 
as they attempted to flee.
    These refugees have traveled for days with only the clothes 
on their backs and with little food or water. They have endured 
every degradation we can imagine. They have been raped and 
beaten and stripped of valuables, including passports and 
documents to establish their identity. Families have been 
separated. Women and children worry about the fate of their 
husbands, fathers and brothers, who perhaps were rounded up and 
murdered by the Serb forces, or spared, only to be used as 
human shields.
    Refugees who have reached the safety of camps have been 
forced to live and sleep in muddy open fields, exposed to cold 
winds and rain, in squalid conditions, with no sanitation or 
running water. They are the fortunate ones. An estimated 4 to 
600,000 Kosovar Albanians are still trapped in Kosovo. Little 
is known about their fate, but the few reports we have received 
are deeply disturbing.
    The Kosovo crisis has presented the United States and NATO 
with a monumental military and humanitarian challenge. We are 
meeting the military challenge by spending millions of dollars 
a day to assist NATO in the war against the Serb aggression, 
and it is a war we intend to win, and will as soon as possible.
    Equally important is the humanitarian challenge we face. As 
a leader in refugee policy and the wealthiest country in the 
world, we must be in the forefront of international efforts to 
meet the humanitarian needs of the refugees and ease their 
suffering. We must be ready to provide humanitarian assistance 
on a scale commensurate with the crisis.
    I commend the administration for its steps thus far in 
easing the plight of refugees, and I think we are all very 
grateful that Julia Taft is a leader in that whole effort, 
someone who brings enormous skill and talent and compassion to 
this position. We have provided thousands of tents and blankets 
and water containers, and over a million humanitarian daily 
rations to hundreds of thousands of traumatized refugees.
    In the weeks ahead, we must be prepared to do more. The 
humanitarian needs in the region are enormous and will continue 
to grow. As Mrs. Orgata, the UN High Commissioner for Refugees, 
has recommended, and as the refugees themselves prefer, we are 
trying to relocate the refugees within the region. Albania is 
one of the poorest countries in Europe and has been very 
generous. The people of Albania have opened up their homes and 
shared what little they have with thousands of refugees, and we 
need to assist Albania with the high cost of caring for them 
and be prepared to do more to assist humanitarian efforts in 
Macedonia and Montenegro to make sure the refugees are treated 
well.
    The Kosovar refugees have suffered enough. They have done 
nothing to merit indefinite detention and confinement in a 
refugee camp. We can do better, and we should. To the greatest 
extent possible, we should give them a fitting respite from the 
violence in their homeland in a manner respectful of their 
dignity and their liberty until they can safely return to their 
homes. Refugee organizations in the United States have been 
flooded with telephone calls from Americans willing to open up 
their homes to these refugees, and I welcome the fact that the 
administration has given second thought to resettlement in 
Guantanamo Bay.
    Finally, we must not forget the hundreds of thousands of 
internally displaced refugees. We have reports of anywhere from 
400,000 to 600,000 that are really in desperate, desperate 
condition. And we are mindful that in a matter of hours, days, 
without water and food, there is a real danger to their lives.
    There are, I think, three different options. One is the air 
drop, with all of the complexities and difficulties, and 
wondering whether you can get the food to the right people at 
the right time, and diversion of those resources and dangers to 
those who are involved in it; second, a humanitarian corridor, 
which is always difficult to establish, but has been 
established through a lot of leadership, actually, in the 
Congress. Years ago, we established it in Biafra and other 
circumstances. Third, we can work with some countries where at 
least their presence--perhaps the Greeks or Russians may be at 
this time more acceptable.
    But we have to move, and time, hours--this isn't a decision 
for next week; this is a decision for today and tomorrow. And 
if we are serious, as I know we are, we have to take one of 
those three steps and we have to take it now.
    I appreciate the Chair indulging me.
    Senator Abraham. Thank you very much, Senator.
    We are also joined today by the ranking member of the full 
Judiciary Committee, Senator Leahy. We appreciate hispresence, 
along with Senator Hatch's.
    Senator Leahy, we will turn to you for a statement.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman, and I know this is 
a matter of great concern to you. You have expressed this not 
just in this hearing, but in other meetings we have had, and I 
appreciate your doing this.
    The Kosovo refugee crisis is the most significant 
humanitarian emergency in Europe in half a century. The number 
of Kosovar Albanians who have seen their loved ones brutalized 
or murdered before their eyes and who have been driven from 
their homes into a life of misery and uncertainty has shocked 
the conscience of the world. It has led to the first NATO 
military operation in 50 years.
    We are fortunate to have with us today refugees who 
recently fled from Kosovo and who can talk about the relief 
operations there. As I said to them before the hearing started, 
I appreciate you being here. I am so sorry for the reason you 
are here.
    Over 600,000 Kosovar Albanians have fled to neighboring 
countries. That is about the same population as my own State of 
Vermont. Another 700,000 are displaced inside Kosovo. Children 
have been lost, women and girls have been raped, men and boys 
have been taken away, their fates unknown. Those alive are 
living in squalid camps with no idea of what the future holds.
    The international community is struggling to respond, and 
the United States will do its part. I know we are going to be 
hearing from Julia Taft later and I appreciate her being here. 
I will do everything I can as a member of the Appropriations 
Committee, especially the Foreign Ops Subcommittee, to support 
supplementary funding for this relief effort.
    We have to acknowledge the tremendous sacrifice Albania and 
Montenegro are making. They are poor countries, yet they have 
shared what they have. Private relief organizations in this 
country are already doing a great deal as we await the 
supplemental request from the administration. Vermonters, 
including Vermont school children, have been raising money and 
collecting and sending food and clothing.
    We are fortunate to have the employees and volunteers of 
the Vermont Office of Refugee Resettlement and other groups 
helping all over this country. In 1996 I worked closely with 
those groups when we rewrote our political asylum law. I now 
wish more than ever we had prevailed, and I would compliment 
two Republican Senators who broke with a majority of their 
party to vote for my amendment to preserve political asylum and 
this Nation's place as a safe haven for oppressed people around 
the world.
    We won in the Senate by 51 to 49. Senator Abraham and 
Senator Hatch voted with me on that. Unfortunately, our 
amendment was replaced in a conference with the House with 
provisions making it more difficult for people who have 
suffered political, religious, or other persecution, but who 
lacked proper documents, to obtain sanctuary in the United 
States. It is beneath a great country like ours.
    If we are going to criticize Macedonia and others for not 
living up to international norms in the treatment of refugees, 
it is time we recognize that our own law, the U.S. law, as 
unfair and unworkable. What we did was wrong. Under our law, if 
Kosovar refugees reach our shores to escape persecution, they 
could find themselves quite possibly on the next plane home, 
wherever home might be. They could be expelled summarily 
without a hearing if they came here without the proper 
documents.
    How many Kosovar refugees have a valid visa or passport? 
Yet, the law that Congress passed--a stupid law, a mean law--
says that they have to have that. We have watched on television 
as the Serbian police have systematically confiscated and 
destroyed ethnic Albanians' identification papers, the papers 
that our law requires them to have. How likely would it be for 
these Kosovar refugees, not fluent in English, to ask for 
political asylum upon their first meeting?
    We have spoken with refugees from Africa and Asia and we 
have recalled the refugees from Europe and World War II. Today, 
our attention is on Kosovo. We are united in this and, Mr. 
Chairman, we will do our part. If the United States, the most 
powerful, wealthiest nation on Earth, stands for anything--the 
dignity of people, the humanity of people, and democracy--we 
must help. We must help, first and foremost, immediately, on 
the refugee problem, and then we must help to get these people 
back to their homes.
    Thank you.
    Senator Abraham. Thank you very much, Senator Leahy.
    We also joined today by Senator Dianne Feinstein, of 
California. Senator Feinstein, thank you for being here as a 
member of our subcommittee. Would you like to make an opening 
statement?

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
just want to welcome the three people that are here and tell 
you that our hearts and thoughts are with you.
    Although there have been many other places on Earth where 
we have seen man's inhumanity to man, there is one thing that 
the United States stands really firmly for. We are not going to 
be a part of a world that tolerates this kind of genocide and 
ethnic cleansing.
    Particularly as a woman, I believe, beginning with Bosnia, 
it was the first time since I have been born that we have seen 
rape used as an instrument of terror, as an instrument of war. 
As far as the women of the world are concerned, we can't stand 
by and watch this happen.
    I really look forward to hearing your testimony. What we do 
now is very important. How we help you and your people go home 
is very important, and whether there is a home there for you to 
go to is very important. I am hopeful--and I have suggested 
this to Mr. Berger--that the United States be the heart of a 
kind of Marshall Plan of the 1990's whereby we can, in two 
stages, beginning with Albania and Macedonia, the second stage 
with Kosovo as soon as it is possible forpeople to safely go 
home, launch a major effort of massive food relief, massive rebuilding 
of homes, and massive help to reestablish the economic infrastructure 
of your area and Albania and Macedonia. I hope this suggestion will be 
taken seriously because I think for many of us just solving this with 
bombs isn't an appropriate solution.
    So I look forward to hearing what you have to say today, 
and I thank you very much, Mr. Chairman, for holding this 
hearing.
    Senator Abraham. Thank you, Senator.
    We will now turn to our first panel which consists of three 
people who were recently forced out of Kosovo. We will hear 
from Dr. Vjosa Dobruna, who is the director and the founder of 
the Center for the Protection of Women and Children, in 
Pristina.
    We will then hear from Ms. Aferdita Kelmendi, who is the 
editor of Radio 21, an independent radio station in Kosovo. And 
then we will also hear from Mr. Mentor Nimani, who is an 
attorney who helped gather evidence of atrocities for the 
International War Tribunal.
    As everybody knows, all three of our witnesses were 
recently forced to flee Kosovo and we appreciate their 
willingness to come before us today, and share their 
experiences. And as I said in my statement, there have been 
some who have questioned the magnitude of the problem, both 
with respect to the condition of people who have had to flee, 
as well as to some of the atrocities that have been alleged. 
And we thought that this panel perhaps more than anybody that 
we might hear in the Congress could help put to rest anybody's 
questions with regard to these issues.
    So we thank you for being here. We appreciate very much how 
far you have traveled to be with us today. Thank you. We will 
start with you, doctor.

    PANEL CONSISTING OF VJOSA DOBRUNA, KOSOVAR REFUGEE, AND 
 DIRECTOR AND FOUNDER, CENTER FOR THE PROTECTION OF WOMEN AND 
    CHILDREN, PRISTINA, KOSOVO; AFERDITA KELEMENDI, KOSOVAR 
   REFUGEE, AND DIRECTOR, RADIO/TV 21, PRISTINA, KOSOVO; AND 
 MENTOR NIMANI, KOSOVAR REFUGEE, AND COORDINATOR, HUMANITARIAN 
                  LAW CENTER, PRISTINA, KOSOVO

                   STATEMENT OF VJOSA DOBRUNA

    Dr. Dobruna. Mr. Chairman, members of the committee, thank 
you for having me before this committee. My name is Vjosa 
Dobruna. As a pediatrician and human rights activist, I founded 
and I direct the Center for the Protection of Women and 
Children, in Pristina, which is a community clinic in Kosovo. 
The Center works with war trauma victims of former wars in the 
former Yugoslavia, families in need, and handicapped children. 
We also cooperate with international non-governmental and 
private organizations to monitor humanitarian and human rights 
violations.
    I am here to discuss the humanitarian catastrophe in and 
around Kosovo. I would also like to share with you some of my 
experiences during the recent weeks of the massive and 
systematic Serbian campaign of attacks against civilians in 
Kosovo.
    Over 1 million Kosovars have been forced from their homes 
and are now outside of Kosovo or stranded inside. As of now, at 
least 500,000 people, civilians, are trapped inside Kosovo 
without access to food, medical care, or even shelter. Only one 
region, for example, which is 20 miles northeast of Kosovo--
there are 250,000 displaced persons, and these displaced 
persons are displaced all through the year since April 1998. 
And they are just searching for a safe haven and finally they 
reach this territory. Sixty-five thousand of them were without 
shelter for a year. These figures do not include the 
approximately 100,000 young men also believed to be missing.
    Conditions inside Kosovo are completely desperate and full 
of terror. Children and the elderly are dying right now of 
starvation and exposure. In one village yesterday, three old 
men died, and a child. I want to make an important point here 
about the people who have left Kosovo. These people, myself 
included, are not refugees. We are deportees. We have been 
forced to leave our homes. We did not choose this. We did not 
run, even though conditions were very bad. We stayed until we 
were forced out. So I ask you to please refer to us as 
deportees, not refugees.
    Now, something about my town. Pristina, which until 
recently, until 2 weeks ago, was a city of more than 250,000 
inhabitants, now has a population of approximately 15,000 to 
20,000, mostly Serbs. I was among those forced to leave 
Pristina by Serbian security forces. Before forcing us out of 
town, Serbian security troops demanded money and beat us, both 
my sister and I. They beat my brother-in-law very badly, 
threatening his wife that they would kill him.
    Even before I left Pristina, I had changed apartments every 
night for the previous 6 nights, since I was told by a friend 
that my name was on the list of targeted ethnic Albanians. 
Others on the list were not lucky. Human rights lawyer Bajram 
Keljmendi, along with his two sons, one of 16 and another one 
of 29, were abducted by Serbian security or paramilitary forces 
in front of his wife and grandchildren. It was Tuesday and 
Wednesday, 10:00 to 1:00 a.m. in the morning. Serbian police 
told the family to kiss him goodbye; they would not see him 
again. Bajram's body was found 2 days later on the road next to 
a gas station. He had been shot in the head repeatedly. His 
sons were killed with him.
    Security forces also targeted civilians who had worked with 
international organizations, local staff. Kujtim Dula, from 
Gjakova--Djakovica, in Serbian pronunciation--worked with an 
international organization. He was working with OSCE Kosovo 
Verification Mission, headed by U.S. Ambassador William Walker. 
Kudjim Dula was killed by Serbian security forces who called 
him a spy, then shot him when he came to answer his parents' 
door. There were widespread reports of attacks throughout 
Kosovo, and especially in Pristina, onthose who assisted the 
OSCE monitors.
    Another friend of mine, a doctor colleague of mine, Izet 
Hima, was a surgeon at the Gjakova hospital. Serbian 
paramilitary police executed him and burned his house down, and 
they did it in front of his two daughters and his wife. These 
were not spontaneous acts of anger; they were premeditated, and 
Serbian forces have clearly targeted those in positions of 
leadership and respect in the ethnic Albanian community in 
Kosovo.
    I have only listed a few cases, a few incidents. Summary 
executions, mass killings, forced expulsion of civilians from 
their homes--these continue everyday throughout Kosovo. I am 
presenting to this committee a list of places where summary 
executions are believed to have taken place since the departure 
of the verification mission. I am going to present it to you 
after I finish my statement.
    The idea that attacks on civilians began only after NATO 
began bombing is untrue. One night in late February, at 11:00 
p.m., I received a phone call saying a woman was giving birth 
on the border between Macedonia and Kosovo. The woman was--her 
name was Abida Roshi and she was 29 years old and she was from 
the village of Dinza in the municipality of Kacanik.
    Serbian forces had expelled her and her family from a 
village in the border district of Kacanik. The next morning, 
after I located an internationally marked car, I drove to the 
border area where I found the woman. She had walked back to her 
home village to bury the child who had already died, and she 
was severely ill herself. So I did what I could to help her.
    As soon as I left, Serbian security forces appeared at her 
family's house and demanded to know what they had been doing 
talking to foreigners. The family, including the mother, was 
forced to walk through a mine field and into Macedonia the next 
day. My Center and other non-governmental international 
organizations verified hundreds of such cases in the year 
before the NATO bombings, and these cases were growing rapidly 
in the months before the bombing began. The new wave of these 
cases we documented starting with Christmas 1998.
    After being ordered out of Pristina myself, I rode with my 
family to the border. I rode in the back of the car, covered by 
a sheet, so the police would not recognize me as a human rights 
activist. By the time we reached the long line of cars waiting 
to cross, we had seven adults and two children in the car.
    While in line, we were forced by Serbian police to keep the 
doors shut and windows closed for at least 24 hours. We waited 
in line for some 56 hours. As we waited, we saw many trains 
passing on the railway beside us carrying thousands of 
refugees. People in this queue started recognizing members of 
their family, people who are really being deported like cattle. 
We can see their faces out of the windows of the train. There 
are thousands and thousands of them, and the trains were coming 
every 2 to 3 hours across the border.
    We heard one man in the car behind us crying because he saw 
his elderly father in the crowded window of one passing train 
headed for the Macedonian border. Hours later, the train would 
return empty and new people were loaded and brought to that 
place.
    When we finally reached the Blace border-crossing at the 
border with Macedonia, the situation was inhuman. The flow of 
deportees into Blace seemed to be well-coordinated between 
Serbian and Macedonian border guards. The deportees slept in 
the open, in an enormous muddy pit, with little or no water at 
all, no food for the first 2 days. There was no proper medical 
care, and international aid organizations were not permitted 
access to the camp by the Macedonian police. I personally was 
kept from providing immediate aid to a 17-day-old baby, a 
citizen from my town, an infant suffering from severe 
dehydration. The baby died in my hands.
    The mother didn't want anybody to take the baby away. The 
mother was a 20-year-old citizen of Pristina and she had 
delivered the baby without any medical care in Pristina, and 
she was forced to flee and she spent 12 hours at the railway 
station in Pristina before she was deported. She was put on the 
train and deported in Blace.
    Conditions for deportees outside Kosovo are now improving 
somewhat. However, the situation at the Radusa camp, which is 
still controlled by the Macedonian government, is appalling. 
Deportees are treated like prisoners, live in the open, have no 
access to clean water, and international aid agencies and 
journalists are denied access to the camp. In addition, the 
forcible relocation of deportees, as you probably know, by the 
Macedonian authorities last week has ripped hundreds of 
families apart.
    Today, my information is that in one camp called Brajde, 
two persons, husband and wife, with their child, tried to 
escape from the camp through the wire. And they were caught by 
Macedonian police, who beat the woman and lacerated the throat 
of the man with a knife. And this case is being documented by 
human rights activists in Skopje, Macedonia.
    As bad as this situation is, I am more frightened than ever 
about the situation inside Kosovo. We know that many terrible 
crimes are being committed there now. Mr. Chairman, we know 
from the reports that are getting out. We know because we have 
seen it day after day, month after month, for a year in almost 
every village in Kosovo. We have seen it since 1990, 
practically, but not on a large scale. We know that people are 
starving, that they are being marched out of their homes, that 
the men are being separated from their families and that many 
of them are being killed.
    As you can hear from my testimony, the facts about the 
situation in Kosovo and on the border in Macedonia speak for 
themselves. I cannot really add to these facts, but I must say 
again NATO bombs did not cause this situation. Milosevic did 
it, his politics, his regime. NATO bombs did not force me from 
my home. The Serbian forces did. I am grateful for the NATO 
bombs, really. They were our only protection when we were in 
Pristina.
    Nevertheless, we must have more than bombs in Kosovo and 
bread in Macedonia. At this moment inside Kosovo, the majority 
of civilians are starving. They have had practically no food or 
medicine for weeks. The majority of civilians are not living in 
their own houses, but they are hiding in basements or dying in 
fields. Bombing is not protection enough for these people 
inside Kosovo; it will not stop the executions and it will not 
stop the starvation. Also, bombing will not change the 
situation in Macedonia or in Albania either.
    Humanitarian aid for the camps is badly needed, but does 
the world expect to care for these people forever in border 
camps? Clearly, the only solution is for them to return to 
their homes, and that is what they want. We have talked to 
hundreds and hundreds of deportees and they all want to stay 
near their homes. We shouldn't cut their hope that soon they 
are going to go back home. To do that, they must be protected. 
They must be protected by a NATO force inside Kosovo.
    I know this committee deals primarily with refugees, 
immigration, not with military matters. But immigration to 
Europe and the United States is not the answer for deportees 
from Kosovo. For us, there is only one answer--to go home in 
safety, to rebuild our lives, and to rebuild our homes.
    Mr. Chairman, members, thank you for listening to me.
    Senator Abraham. Thank you very much.
    Dr. Dobruna. And I will add this list also for your record.
    Senator Abraham. Thank you very much, doctor.
    [The prepared statement and attachment of Dr. Dobruna 
follow:]

                Prepared Statement of Dr. Vjosa Dobruna

    Mr. Chairman, members of the committee, thank you for having me 
before this committee. My name is Dr. Vjosa Dobruna. As a pediatrician 
and human rights activist I founded and direct the Center for 
Protection of Women and Children, a community clinic in Pristina, 
Kosovo. The Center works with war trauma victims, families in need and 
handicapped children. We also cooperate with international non-
governmental and private voluntary organizations to monitor 
humanitarian and human rights violations.
    I am here to discuss the humanitarian catastrophe in and around 
Kosovo. I would also like to share with you some of my experiences 
during the recent weeks of the massive and systematic Serbian campaign 
of attacks against civilians in Kosovo.
    Over one million Kosovars have been forced from their homes, and 
are now outside Kosovo or stranded inside. As of now, at least 500,000 
civilians are trapped inside Kosovo, without access to food, medical 
care or even shelter. That figure does not include the approximately 
100,000 young men also believed to be missing. Conditions inside Kosovo 
are completely desperate and full of terror. Children and the elderly 
are dying right now of starvation and exposure.
    I want to make an important point here about the people who have 
left Kosovo. These people, myself included, we are not refugees. We are 
deportees. We have been forced to leave our homes, we did not choose 
this. We did not run, even though conditions were very bad. We stayed 
until we were forced out. So I ask you to please refer to us as 
deportees, not refugees.
    Pristina, which until two weeks ago was a city of more than 250,000 
inhabitants, now has a population of only 15,000-20,000, mostly Serbs. 
I was among those forced to leave Pristina by Serbian security forces. 
Before forcing us out of town, Serbian security troops demanded money 
and beat us, both my sister and I. They beat my brother-in-law very 
badly, threatening his wife that they would kill him.
    Even before I left Pristina, I had changed apartments every night 
for the previous six nights, ever since I was told by a friend that my 
name was on a list of targeted ethnic Albanians.
    Others on the list were not as lucky. Human rights lawyer Bajram 
Kelmendi, along with his two sons, was abducted by Serbian security or 
paramilitary forces in front of his wife and grandchildren. Serbian 
police told the family to kiss him good-bye, they would not see him 
again. Bajram's body was found two days later, on the road next to a 
gas station. He had been shot in the head repeatedly. His sons were 
killed with him.
    Security forces also targeted civilians who had worked with 
international organizations. Kujtim Dula, of the western town of 
Gjakova [Djakovica] worked with the international staff of the OSCE 
Kosovo Verification Mission, headed by U.S. Ambassador William Walker. 
Kudjim Dula was killed by Serbian security forces who called him a spy, 
then shot him, when he came to answer his parents' door. There are 
widespread reports of attacks throughout Kosovo, and especially in 
Pristina, on those who assisted the OSCE monitors.
    Another friend of mine, Izet Hima, was a surgeon at the Gjakova 
hospital. Serbian paramilitary police executed him and burned his house 
down. These were not spontaneous acts of anger. They were 
premeditated--and Serbian forces have clearly targeted those in 
positions of leadership and respect in the ethnic Albanian community in 
Kosovo.
    I have only listed a few incidents. Summary executions, mass 
killings, the forced expulsion of civilians from their homes; these 
continue every day throughout Kosovo. I am presenting to this committee 
a list of places where summary executions are believed to have taken 
place since the departure of the verification mission.
    The idea that attacks on civilians began only after NATO began 
bombing is untrue. One night in late February, at 11 PM, I received a 
phone call saying a woman was giving birth on the border between 
Macedonia and Kosovo. Serbian forces had expelled her and her family 
from a village in the border district of Kacanik. The next morning, 
after I located an internationally marked car, I drove to the border 
area, where I found the woman. She had walked back to her home village 
to bury the child, who had already died, and she was severely ill 
herself, so I did what I could to help. As soon as I left, Serbian 
security forces appeared at the family's house and demanded to know 
what they had been doing talking to foreigners. The family, including 
the mother, was forced to walk through a minefield and into Macedonia. 
My center and other non-governmental and international organizations 
verified hundreds of such cases in the year before the NATO bombing, 
and these cases were growing rapidly in the months before the bombing 
began.
    After being ordered out of Pristina myself, I rode with my family 
to the border. I rode in the back of the car, covered by a sheet, so 
the police would not recognize me as a human rights activist. By the 
time we reached the long line of cars waiting to cross, we had seven 
adults and two children in the car. While in line, we were forced by 
Serbian police to keep the doors shut and windows closed for at least 
24 hours; we waited in line for some 56 hours. As we waited, we saw 
many trains passing on the railway beside us, carrying thousands of 
refugees. We heard one man in the car behind us cry out, because he saw 
his elderly father in the crowded window of one passing train, headed 
for the Macedonian border. Hours later the trains would return empty.
    When we finally reached the Blace border crossing at the border 
with Macedonia, the situation was inhuman. The flow of deportees into 
Blace seemed to be well-coordinated between the Serbian and Macedonian 
border guards. The deportees slept in the open, in an enormous muddy 
pit with little or no water or food for the first two days. There was 
no proper medical care, and international aid organizations were not 
permitted access to the camp by the Macedonian police. I personally was 
kept from providing immediate aid to a 17-day old infant suffering from 
severe dehydration; the baby died.
    Conditions for deportees outside Kosovo are now improving somewhat. 
However, the situation at the Radusa camp, which is still controlled by 
the Macedonian government, is appalling. Deportees are treated like 
prisoners, sleep in the open, have no access to clean water, and 
international aid agencies and journalists are denied access to the 
camp. In addition, the forcible relocation of deportees by the 
Macedonian authorities last week has ripped hundreds of families apart.
    As bad as this situation is, I am more frightened than ever about 
the situation inside Kosovo. We know that many terrible crimes are 
being committed there now. Mr. Chairman, we know from reports that are 
getting out. We know because we have seen it day after day, month after 
month for a year, in almost every village in Kosovo. We know that 
people are starving, that they are being marched out of their homes, 
that the men are being separated from their families, and that many of 
them are being killed.
    As you can hear from my testimony, the facts about the situation in 
Kosovo and on the border in Macedonia speak for themselves. I cannot 
really add to these facts, but I must say again, NATO bombs did not 
cause this situation. NATO bombs did not force me from my home. Serbian 
forces did. I am grateful for the NATO bombs. They were our only 
protection when we were in Pristina.
    Nevertheless, we must have more than bombs in Kosovo and bread in 
Macedonia. At this moment inside Kosovo, the majority of civilians are 
starving. They have had practically no food or medicine for weeks. The 
majority of civilians are not living in their own houses, but are 
hiding in basements or dying in fields. Bombing is not protection 
enough for these people inside Kosovo. It will not stop the executions 
and it will not stop the starvation.
    Also, bombing will not change the situation in Macedonia or 
Albania, either. Humanitarian aid for the camps is badly needed, but 
does the world expect to care for these people forever in border camps? 
Clearly, the only solution is for them to return to their homes. To do 
that, they must be protected. They must be protected by a NATO force 
inside Kosovo. I know this committee deals primarily with immigration 
and not military matters, but immigration to Europe and the United 
States is not the answer for deportees from Kosovo. For us, there is 
only one answer--to go home in safety, to rebuild our lives and homes.
    Mr. Chairman, thank you for hearing my testimony today.
                                 ______
                                 

    Reports of Massacres by Serb Forces in Kosovo, March 27-April 8

Re: Reports of massacres in Kosovo over the past two weeks.
To: Friends of Kosovo.
From: Holly Burkhalter, Physicians for Human Rights.
Date: April 8, 1999.

    Physicians for Human Rights, Human Rights Watch, and other human 
rights and humanitarian groups are in Macedonia or Albania collecting 
information from refugees about atrocities, as are many news outlets. 
The U.S. Government is also making available on a daily basis a great 
deal of information about reported massacres. Because none of us is 
able to investigate within Kosovo, we have not been able to confirm 
most of these reports. However, in the interest of at least compiling a 
picture of how extensive killings by Serb forces appear to be within 
Kosovo, I have pulled out the reported incidents from the many sources 
that have crossed my desk to date. Again, PHR has not confirmed these 
cases, but if even a portion of the incidents are accurate, the 
situation within Kosovo is clearly perilous for the one million Kosovar 
Albanians who remain within the country at the time of this writing. I 
am afraid that we can say with confidence that thousands have been 
killed in the past two weeks.
    Note: (1) Please forgive me for not using consistent Albanian or 
Serb spellings for these towns. This document was assembled in haste. 
(2) When I had several reports of an incident, I have included them 
all. They may or may not refer to the same incident. (3) In all cases 
the victims are ethnic Albanians. In all cases but one, where the 
perpetrators were thought to be Arkan's people, the perpetrators are 
Serb military or police. (4) I did not have dates for the actual 
incidents in some cases. All the incidents were reported to have 
occurred within the last two weeks, unless otherwise stated. (5) Final 
note: This is not exhaustive, by any means. It is simply a portion of 
the reports that have filtered out of killings over the past two weeks. 
I have not included in this list reports of detentions, rapes, or other 
abuses which have been reported.
    Srbica: 115 ethnic Albanian males executed by Serb forces (Source: 
USIA report of 4/1 covering events of the previous week, based on U.S. 
intelligence sources.)
    Pec: 50 ethnic Albanians killed and buried; Arkan's men thought to 
be the perpetrators. (Source: USIA report of 4/1.)
    Drakovica: 70 bodies found in two houses, 33 bodies found in nearby 
river. (Source: USIA report of 4/1.)
    Rogove: Serb forces execute 50. (USIA Report of 4/1.)
    Landovica to Balla e Cerges, southern Kosovo: The KLA reported on 
3/27 that 500 people had been massacred in southern Kosovo. Source: 
Kosovo Briefing #59, Open Society Institute.)
    Srbica: 150 Albanians were reportedly short dead in the Srbica 
sports stadium. (Source Sunday Telegraph, 3/28.)
    Suka Reka: 100 civilians were killed in Suva Reka. (Source: 
Committee for the Defense of Human Rights and Freedoms, Pristina.) 50 
were killed in Orahovic and Suva Reka. (Source: AFP, citing Albanian 
Television on 3/27.) The USIA report of 4/7 cited refugee sources as 
claiming that 40 men were killed at Suva Reka on April 4, and their 
bodies dumped into mass graves.
    Krushe Evogel: 112 men were burned to death in a school house on 
April 1. (Source: The Times of London, 4/3.)
    Velika Krusa/Mala Kruse: More than 100 killed by shelling. Witness 
Melaim Bellanica brought out a list of 26 names. (Source: Associated 
Press, citing the BBC.) Human Rights Watch reported that a massacre 
occurred at Velika Krusa with 40 adult male victims. Human Rights Watch 
indicated that there appears to have been a separate massacre at Mala 
Kruse, with 12 victims. CNN reported 112 victims at Mala Kruse.
    Gjakove: There were large scale killings in Gjakove beginning on 3/
24. (Source: Human Rights Watch, 4/3.)
    Location? 500 men were marched into a field and killed. (The Times 
of London, 4/6/99, location not given.)
    Location? 15 young men were massacred. (Source: Sunday Telegraph, 
4/4/99. No location cited.)
    Location? Four children were killed when their parents did not have 
money for bribes to get across the border. (Source: New York Times, 4/
6. No location cited.)
    Sopine Village: Serbe police killed 10 people at Sopine village. 
(Source: New York Times, 4/6/99.)
    Ternse: Serb police killed 47 at Ternse. (Source: New York Times, 
4/6/99.)
    Izbica: 150 people, including women and children were killed at 
Izbica. (Source: The KLA, as cited by the Washington Post on 4/6. US 
Government sources report 270 killed since mid-March in Izbica, which 
were cited in the USIA's 4/7 report.)
    Pusto Selo: 70 were killed at Pusto Selo. (Source: The KLA, as 
cited by the Washington Post on 4/6.)
    Jovic: 34 people were killed at Jovic. (The KLA, as cited by the 
Washington Post, 4/6.) This incident was also cited in the 4/7 USIA 
document.
    Pec-Prizren Road: 15 were killed on the Pec-Prizren road. (Source: 
Human Rights Watch 4/2.)
    Location? 50 villages torched since 4/3, 22 reported atrocities, 3 
mass graves in Dureka area in Malisevo and in the Pagarusa Valley. NATO 
seeking information on 27 incidents of atrocities. (Source: James Shea, 
NATO spokesman, 4/7.)
    Gornje Obrinje: 12 killed in Gornje Obrinje. (Source: US Government 
sources, 4/7.)
    Pristina: 6 paralyzed patients at Pristina hospital killed. 
(Source: Ambassador David Scheffer, War Crimes report, 4/1-2.)
    Kuraz Village: 70 bodies were found in Kuraz village on April 1. 
(USIA report, 4/7.)
    Bruznic: Serb forces reportedly burned down this village near 
Vucitrn last week. A Kosovar Albanian refugee also claimed that Serb 
forces have killed 100 ethnic Albanians (at Burznic?) Since the 
Rambouillet conference. (Source: USIA report, 4/7.)
    Negrovce: According to refugee reports, Serb forces reportedly 
executed five ethnic Albanians on 5 April. (Source: USIA report, 4/7.)

    Senator Abraham. We will now turn to Ms. Kelmendi. Thank 
you very much for being here as well. We appreciate it.

                 STATEMENT OF AFERDITA KELMENDI

    Ms. Kelmendi. Mr. Chairman, members of the committee, my 
name is Aferdita Kelmendi. I am the Director of Radio/TV 21, in 
Pristina, and I am honored to appear before you today.
    I thank you for calling this hearing, and I hope that 
through my testimony you will understand, and those who are 
watching and listening will understand what a terrible thing 
has happened in Kosovo. I hope you will hear my story and ask 
yourself, how could this have happened? But more importantly, I 
hope you will ask, how can we stop it?
    I wish it were over, but I know it is not over, especially 
for thousands of people still trapped inside of Kosovo. They 
are starving and they are afraid for their lives. I know this 
because I was starving, too, and I was afraid for my life and I 
was afraid so much for the lives of my children.
    Before I tell you my story, I want to make one important 
point, the same point my friend Vjosa has made. I am not a 
refugee. I did not leave Kosovo by choice. I was forced to 
leave and my family was forced to leave. I am not running from 
a civil war. I am a deportee, as all my friends, my journalists 
and my people were deported. I was forced to leave by men with 
black caps and guns who came specifically to make me leave.
    When I came to my radio station on the morning of March 29, 
before I arrived, I saw from a distance the police raiding the 
station. They broke down the door and destroyed the entire 
station and all of its equipment. I stayed back by the car and 
then I drove quickly to where my family was hiding. Three 
families were hiding in one house, 21 people in two rooms.
    We were very afraid that they would come to find us, so we 
left in three cars, seven people in each car. We were going to 
hide in another flat. We did not want to leave Pristina. But as 
soon as we were on the road, we were stopped by two armed men 
in a green Mercedes. They demanded that we pay them 200 DM, 
deutschemarks, for each car or they would burn our cars with us 
inside. And, of course, we paid. These men then forced us to 
follow them. When we asked where we were going, they told us to 
shut up and threatened to kill us. They led us to the edge of 
the city on the road to Macedonia and they told the police at 
the checkpoint to let us pass, apparently because we had paid.
    Once we were on the road, which is only 35 miles to the 
Macedonian border, we were stopped twice, each time by a group 
of armed men who demanded more money from us. And, thank God, 
we had money to give them. Both times, I was not sure whether 
we would be killed or allowed to go.
    About one-and-a-half miles from the border, we reached the 
end of a long line of cars. We stopped there and we waited. We 
waited there for 3 days and 3 nights. We had no food. There 
were seven in our car and we were all starving. Everyone in all 
the cars around us were starving. You could hear children 
crying for lack of food. We had only a little bit of water, so 
we took small sips and stayed very still to conserve energy.
    After 3 days, my son decided to walk to the border to see 
what was happening. He came back after 3 hours and he told us 
that the border was closed to cars. So we abandoned the car and 
we all got out and walked one-and-a-half miles. When we reached 
the border near Blace, we entered the field in ``no man's 
land.''
    In that field, conditions were horrible. Everyone was 
exposed to the rain and cold. There was no food, no tents, no 
medical help. There was only huddled people, some of whom were 
very, very sick, and some of whom were dying. We were there for 
7 hours. Amazingly, by pure coincidence, I saw Vjosa across the 
field and we met together. Vjosa knew a physician from Doctors 
of the World who had come into the field to try to help the 
sick people.
    When this physician was going out, she took Vjosa by the 
hand, and Vjosa took my hand and I took my child's hand, until 
we had a chain of seven people. We walked to the Macedonian 
police barrier. The police let out the doctor and Vjosa, but 
they stopped me and said, where are you going with them? I 
looked him in the eye and spoke in Macedonian, which surprised 
him, and I said I am a doctor and we are taking these people 
out. So he let me and my family out, and that was the 1st of 
April.
    Although my story is horrible, I know many others whose 
stories are worse than mine. My own friend, Gazmend Berisha--he 
was a correspondent for my radio station in Suva Reka; he did 
not get out. They executed him in the street. I still cannot 
believe that I will never hear his voice again. I cannot even 
bear to think about it.
    As terrible as that is, and as terrible as my situation has 
been, what is more terrible is that there are still people 
trapped inside Kosovo. We know they have no food. We know they 
are constantly afraid, saying to themselves maybe today they 
will come and kill my brother, my sister; maybe they will put 
my old mother on the train and force her to leave; maybe they 
will take my little son and I will never see him again.
    We must help these people. Please, Mr. Chairman, I ask 
America to help. I want to thank NATO for the help you have 
already given. When we were in Pristina, we would say we wish 
we could have bombing 24 hours a day. Only when we hear the 
bombs dropping do we know they will not come for us.
    But bombs cannot stop these men with guns and black masks. 
Bombs cannot make it safe for me and for my family to return to 
our homes. We must have protection. We cannot go back without 
the protection of NATO. If, and only if, NATO comes to protect 
us, then the killing will stop. Then the starvation will end. 
Then it will be safe to return to our homes; only after NATO 
comes, not before.
    Mr. Chairman, I am a journalist. My good friend Gazmend 
Berisha was a journalist. We set up my radio station, Radio 21, 
to be a voice for the people of Kosovo, the first free, 
independent voice in Kosovo on the radio. We are a voice for 
peace and for democracy. We are a voice of moderation. But our 
voice has been silenced. Now, Kosovo has no voice. We hear 
nothing from Kosovo, only black silence.
    So I want to go back to help give the people their voice 
back. I know we can start over, even though we have nothing, 
but we cannot do it without your help and the help of the 
United States. I hope you will help us. I hope you will give us 
protection so we can return and start again from the beginning.
    Thank you very much for hearing my testimony today.
    Senator Abraham. Thank you. We all know how hard this has 
been and we appreciate what you have done today. Thanks a lot.
    [The prepared statement of Ms. Kelmendi follows:]

                Prepared Statement of Aferdita Kelmendi

    Mr. Chairman, members of the committee, my name is Aferdita 
Kelmendi. I am the Director of Radio/TV 21 in Pristina, and I am 
honored to appear before you today. I thank you for calling this 
hearing, and I hope that through my testimony you will understand, and 
all those watching and listening will understand, what a terrible thing 
has happened in Kosovo. I hope you will hear my story and ask 
yourselves, ``How could this have happened?'' But more importantly, I 
hope you will ask, ``How can we stop it?'' I wish it were over, but I 
know it is not over, especially for thousands of people still trapped 
inside Kosovo. They are starving, and they are afraid for their lives. 
I know this because I was starving, and I was afraid for MY life, and 
my children's lives.
    Before I tell you my story, I want to make one important point, the 
same point my friend Vjosa has made. I am not a refugee. I did not 
leave Kosovo by choice. I was forced to leave, and my family was forced 
to leave. I am not running from a civil war. I am a deportee. I was 
forced to leave by men with black caps and guns, who came specifically 
to make me leave.
    When I came to the radio station on the morning of March 29, before 
I arrived I saw from a distance the police, raiding the station. They 
broke down the door and destroyed the entire station and all of its 
equipment. I stayed back by the car, and then I drove quickly to where 
my family was hiding. Three families were hiding in one house--21 
people in two rooms.
    We were very afraid that they would come to find us, so we left in 
three cars, seven people in each car. We were going to hide in another 
flat, we did not want to leave Pristina. But as soon as we were on the 
road, we were stopped by two armed men in a green Mercedes. They 
demanded that we pay them 200 Deutchemarks for each car, or they would 
burn our cars with us inside. So of course, we paid. These men then 
forced us to follow them. When we asked where we were going, they told 
us to shut up and threatened to kill us. They led us to the edge of the 
city on the road to Macedonia, and they told the police at the 
checkpoint to let us pass, apparently because we had paid.
    Once we were on the road, which is only 35 miles to the Macedonian 
border, we were stopped twice, each time by a group of armed men who 
demanded more money from us, and, thank God we had money to give them. 
Both times I was not sure whether we would be killed or allowed to go.
    About one and a half miles from the border, we reached the end of a 
long line of cars. We stopped there, and we waited. We waited there for 
three days. We had no food. There were seven in our car and we were all 
starving. Everyone in all the cars around us were starving. You could 
hear children crying for lack of food. We had only a little bit of 
water, so we took small sips and stayed very still to conserve energy.
    After three days, my son decided to walk to the border, to see what 
was happening. He came back after three hours and he told us that the 
border was closed to cars. So we abandoned the car, and we all got out 
and walked one and a half miles.
    When we reached the border near Blace, we entered the field in ``no 
man's land.'' In that field, conditions were horrible. Everyone was 
exposed to the rain and cold. There was no food, no tents, no medical 
help. There was only huddled people, some of whom were very, very sick, 
and some of whom were dying. We were there for seven hours. Amazingly, 
by pure coincidence, I saw Vjosa across the field and we met together. 
Vjosa knew a physician from Doctors of the World, who had come into the 
field to try to help the sick people. When this physician was going 
out, she took Vjosa by the hand, and Vjosa took my hand, and I took my 
child's hand, until we had a chain of seven people. We walked to the 
Macedonian police barrier. The police let out the doctor and Vjosa, but 
they stopped me and said, ``Where are you going with them?'' I looked 
him in the eye and spoke in Macedonian, which surprised him. I said ``I 
am a doctor'' and we are taking these people out.'' So he let me and my 
family out. That was the first of April.
    Although my story is horrible, I know many others whose stories are 
worse than mine. My own friend, Gazmend Berisha, he was a correspondent 
for my radio station in Suva Reka, he did not get out. They executed 
him in the street. I still cannot believe that I will never hear his 
voice again. I cannot even bear to think about it.
    As terrible as that is, and as terrible as my situation has been, 
what is more terrible is that there are still people trapped inside 
Kosovo. We know they have no food. We know they are constantly afraid, 
saying to themselves, ``maybe today they will come and kill my brother, 
maybe they will put my old mother on a train and force her to live in a 
field, maybe they will take my little son and I will never see him 
again.''
    We must help these people. Please, Mr. Chairman, I ask America to 
help. I want to thank NATO for the help you have already given. When we 
were in Pristina, we would say ``We wish we could have bombing 24-hours 
a day.'' Only when we hear the bombs dropping do we know they will not 
come for us.
    But bombs cannot stop these men with guns and black masks. Bombs 
cannot make it safe for me and for my family to return to our homes. We 
must have protection. We cannot go back without the protection of NATO. 
If, and only if, NATO comes to protect us, then the killing will stop, 
then the starvation will end, then it will be safe to return to our 
homes. Only after NATO comes, not before.
    Mr. Chairman, I am a journalist. My good friend Gazmend Berisha was 
a journalist. We set up my radio station, Radio 21, to be a voice for 
the people of Kosovo, the first free independent voice in Kosovo on the 
radio. We are a voice for peace and for democracy. We are a voice of 
moderation. But our voice has been silenced. Now, Kosovo has no voice. 
We hear nothing from Kosovo, only black silence. So, I want to go back, 
to help give the people their voice back. I know we can start over, 
even though we have nothing, but we can not do it without your help and 
the help of the United States. I hope you will help us. I hope you will 
give us protection, so we can return and start again. Thank you very 
much for hearing my testimony today.

    Senator Abraham. Mr. Nimani, we appreciate your being here 
today and we will now give you the opportunity to give your 
testimony. Thank you.

                   STATEMENT OF MENTOR NIMANI

    Mr. Nimani. Mr. Chairman, members of the committee, thank 
you for giving me the opportunity to testify today. My name is 
Mentor Nimani. I worked for the Humanitarian Law Center, a non-
governmental organization monitoring human rights violations in 
Yugoslavia. Our main office is in Belgrade. I worked as the 
coordinator of the Pristina office.
    The Humanitarian Law Center worked closely with the 
International War Crimes Tribunal in The Hague gathering 
information for the prosecution of war criminals. I coordinated 
two projects. The first project investigated reports of missing 
persons. The second project monitored human rights in Kosovo 
after the OSCE, the Organization for Security and Cooperation 
in Europe, was set up in Kosovo.
    As part of the second project, our office monitored the 
trials of persons falsely accused of terrorism. A number of 
these persons were represented by Mr. Bajram Keljmendi, a 
highly respected lawyer and fighter for human rights. After the 
trials, we would meet in Bajram's office and discuss the cases, 
which were often political trials. Our office would publish 
reports discussing aspects of the trials which we considered 
unfair.
    Two weeks before the NATO bombings started, Serb 
authorities came to our office in Pristina. Luckily, the only 
one there was a cleaning woman. We were in another city in 
Kosovo investigating a report of a missing person. The cleaning 
woman later told us that the Serb authorities searched the 
office to see what we were up to. This was a bad sign. After 
the visit, we copied important data onto disks and erased 
everything from the computers.
    On March 25, the day after the bombings started, I received 
a call from my boss in Belgrade, whom I prefer to leave 
unnamed. She had received a call from Bajram Keljmendi's wife 
informing her that Bajram and their two sons had been taken 
from their home in the middle of the night by a group of armed 
men in black uniforms with police insignias. Their bodies were 
found several days after. They had been shot. Bajram's sons 
were my close friends.
    When the bombing started, my coworkers and I knew that it 
would not be safe to return to the office. During the first 8 
days of the bombings, I worked at home. People would call me at 
home to report information about what was going in Kosovo. I 
would type it up and send it to our office in Belgrade. I have 
brought a few of these reports with me today.
    It was difficult to go out into the streets. I heard 
constant reports of buildings throughout the city being 
destroyed by Serb forces. One week into the bombing, I learned 
that our office in Pristina had been looted and destroyed.
    On the ninth day of the bombings, my boss from Belgrade, 
who is a Serb, came to get me out of Kosovo. She feared for my 
safety. We tried to go to Macedonia, but there was a long line 
of cars and we could not get in. The border was closed toward 
Macedonia and there was no intention of opening it. We decided 
to go to Belgrade instead. My boss had a Serb taxi driver who 
drove us. She took me, another female coworker, and my 
coworker's brother to Belgrade. En route, we must have passed 
20 checkpoints. Each time, the taxi driver, who was the only 
one who spoke to the authorities, managed to convince the Serb 
authorities that we were all Serbians.
    I hid in my boss' apartment in Belgrade for 3 days. I did 
not feel safe there and decided to go into Montenegro. We made 
it to Montenegro without a problem, but as a young man I did 
not feel safe there as well. My co-worker's brother and I left 
for Albania. In Albania, I could continue my work.
    In Tirana, I began to talk to other refugees and document 
their stories. They spoke to me of the ordeals they had 
suffered and the atrocities they had witnessed. I spoke to one 
group of refugees from Peja, or Pec, which is in Serbian. They 
told me that the Serbian authorities had expelled them from 
Kosovo and ordered them to walk to Albania. The men were 
separated from the women, and they were threatened with death 
if they did not come up with money. To spare the men, the group 
gave the authorities all their money.
    On the way to Albania, two children and an elderly woman 
died. The group traveled without food or water, but their worst 
experience was when they reached the border. There, Serb 
authorities forced them to stay the night. While they were 
trying to sleep in the open, loud speakers played. On the loud 
speakers, they heard the voices of children screaming as they 
were being killed. They also heard continuous threats of 
atrocities that would be committed against them, including 
descriptions of how they would be killed. One woman I spoke 
with said that this was the worst experience of her life. She 
will never be able to recover from this.
    Another man and woman from Gakova, another city in Kosovo, 
described their escape from that city. Soldiers shot at them as 
they fled. They believe that 80 percent of the city has been 
set on fire and destroyed. In one mosque they passed in Gakova 
as they fled, they saw as many as 300 bodies of people slain.
    I thank you for the opportunity you have given me to tell 
the American people about what is going on in Kosovo. Everyone 
must know what is happening. Now, if I may approach to give you 
the reports I have brought.
    Senator Abraham. Certainly. We are glad to enter them in 
the record. Thank you very much, Mr. Nimani.
    [The prepared statement and attachment of Mr. Nimani 
follow:]

                  Prepared Statement of Mentor Nimani

    Mr. Chairman, Members of Committee, thank you for giving me the 
opportunity to testify today. My name is Mentor Nimani. I worked for 
the Humanitarian Law Center, a non-governmental organization monitoring 
human rights violations in Yugoslavia. Our main office is in Belgrade. 
I worked as the Coordinator of the Pristina office. The Humanitarian 
Law Center worked closely with the International War Crimes Tribunal in 
The Hague, gathering information for the prosecutions of war criminals. 
I coordinated two projects. The first project investigated reports of 
missing persons. The second project monitored human rights in Kosovo 
after the OSCE, the Organization for Security and Cooperation in 
Europe, was set up in Kosovo.
    As part of the second project, our office monitored the trials of 
persons falsely accused of terrorism. A number of these persons were 
represented by Bajram Keljmendi, a highly respected lawyer and fighter 
for human rights. After the trials, we would meet in Bajram's office to 
discuss the cases, which were often political trials. Our office would 
publish reports, discussing aspects of the trials we considered unfair.
    Two weeks before the NATO bombing started. Serb authorities came to 
our office in Pristina. Luckily, the only one there was the cleaning 
woman. We were in another city in Kosovo investigating a report of a 
missing person. The cleaning woman later told us that the Serb 
authorities searched the office to see what we were up to. This was a 
bad sign. After this visit, we copied important data onto disks and 
erased everything from the computers.
    On March 25, the day after the bombing started, I received a call 
from my boss in Belgrade who I prefer to leave unnamed. She had 
received a call from Bajram Keljmendi's wife informing her that Bajram 
and their two sons had been taken from their home in the middle of the 
night by a group of armed men in black uniforms with police insignias. 
Their bodies were found several days later. They had been shot. 
Bajram's sons were my close friends.
    When the bombing started, my co-workers and I knew that it would 
not be safe to return to the office. During the first eight days of the 
bombings, I worked at home. People would call me at home to report 
information about what was going on in Kosovo. I would type it up and 
send it to our office in Belgrade. I have brought a few of these 
reports with me today. It was difficult to go out into the streets. I 
heard constant reports of buildings throughout the city being destroyed 
by Serb forces. One week into the bombing, I learned that our office in 
Pristina had been looted and destroyed.
    On the ninth day of the bombings, my boss from Belgrade, who is a 
Serb, came to get me out of Kosovo. She feared for my safety. We tried 
to go to Macedonia, but there was a long line of cars and we could not 
get in. We decided to go to Belgrade instead. My boss had a Serb taxi 
driver who drove us. She took me, another female co-worker, and my co-
worker's brother to Belgrade. En route, we must have passed twenty 
check points. Each time, the taxi driver, who was the only one who 
spoke to the authorities, managed to convince the Serb authorities that 
we were all Serbians. I hid in my boss's apartment in Belgrade for 
three days. I did not feel safe there and decided to go into 
Montenegro. We made it to Montenegro without a problem. But, as a young 
male, I did not feel safe there either. My co-worker's brother and I 
left for Albania. In Albania, I could continue my work.
    In Tirana, I began to talk to other refugees and document their 
stories. They spoke to me of the ordeals they had suffered and the 
atrocities they had witnessed. I spoke to one group of refugees from 
Peja. They told me that Serb authorities had expelled them from Kosovo 
and ordered them to walk to Albania. The men were separated from the 
women and they were threatened with death if they did not come up with 
money. To spare the men, the group gave the authorities all their 
money. On the way to Albania, two children and an elderly woman died. 
The group traveled without food or water. But, their worst experience 
was when they reached the border. There, Serb authorities forced them 
to stay the night. While they were trying to sleep in the open, loud 
speakers played. On the loud speakers they heard the voices of children 
screaming as if they were being killed. They also heard continuous 
threats of atrocities that would be committed against them, including 
descriptions of how they would be killed. One woman I spoke with said 
that this was the worst experience of her life. She will never be able 
to recover from this.
    Another man and woman from Gakova described their escape from that 
city. Soldiers shot at them as they fled. They believe that eighty 
percent of the city has been set on fire and destroyed. In one mosque 
they passed in Gakova as they fled, they saw as many as 300 bodies of 
people slain.
    I thank you for the opportunity you have given me to tell the 
American people about what is going on in Kosovo. Everyone must know 
what is happening.
                                 ______
                                 

           [From the Humanitarian Law Center, Apr. 12, 1998]

                 YHRF #10--From Montenegro to Pristina

                           (By Natasa Kandic)

    None of the Kosovo Albanian displaced now in Rozaje (northern 
Montenegro) and Ulcinj (Adriatic coast) have tried to return to Pec. 
Only local Muslims go to take food and medicine to the mostly elderly 
Albanians who are still in Pec. Albanians from Istok and surrounding 
villages started arriving in Rozaje on Friday, 9 April.
    Though it seems as if all Kosovo is in Rozaje, no international 
humanitarian organizations have a presence here. Reporters come, take 
notes if the story is about a massacre, and then return to Podgorica to 
wait for a military coup. There are over 1,000 people in the mosque--
children, elderly, sick. They have not had a bath since they came to 
Montenegro on 27 or 28 March. Younger men are seeking ways to get out 
of the country and find somewhere to make a living. They would all send 
their families back to Kosovo if their safety was guaranteed.
    A teacher from Pec tells me the inhabitants of her neighborhood 
were driven from their homes and taken to the indoor sports stadium on 
30 March. They were held for 12 hours and then the army returned them 
home. The next day, they were again driven out and ordered to go to 
Montenegro. The first men who drove them out and took them to the 
stadium had camouflage paint on their faces and wore black caps. The 
teacher said the soldiers who took them home said, ``We have orders 
that you should return to your homes.'' Those who ordered them to leave 
for Montenegro, she says, wore police uniforms.
    Here in Rozaje, I was told that several people were killed while 
the inhabitants were being driven from their homes. Five men were 
killed in the yard of the Kastrati house in the Brzenik II 
neighborhood. A woman whose son, Nevzat, was killed, says her son, two 
brothers with the last name Gega, and another three men were 
slaughtered in front of her. Some odd men in uniforms and caps on their 
heads came into their yard, she says. They seemed to be drunk and 
shouted and cursed. They told her she would not be killed, that they 
would let her live so she would pine for her dead son. They killed the 
men with knives. Nevzat bled to death in his mother's arms. One of the 
Gega brothers, whose belly had been slit open, lingered on for a few 
hours. Other uniformed men came the next day and took the bodies away 
in a truck.
    When I said I was going to Pristina, everyone in Rozaje was 
astounded. As I was leaving the town, the police wished me good luck. 
The road to Pristina via Novi Pazar and Kosovska Mitrovica was 
deserted--not a single vehicle. My first impression was that Pristina 
too was deserted. The first block of apartment buildings in the Suncani 
Breg district, before Matican village, was empty. Cars stood in the 
parking lot. Friends of mine lived on the second floor of one of 
thesebuildings. I went up, rang the doorbell and knocked. Then I tried 
the knob and the door swung open. Everything inside was as it used to 
be, at least at first glance. I met only two women on the block. The 
residents were given 10 minutes to leave their apartments and go to the 
railway station.
    On the next block, I saw children playing and found some friends. 
The police had not been there. But many people left nonetheless, 
fearing that they would be ordered out of their homes at any minute. 
Some returned on Sunday and Monday (3 and 4 April). They had waited 
several days at the border and, seeing that police were not preventing 
people from returning, they decided to go back home. Besides the 
residents, there are people from other neighborhoods in these 
buildings. Serbs and Albanians are keeping together. They lock the 
front entrance at night and no one can either leave the buildings or 
come in. People listen to the news until the power is cut. Only a few 
phones work. They are not in touch with their family members or 
relatives in other Kosovo towns and villages.
    They keep talking about the events from 31 March to 3 April. By a 
quirk of fate, several people from the Taslidze neighborhood remained 
in Pristina--they were not there when the inhabitants were being driven 
from their homes. Pristina was gripped by panic when the expulsions 
from the suburban areas started. Rumors of killings and disappearances 
ran round. Nobody dares report disappearances to the Serbian police. 
The bombings in fact do not scare Albanians as much as ``those'' who 
will come and slaughter them--``those'' being paramilitaries, police or 
armed gangs.
    Listening to the news on the BBC, Sky News, Tirana TV and Serbian 
TV, they gather that Pristina was not as badly hit as Pec, Djakovica or 
Prizren. The downtown cafes were blown up before the NATO intervention. 
Some civilian facilities were destroyed by the NATO attacks and there 
were civilian casualties. Everybody, myself included, is afraid of 
being accused of spying and we kept away from the ruins.
    On the night of 6/7 April, I talked for a long time with my friends 
by candlelight. D. tells me it is the women who bring the news about 
local events and that they get their information while standing in line 
for bread. They tell the men when it is safe to go out or to visit with 
friends in neighboring buildings. Everyone watches the news and then 
talk it over. Another major topic is ``what do our Serb neighbors 
say.'' These neighbors are ordinary people but a lot of importance is 
attached to their words. According to D., every half hour or so, a 
housewife comes to his apartment with new information from the Serbs: 
``They say the situation is better today,'' or ``they say it will be a 
bit better tomorrow.''
    We were just leaving at about midnight when explosions were heard 
and continued until daybreak. The phones were all out in the morning 
and somebody said the main post office must have taken a hit. It was 
only when I came back to Belgrade that I learned that not only the post 
office but the Social Security Department building had also been hit 
and that there were civilian casualties.
    Before I left for Belgrade, I went to check up on the HLC office. I 
had heard the police had been there. There was a police officer outside 
the building. He let me in but said I was not to touch anything as 
``something was found in here and the police will be investigating.'' 
As soon as I was inside, an elderly lady with a dog ran up, shouting 
``Call the State Security; I was told to report if anybody came to this 
office.'' The officer remained silent. ``Well, I'll be on my way now,'' 
I said and left. I shook with fright as she shouted after me, and 
heaved a sign of relief once I had left Pristina.
    On the way to Belgrade, I saw several large groups near Kosovska 
Mitrovica. They were on foot, with children, making for Vucitrn. I 
asked where they were going. ``Home, but we're not sure if we can,'' 
was their reply. When I told them to go back home, they remained silent 
and just plodded on. ``People are returning to Pristina; go back 
home,'' I cried out to them.
    After Raska and about ten kilometers from Kosovoska Mitrovica, I 
waited for hours near a bridge that had been destroyed by NATO, hoping 
to find some kind of transportation. A villager came up and warned me 
sternly that I was not to stand on their land. He said he had seen a 
Muslim woman under the bridge before it was bombed.
                                 ______
                                 
          monday and tuesday in kosovo, march 29 and 30, 1999
    I reached Pristina before nightfall. I could not get to the HLC 
office. The building is opposite the Police Department and prison and 
the front entrance was locked. Someone inside said, ``We don't know you 
and we won't open the door.'' By his accent, I knew the man was Serb 
and he must known by mine that I was Serb too. I knew that the 
residents were Serb and Albanian and I saw their determination to allow 
no strangers into the building as the good side of Pristina. I went 
round the back and saw guards at the entrance of the neighboring 
building. Several men were standing behind neatly stacked sandbags. I 
spoke with them and learned that they were Serb and Albanian residents 
of the building and that they were guarding their homes. They had 
agreed that Serbs would defend Albanians from the police, the Albanians 
would defend Serbs that the KLA and all would defend themselves from 
paramiltaries and other bands. When air raid warnings are sounded, 
everyone goes down to the shelter except those standing guard.
    From there I went to Nora's. I had just arrived when a weeping 
neighbor rushed into the apartment: ``They have taken our car.'' Three 
men in police uniform had come, she said, forced open the car door and 
drove it away. ``Better the car than your son,'' said Nora's father. I 
dialed over 20 phone numbers. Most phones were not working. It was 
quiet until 4 a.m. Then there were explosions, followed by silence.
    When day broke, I went to see some friends. The Keljmendis phone 
was cut off. Bajram Keljmendi's shingle was still on the door of his 
law office. Neighbors told me they hadn't seen his wife Nekibe since 
the burial of Bajram and their sons. I asked them to give her my 
regards. Then, together with Nora, a relation of Fehmi Agani and a 
driver from Belgrade, I made my way to Dragodan, Fehmi Agani's 
neighborhood. When we reached it, we were stopped by police. They asked 
to see our papers and when they saw that Nora and Arsim were Albanian, 
the one in charge ordered them out of the car. I got out too, saying we 
all worked for the same organization and were looking for a friend. The 
officer replied that Albanians no longer worked in Serbia and should be 
on their way to Macedonia. I asked since when police had the authority 
to fire people and he yelled at me to get back in the car and shut up. 
I sat on the seat, leaving the door open and my legs outside the car. 
He slammed the door against my legs, saying Serbia was being ruined by 
such Serbs. The one in charge called someone over his Motorola. This 
lasted about 10 minutes and then he waved us on. We made our way back 
to the center, hardly believing that we had got off so lightly. We 
drove through side streets to the Suncani Breg district. On the way, we 
saw wrecked and looted stores and kiosks. We found Vjollca but she was 
determined to stay with her family in Pristina. We were driven away by 
her Serb neighbor. ``What kind of gathering is this? No loitering! 
Albanians, inside your homes!'' he said.
    In all-Albanian districts, we encouraged groups of people 
discussing what to do: should they make their way to the border or stay 
until the police ordered them out of their homes? Some told me no more 
than 1,000 people were left in Pec, those who managed to get out of the 
column the police and military escorted to the Montenegrin border. None 
of them knew if it was true that Fehmi Agani had been killed, not even 
his relations. They had heard the report on CNN. Nor was there any 
reliable news of Baton Jakdziju, the editor of Koho Ditore. People kept 
to their homes. Only the bravest went to see relations who live near 
by. Only a few phones were working.
    The streets of downtown Pristina were almost deserted. People were 
in their apartments or the stairways of their buildings. In one of 
these buildings, we spoke to residents and found Mentor. He was just 
about to leave for the border. Everyone we spoke to was in a panic. 
With one exception, an Albanian, who calmly repeated he would not leave 
his home until he was thrown out. An elderly Serb woman came in and 
stopped for a moment to chat with her neighbors. She too appears to be 
fearless.
    We started out for Macedonia, in two cars, at about noon. It's 75 
kilometers to the Djeneral Jankovic crossing. Several cars coming from 
side streets joined us. When we were on the road to the border, there 
were hundreds of cars behind us. The plan was to get to the border, 
wait until Ariana and Mentor had crossed and then Nora and I would make 
for Belgrade. Three kilometers from the border, the column stopped. 
Rumors flew around the border was closed, that police were taking cars, 
that they were separating out the men * * * The sight of police with 
masked faces in the column frightened us and we decided to return to 
Pristina. No one prevented us. People asked us what was going on and we 
tried to persuade them to go back home. But only a few cars followed 
us. As we drove back, we saw that there were more than 2,000 cars in 
the column. We also saw groups making their way on foot, all gripped by 
a terrible fear.
    We got back to Pristina, dropped off Ariana and the others and I, 
Nora, her brother, and Mentor headed for Belgrade. I was afraid of what 
would happen at police checkpoints. The first was just outside Pristina 
on the road to Gnjilane. Our driver asked a policeman if the road to 
Gnjilane was open. ``Depends on the name,'' was the reply. The officer 
checked the driver's papers and let us through. The driver's papers 
were examined at the other checkpoints too and we were allowed to 
continue. Soldiers at a military checkpoint 10 kilometers outside 
Pristina asked to see all our papers. There were no problems. We 
reached Belgrade at about 10 p.m.
    Yugoslavia Human Rights Flash is an HLC bulletin containing the 
latest information on human rights in Kosovo, Serbia and Montenegro. 
Only reports received by the HLC offices in Belgrade and Pristina are 
published.
                                 ______
                                 

                    Yugoslavia Human Rights Flash #1

        lawyer bajram keljmendi and sons missing--march 25, 1999
    Bajram Keljmendi, a leading Kosovo Albanian lawyer, and his two 
sons, Kastriot (30) and Kushtrim (16), were taken from their home in 
Pristina at 2 a.m. on 25 March. All trace of them has been lost. 
Keljmendi's wife, Nekibe, also a well known lawyer and Secretary 
General of the Democratic Alliance of Kosovo, informed the Humanitarian 
Law Center that her husband and sons were taken by a group of armed men 
in black uniforms with police insignia. The men broke down the heavy 
front door of the Keljmendi home at 1:10 a.m., entered and shouted, 
``You have five seconds to come out of your rooms!''
    Nekibe came out first, followed by Kastriot, Bajram and then 
Kushtrim. She saw two of the men strike her husband with rifle butts 
and demand that he produce his weapons. Keljmendi told them he was a 
lawyer, gave his name and said his family had no guns. Using 
flashlights, the men searched and ransacked the house and broke 
furniture, accusing the Keljmendis of wanting ``a republic and NATO'' 
and said this is why ``they'' had sustained heavy casualties. After the 
search they left taking with them Keljmendi and his sons as well as two 
mobile phones and Keljmendi's Opel Vectra car (license plates PR 143-
634). Before taking them out, they told the younger son, Kushtrim, to 
kiss his brother's children because he would not see them again.
    While the men were searching the house, Nekibe Keljmendi phoned the 
police station and asked for help. She called again after her husband 
and sons were taken. At daybreak, she went to the Police Department 
where she was again told to report the case to NATO and the Kosovo 
Liberation Army, and that it was not a matter for the police.
    Yugoslavia Human Rights Flash is an HLC bulletin containing the 
latest information on human rights in Kosovo, Serbia and Montenegro. 
Only reports received by the HLC offices in Belgrade and Pristina are 
published.
                                 ______
                                 

                    Yugoslavia Human Rights Flash #5

       bodies of bajram keljmendi and sons found--march 25, 1999
    The Humanitarian Law Center has received a confirmed report that 
the Kosovo Albanian lawyer, Bajram Keljmendi, and his sons Kastriot and 
Kushtrim have been killed. Their bodies were found on 26 March at a gas 
station on the Pristina-Kosovo Polje road. According to a relative who 
discovered the bodies when he went to the station for gasoline, 
Keljmendi and his sons were shot dead.
    Yugoslavia Human Rights Flash is an HLC bulletin containing the 
latest information on human rights in Kosovo, Serbia and Montenegro. 
Only reports received by the HLC offices in Belgrade and Pristina are 
published.
                                 ______
                                 

                    Yugoslavia Human Rights Flash #2

           osce mission office in pec looted--march 25, 1999
    The Humanitarian Law Center has received information from Pec that 
Yugoslav Army special units broke into the OSCE Mission office in Pec 
and took away computers and other equipment left by the international 
observers when they departed Kosovo. Police and military guards have 
been posted outside the privately owned Miranda Hotel in which the OSCE 
had its office.
    Yugoslavia Human Rights Flash is an HLC bulletin containing the 
latest information on human rights in Kosovo, Serbia and Montenegro. 
Only reports received by the HLC offices in Belgrade and Pristina are 
published.
                                 ______
                                 

            Yugoslavia Human Rights Flash #3--March 26, 1999

    The Humanitarian Law Center has been informed that Serb forces 
torched a large number of stores owned by Kosovo Albanians in Djakovica 
and Prizren on the night of 24/25 March during the first wave of NATO 
strikes on Yugoslavia. The HLC was unable to confirm a report that 
Camilj (75), Sadik (80) and Nedzmedin (40) Zherka were killed when they 
left their homes to check up on their stores.
    In connection with the events in Djakovica, the HLC has been 
informed that Izet Hima, an Albanian medical doctor, was killed. No 
independent confirmation of the report was available.
    During the night of 25/26 March, the HLC was informed of the 
release of Bajram Keljmendi, an Albanian lawyer. Since phone links are 
cut, the report could not be confirmed.
    Yugoslavia Human Rights Flash is an HLC bulletin containing the 
latest information on human rights in Kosovo, Serbia and Montenegro. 
Only reports received by the HLC offices in Belgrade and Pristina are 
published.
                                 ______
                                 

                    Yugoslavia Human Rights Flash #4

                    situation in pec--march 26, 1999
    At about 11 p.m. on 25 March, an unidentified paramilitary group 
entered the home of Ahmet Nimani, a Kosovo Albanian shopkeeper in Pec, 
and took away all valuable items as well as two vehicles--a four-wheel 
drive and a Fiat Punto car. The first floor of the house was until 
recently used by the local OSCE Human Rights office. Thanks to the 
intervention of local Yugoslav Army commanders, the paramilitaries 
released the nine-member Ahmeti family. According to HLC information, a 
paramilitary group driving vehicles without license plates has been 
active in Pec for some time. The HLC has reliable reports that this 
group is responsible for the recent disappearances of Albanians in this 
Kosovo town. It appears that both Serbs and Albanians in Pec know some 
members of the group but fear retaliation if they identify them.
                                 ______
                                 

            Yugoslavia Human Rights Flash #7--March 27, 1999

    The expulsion of ethnic Albanians by Serbian police force is in 
full swing in the town of Pec, Kosova, this Friday. Several 
eyewitnesses called the Humanitarian Law Center to report lines of 
people forced by police in Pec to march down the road leading to 
Rozaje, Montenegro, past the town's bus station. Among them was the 
renown lawyer from Pec, Mustafa Radonici. He was recognized by his 
sister, who was looking from her window, as she lives in the part of 
the town which has not yet suffered the expulsions. The group of 
expelled Albanians consists mostly of the inhabitants of suburbs 
Kapesnica, Zatra and Karagac as well as from downtown Pec.

    Senator Abraham. At this point, if you will allow us, we 
have a few questions, I think, from some of the members of the 
committee here who would like to follow up. We will begin with 
our Judiciary Committee chairman, Senator Hatch.
    Senator Hatch.
    Senator Hatch. I would like to ask each of you how well-
organized are the Serbs, and when they arrived in your town, 
did it appear like they were working from a well-established 
plan?
    Dr. Dobruna. My understanding is that is so. I mean, they 
are organized and they have divided responsibilities. And to 
prove this is that there was a special group of people that 
were doing search of the houses and they were taking activists. 
We have the testimony of the wife of Bajram Keljmendi, the 
lawyer that was executed with two of his sons.
    And then we saw that these other police who were evicting 
us from apartments or taking us from the road to direct us out 
of the country, they didn't recognize many activists that were 
there in the queue of cars in town. So they are working 
separately, but very well-coordinated with the orders that they 
were getting from one place.
    Senator Hatch. Do you agree?
    Ms. Kelmendi. I think that it was very well-coordinated in 
a way that there was a strategy how to empty the city of 
Pristina, for example. The first day, they were threatened by 
killings, as happened with Mr. Bajram Keljmendi and his family, 
and then it started with entering in the several neighborhoods 
in Pristina, entering by force and telling the people that they 
have to leave in 15 minutes if they want to stay alive, and 
then sending them in the direction of the railway station or a 
highway in the direction of Macedonia or filling the buses in 
the direction of the border with Albania. So this is not 
something which is happening during the night. This had to be 
organized.
    Senator Hatch. Mr. Nimani.
    Mr. Nimani. Yes, I believe so. Everything that happened in 
Kosovo is in detail organized by the Serbian authorities, and 
especially the organization as far as my observation can go is 
done in that sort of a manner that it will make confusion to 
all the observers, and that that confusion will cause not 
knowing who is responsible for that sort of organization.
    That's why they organized in one way the police. In the 
other way, they organized the civilian population by giving 
them arms and then by allowing different groups, which we call 
paramilitary groups. They had different names, starting from 
the group of Arkan and then continuing with the group named 
with ``black hand'' and other groups which could be gathered--I 
mean, formed from the ordinary criminals, because we had 
information that Milosevic has taken out of prison criminals 
and sent them to Kosovo to do whatever they wanted to do.
    And other information is that kidnappings that were made, 
especially in Peja, were committed by the people which were in 
a strong link with politicians in Belgrade, and that the police 
have tolerated their activities in that city. This is the 
information.
    Senator Hatch. One of the horrifying things that we have 
noticed about this is in the pictures of the deportees, there 
is a distinct absence of men. In fact, we know that the Serbs 
have been selecting men out of the groups that they eject at 
gunpoint. In the last few days, the British government has 
suggested that as many as 100,000 men could be missing.
    So I would like to ask each of you where are the men. Do we 
have evidence that they have been taken prisoner or even worse?
    Dr. Dobruna. We still don't have confirmed information 
about where the men are. We suppose that some of them--we have 
indications that some of them were made to wear Yugoslav army 
uniforms and they were walking in front of deportees, for 
example, near the border of Albania, through mine fields. Or 
there were open graves where they were burying the massacred 
people. But there is not confirmed information what is done 
with all that number of young men.
    But I have this opportunity to say something else about the 
population of Kosovo that will help in this case. I mean, the 
population of Kosovo is a very young population. Fifty-seven 
percent of the whole population are younger than 19 and they 
are all young people that we are afraid are the ones that were 
taken and are now on the list of missing.
    Another thing that I want to mention is that since the war 
started, the most vulnerable part of the population of Kosovo, 
as always, are women and children. But the number of women and 
children among the displaced is the greatest number ever heard. 
Sixty-three percent of all displaced persons in Kosovo last 
year were children younger than 18, and 25 percent were women. 
Every third woman that was in that group of displaced persons 
was either pregnant or the mother that was breast-feeding a 
baby. It is only when we recognize these data we see how large 
is the tragedy among displaced and deportees in Kosovo because 
it is targeting primarily the most vulnerable, unprotected 
population of Kosovo.
    Ms. Kelmendi. Mr. Chairman, I don't have information where 
are these people, but I pray to God to be alive.
    Mr. Nimani. No, we don't have any information or 
confirmation of their whereabouts. The fear is that they might 
be somewhere in the cities of Rancovicevo or Paracin, but no 
confirmation.
    Senator Hatch. Thank you. We are grateful for your 
testimony and we are grateful to have all three of you here 
with us today. And we are very concerned and we will do 
everything we can to help.
    Senator Abraham. Thank you, Mr. Chairman.
    We will now turn to Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. I think for 
anyone who has been listening to these stories, it is difficult 
to hear about it, let alone imagine living through it. We thank 
you again.
    Mr. Nimani, let me ask you as someone who is a human rights 
attorney, do you think there is sufficient evidence to indict 
Milosevic as a war criminal?
    Mr. Nimani. Yes, it is.
    Senator Kennedy. Do you think we ought to be pulling that 
information together and presenting it to the authorities and 
pressing that forward?
    Mr. Nimani. Yes, I think so.
    Senator Kennedy. As a legal question--I mean, there is the 
political issue, and I know that there are those probably in 
the administration who say, well, we shouldn't do it because he 
can negotiate still, and maybe negotiate the peace. There are 
others that believe that if he is defined as a war criminal, 
maybe others in the army may findthat that is just the final 
action, and that there may be some opportunity then within the army to 
develop some potential opposition that may be willing to work and see 
some kind of resolution.
    You can express your view on that or not, but the point is 
just as a lawyer and as someone that has followed the human 
rights issues, do you think that there is sufficient kind of 
information that is available?
    Mr. Nimani. Yes. From the legal point of view, there is 
more than enough proof to indict Milosevic to war crimes.
    Senator Kennedy. And will you work with the tribunal to 
provide them information that you have available?
    Mr. Nimani. Yes.
    Senator Kennedy. I would hope, Mr. Chairman, that we would 
review the materials which we have gathered here today and make 
them available to those involved in that whole process. I 
haven't had a chance to examine that material carefully or 
closely, but this is certainly the kind of eyewitness 
information, as well as the accumulation of these documents, 
that is enormously powerful. And I think if the facts are 
there, I think myself that we ought to certainly move ahead 
with that process. I think it is a very clear continuation of 
what we are involved in, and that is basically this 
extraordinary humanitarian undertaking and involvement. So I 
would hope that we would work it out with the members of the 
committee and their staffs and perhaps with the State 
Department and Justice Department to make that available.
    I want to thank you all again for your information. And I 
would hope, Mr. Chairman, that as far as these witnesses and 
perhaps others who are associated that we could leave the 
record open so that if there are others that want to be able to 
make submissions to us to tell their story, at least we would 
have an opportunity to collect that and it would be available 
to the members, and that we would be sort of a vehicle by which 
that information--there will be others as well, but we ought to 
at least have the chance to receive that kind of information. I 
think it would be very helpful.
    Senator Abraham. Senator Kennedy, I think that is an 
excellent idea. I think probably what we should do is work out 
a process by which we can accomplish a couple of objectives. 
First, we have distributed to everybody here the two 
submissions that were made to us today, and we will get them to 
the other subcommittee members' staffs. And I think probably 
our staffs can determine a method by which the full 
subcommittee could perhaps pass the relevant information along 
on all our behalfs to the appropriate authorities.
    And in terms of the record, I think this is certainly not a 
topic we are going to leave today and not return to. So let's 
develop a process we are all comfortable with for receiving 
additional information as we go forward. Thank you.
    Senator Leahy.
    Senator Leahy. Mr. Chairman, I don't have questions. I just 
want to again thank all three of these witnesses. It has been 
difficult even to keep one's composure listening to what each 
of you have said. You see the pictures, you wonder how anything 
could be worse, and then you see more, you hear from people 
like yourselves.
    I want to compliment Julia Taft. We have changed our normal 
way of doing things. Usually, a Government official like Ms. 
Taft would testify first. I think it is an indication of her 
own sensitivity to your plight that she offered to let you go 
first so that we would hear you. And I have heard her comments 
from the refugee camps.
    As a child I heard stories of those coming back from World 
War II who had gone to refugee camps and talked about the 
terror, and wondering why people didn't move quicker, why more 
things weren't done. And you have to think, Mr. Chairman, that 
we wouldn't see this today, but we are, just as we have in 
other parts of the world.
    As I said in my opening statement, I wanted to be here not 
just because of my feelings about our own immigration laws and 
changes that should be made, changes in those laws that have 
been supported by other members of this committee, but also as 
a senior member of our Appropriations Committee, where we find 
the money, if it is there, for refugee aid.
    I can't think of anything that the committee could do that 
is more important right now than getting aid to the refugees, 
to work with the church groups and private groups and others 
who are getting aid over there, to work with those who are 
trying to make life better for those who are there, people who 
have suffered, who have seen family members killed, and others, 
to help meet not only their physical needs, but their 
psychological needs. None of us here can begin to realize how 
terrible that must be.
    And so if the Congress is to show responsibility here, it 
must act very quickly to get that aid to them. We can find the 
money to support the bombing. We are talking about far less 
money, to help those who have been displaced.
    So, Mr. Chairman, wearing both hats as a member of this 
committee--and I applaud you for having the hearing, and 
Senator Kennedy, who has had a longer interest in these 
problems than I or any of us here from his first day as a 
member of the Senate--but also as a member of the 
Appropriations Committee, we will work closely on this.
    Senator Abraham. Thank you very much, Senator Leahy.
    I understand Senator Schumer would like to go next. We 
would normally go to you, Senator Feinstein.
    Senator Schumer. I just want to ask a question after 
Dianne.
    Senator Abraham. Yes, we will. I assure you we will have 
time.
    Please go ahead, Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman.
    You have made, for me, three important points, very 
important. The first is--and I think you speak for the Kosovo 
people--that you want to go home. You made the point about 
being deportees. You don't want to go to Guantanamo Bay or 
France or Belgium or Italy, or anywhere else. You want to go 
home. That is important for this committee and the U.S. Senate 
to hear. The second point is that you need help and you need 
protection to go home. And the third point is that the war 
crimes should be documented and they should be prosecuted.
    I am very interested in the men with the black masks, who 
they take their orders from, and where they come from, and the 
kind of evidence we can get as to their identity, we need to 
bringthese people to justice, because no military allows their 
people to go into people's homes wearing black masks. And I gather the 
masks are all the same; they look like they are government-issued.
    Can you give us any information as to what branch of the 
service they belong to, where they get their orders? Have you 
ever directly seen them yourselves, anything that could be 
documentation on those who wear the masks?
    Dr. Dobruna. I have seen them myself. They are coming 
during the night, the first night that we were waiting to cross 
the border on the Kosovo side, and they were knocking on the 
windows of the cars, and we had to get out. Usually, the one 
who was driving was the one to get out, and if there were women 
who were driving, they were just stripped from their clothes 
and if they didn't give money right away----
    Senator Feinstein. You saw this?
    Dr. Dobruna. I saw it. And then if there were men--in my 
car there was a man driving, so they just told us, you have 15 
seconds to give 1,000 German marks because that is how much it 
is worth your life. So we had to do it. And they didn't have 
any other sign. The colors of the uniform were dark blue, very 
dark blue, and the masks were the same color. They go more on 
black, but they were not really black. They were dark blue-
black, that kind of color, because I have seen them during the 
day and during the night when they are extorting money and 
jewelry or anything that was of worth in our cars.
    And they didn't have any sign, but those who went to arrest 
Mr. Keljmendi and his two sons, they had, some of them--they 
were not always masked. Some of them, they had masks, but the 
uniform was the same one, the same as others that didn't have 
masks. And it was a uniform, dark color, and they had on their 
right shoulder the white eagle, which is a sign that they keep 
for special forces, special police forces in Yugoslavia.
    Senator Feinstein. The white eagle----
    Dr. Dobruna. White eagle on the right shoulder.
    Senator Feinstein. The people who had the white eagle wore 
the masks?
    Dr. Dobruna. Yes, when they arrested Bajram Keljmendi. In 
cases where we waited in this queue to cross the border, we 
didn't see those signs, and the uniform was different. It was 
darker and they didn't have those lines, but the marks were the 
same.
    Senator Feinstein. Thank you very much. Does anyone else 
have anything to add on that?
    Ms. Kelmendi. I cannot say that I can identify some of 
them. I remember the face of the guy who stopped us. I am 
seeing his face every night, but I don't know to whom he 
belongs. Maybe he is an ordinary civilian who has taken a gun 
and who is an ordinary criminal. But the most interesting is 
that he had Motorola in his hand. It is something which can be 
carried only by police or by some authorities who are talking 
between each other. And maybe this civilian was linked with 
police because in every checkpoint they talk to each other and 
then release us to go. So it is organizing, but I cannot say 
that I know every one of them.
    Senator Feinstein. Those who have committed the rapes, do 
they wear the black masks?
    Dr. Dobruna. We don't have yet information about that.
    Senator Feinstein. You don't have any information. Do you, 
sir?
    Mr. Nimani. Before the bombing started, I was on a fact-
finding mission in the town of Peja because of the masked 
people. They would go in the cities in the evening, driving the 
car without registration. And after the first day of bombing, 
of NATO bombing, the first house to be looted was the house in 
which the OSCE mission was situated. And in that house was an 
Albanian family and they have identified one of those masked 
people, which during the day works as an ordinary police 
officer and during the night works with the mask.
    He was a member of a special police force, and in Peja he 
organized a group with other ordinary policemen. And we 
discovered that the group was named Flash.
    Senator Feinstein. Could you spell that?
    Mr. Nimani. That is F-l-a-s-g, like flash from camera.
    Dr. Dobruna. H.
    Senator Feinstein. Oh, H.
    Mr. Nimani. H, yes. They are very fast; they act very fast. 
And the policeman's name who heads that group of masked people 
is known. I know that name. But like 2 or 3 days ago, I got 
information that that policeman was killed, but I did not have 
a confirmation of that.
    Senator Feinstein. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Abraham. This is the first hearing we have had in 
the new Congress of the Immigration Subcommittee, so it is the 
first opportunity I have had to welcome to the subcommittee 
Senator Schumer, of New York, and we welcome you and look 
forward to working with you during this Congress. And now we 
will turn to you for your opportunity to ask questions.
    Senator Schumer. Thank you, Mr. Chairman. I look forward, 
as well, having served on the immigration committee in the 
House for a long time, and I am glad to be here and sad that 
our first hearing has to be on a subject as awful as this one.
    My question is going to focus on a particular subject, and 
that is the 700,000 or so Kosovars who were rooted from their 
homes, were coming over the borders, and then abruptly 
Milosevic didn't let them go to the borders. And to me probably 
the most urgent question we can face in the next few days is 
where are these people, are they starving, do they have any 
means of eating and preventing death.
    I have asked this question of some of the highest-level 
people in our Government and, in fact, one of them is coming 
over to our office in a little while to tell us what can be 
done. And I will ask the Assistant Secretary that, but I would 
like to ask each of you because I think this problem is so 
pressing.
    It would be utterly awful if, after 3, 4 weeks, our Air 
Force has accomplished what they hope to accomplish, and we all 
pray that they do, and yet hundreds of thousands of people 
starve to death, or whatever, within the borders. And so can 
each of you tell me--I know the knowledge is rudimentary. I met 
with a bunch of Kosovars in New York, in my office, on Monday 
and they were pleading. They said, before anything else we 
would like food to get to these people, because they have 
talked to some of them.
    Can you tell me what you know? I know it would be anecdotal 
and piecemeal, but I think this is of such immediate urgency 
that we ought to know as much as we can about what is going on 
to those approximately 700,000 peoplewho face such terrible 
tragedy now.
    Would anyone like to--maybe, Dr. Dobruna, you might start.
    Dr. Dobruna. We have some sources of information there, and 
now there are two questions here. One question is 700,000 
people that are there that are dislocated in different parts, 
and another question is about these people that are returned 
back from the borders.
    Senator Schumer. Right.
    Dr. Dobruna. That number is different. I mean, what we saw 
from across the border, there were some 10,000 there that would 
not be allowed by the Macedonian government to enter Macedonian 
territory. At one moment--it was the 3rd and 4th of April--they 
were just forcefully returned back. We have some information 
from some women who were in the cars with families. They 
managed to go through wires, through the small river, and to 
pass to the Macedonian side with their children, and their 
husbands were made to go back.
    We have only one information from that group. They said 
that they didn't have any problem until they reached Pristina. 
When they reached the city of Pristina, most of them they 
didn't go back to their homes because they were expelled from 
their homes, but they went to other neighborhoods that are not 
ethnically cleansed yet. So, afterwards, telephone lines were 
cut even in those neighborhoods, so we don't have information.
    Senator Schumer. What about the refugees, not the people 
whom Macedonia returned, but the people who were heading over 
the borders to Albania, to Montenegro, and then Milosevic 
stopped them from coming on his side of the border, on the 
Kosovo side of the border?
    Dr. Dobruna. The region of Peja, where most of the people 
who are being deported to Montenegro, is ethnically cleansed. 
That is that borderline of 10 kilometers that was cleansed 
during all this month, so it was only a corridor. During the 
last days of March, that was in function and most of the 
population were cleansed already. So there is no large number; 
there is no big expectation that they are going to cross to 
Montenegro. That is the territory of Debar, which is some 100 
kilometers northwest of Pristina, and the territory of Peja.
    But on the Albanian side of the border, most people that 
are being deported are from the municipality of Djakovica; 
municipality of Klina Malisevo, which is completely cleansed; 
and the suburb of Prizren. Prizren is one of the towns that is 
not yet burned, just some neighborhoods. Djakovica is a town, 
and Peja, that are 70 to 80 percent burned down completely. 
And, of course, the population was deported, and some of them 
that remained are in hiding or most probably they went in the 
mountains in order to find a new chance to escape.
    So in this situation, these territories were under siege 
for many months before. So they were lacking food and medical 
care long before even January. And to give an example, in the 
mountains of Djesenice, 25 kilometers northwest of Pristina, 
there were displaced persons that were staying there for weeks 
without any food. UNHCR, Pristina office, arranged 11 times to 
go to that territory in order to deliver relief to these 
displaced--and they are mostly women, up to 90 percent women 
and children. And they were not allowed access to those 
displaced persons.
    Senator Schumer. So they haven't gotten food in weeks and 
weeks?
    Dr. Dobruna. No. What I am saying now is 3 weeks before the 
first NATO air strikes happened.
    Senator Schumer. And it is continuing now, I would imagine.
    Dr. Dobruna. It is continuing.
    Senator Schumer. Anybody else?
    Mr. Nimani. Well, the same information can be confirmed as 
well. Another information is that the people which have been 
expelled from Kosovo to Montenegro, they are in need for help 
and aid. And no organization is going there to check them to 
see what are their needs.
    Senator Schumer. Ms. Kelmendi.
    Ms. Kelmendi. The same information we have already--also at 
the radio station, we had already from before.
    Senator Schumer. So there is starvation on mass levels 
going on?
    Ms. Kelmendi. Yes.
    Senator Schumer. And the food can't get through right now 
that is being done locally?
    Ms. Kelmendi. No. They are also under the siege of Serbian 
forces, so it is impossible to get there.
    Senator Schumer. And this number grows all the time, I 
imagine, because the borders are now more or less closed? All 
the borders are closed?
    Dr. Dobruna. Probably, those towns that are under attack or 
they are targeted several neighborhoods, the only way that they 
can escape, especially after the mass executions that appeared, 
they are going to escape in the mountains, and so the number of 
displaced persons is growing rapidly.
    Senator Schumer. One thing, Mr. Chairman, I think we ought 
to try to focus on in terms of refugees is how immediately we 
can get them the basic necessities, particularly rudimentary 
food, to prevent mass starvation, which is what at least I am 
told could happen if we don't move within the next week or two.
    I thank you, and I understand what you are going through. 
We want to do all we can to try and help.
    Senator Abraham. Senator, thank you.
    I note we have been joined by our friend, Senator Biden, 
who is on our full Judiciary Committee, and also is the ranking 
member of the Senate Foreign Relations Committee.
    Would you like to ask some questions?
    Senator Biden. I would like to ask just two questions, and 
I appreciate the indulgence of the committee. I am not a member 
of the subcommittee, as has been pointed out, but I thank you, 
Mr. Chairman.
    I have actually three very short questions for any of you, 
maybe starting with you, doctor. Is it your testimony that the 
ethnic cleansing we are reading so much about and the world is 
now seeing on a mass scale--that cleansing began before the 
NATO bombing? It was already underway on a smaller scale before 
NATO began to use air strikes. Is that your testimony?
    Dr. Dobruna. Ethnic cleansing was going on since the strip 
of autonomy in Kosovo. Data from the EU Commission shows that 
starting with 1990, up to 1995, 330,000 Kosovar Albanians had 
to flee Kosovo because of the repression, different forms of 
repression. One of that repression was mass firing of 170,00 
workers from their jobs, and I have to remind the committee 
that at that time private enterprisesdidn't exist. So when 
170,000 people were expelled from their jobs, that means that the only 
way of living or earning any money and having a decent life was to work 
for the state.
    And taking into consideration that the average Kosovar 
family has 7.3 members, you just now can have a picture how 
many people were left at one moment without any meaningful 
life. So this is one of the things that were done to Kosovar 
citizens, and other abuses of their rights were done on a very 
systematic, daily basis. And 330,000 had already fled Kosovo 
before 1995.
    In 1995, up to the start of the war, February 28, an 
additional 170,000 Kosovars had fled Kosovo. So ethnic 
cleansing was done systematically and it was organized a long 
time ago. It was propagated by several politicians, very high-
ranking politicians and governmental officials in this so-
called Yugoslavia.
    Senator Biden. Now, years ago I went early on to Bosnia and 
came back and wrote a report for the President and others that 
no one really believed at the time saying that rape camps that 
had been set up there, actual camps that were rape camps, and 
talked about mass graves. And it all turned out to be true in 
Bosnia.
    Do you have any evidence that you can present to us today, 
any of you, not that there is rape and pillaging going on, 
because it is, but that there is any systematic, as there was 
in Bosnia, organizational structure for camps where women are 
sent for the purpose of being used or abused physically? Do you 
have any evidence of that, not speculation?
    I believe it occurs, but I come to this, I admit, with a 
prejudice that I think Slobodan Milosevic is a war criminal. I 
have thought that for 9 years, and so on. So I don't need to be 
convinced, but what I am looking for is if you have any 
information, hard information or even anecdotal information, 
that there is a systematic, not a random although frequently 
occurring raping and pillaging, but is there any systematic 
organizational structure that you are aware of or have heard of 
where women are being herded into camps and/or sent off to 
military bases for purposes of being sexually abused? Do you 
know of any?
    Dr. Dobruna. At the Center, we tried all last year to 
gather facts about alleged mass rapes, but we didn't come to 
the conclusion that those appeared. But we had very strong 
indication that it happens and the pattern of how it happens in 
three sites of Kosovo. But we didn't manage to document it 
because of several reasons. One was a very strong patriarchal 
society. Second was that most men that were witnesses of those 
had made their wives or daughters leave Kosovo, paid high 
prices to take them out because of the honor of the family, and 
especially if it is done by the enemy, it is ruined. So we 
didn't succeed to document. Now, we have information and we 
believe that it is true, but nobody can yet document that.
    Senator Biden. I appreciate your candor. And I am afraid we 
are going to be able to document it later, but I appreciate 
your candor.
    My last comment--and my time is up, but one of the things 
Americans will often say, and many people here think is that 
this has been orchestrated by a rabid nationalist named 
Milosevic and guys like Arkan and others who are--let me ask 
you this simple question, all three of you, if you would give 
me some sense.
    Although in the last 10 years, the proportion of Serbs in 
Kosovo is less than it was 25 years ago, you probably had 
neighbors or coworkers, ordinary people, who were Serbs, not 
Kosovars, not Albanian Serbs, not Muslims, but Orthodox 
Christians. What is your sense of how those--if you had any 
coworkers or friends or neighbors whom you had lived with in 
some peace and harmony, what is your sense of their attitude 
toward what is going on in Kosovo now, if you can characterize 
it? I understand you may not be able to.
    Ms. Kelemendi. I will tell you their behavior in some 
cases. For example, there is a neighbor of a friend of mine, a 
Serb who--for example, for many years they were neighbors and 
they go to each other to drink coffee. And they were in 
ordinary life very good neighbors. But when everything happened 
in those days, this neighbor says to his neighbor, you have 
only 5 minutes to leave. And my friend couldn't believe that 
that is happening because he thought that his neighbor was 
something who knows him very well.
    But there is another case. For example, there is a Serbian 
neighbor who is caring about his Albanian neighbor who is 
closing the doors of the building, caring about the old 
building and saying to Albanians, don't worry, I am here and I 
will try to protect you.
    There is another case in one place, in a neighborhood in 
Pristina, where only three Albanian families are left there and 
one Serb family. When these paramilitary forces came there, 
this Serbian neighbor goes out with a gun and says to them, 
this is my zone, you cannot enter here.
    Senator Biden. It varies.
    Ms. Kelmendi. Yes. So these are the cases, but these are 
only cases. You cannot say that this is something which is 
usual.
    Senator Biden. I thank you, Mr. Chairman. I have gone over 
my time. I would like to ask unanimous consent that a statement 
I have be entered in the record.
    Senator Abraham. Without objection.
    Senator Biden. I thank the witnesses here for your courage, 
and I am confident we will be of courage and we will not relent 
in our effort to see to it that this is righted. Thank you.
    Senator Abraham. Senator Biden, thank you for joining us 
and we will include your statement.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    I would like to begin this morning by thanking Senator Abraham for 
holding this hearing on the issue of the Kosovo refugee crisis.
    I would also like to welcome Assistant Secretary Julia Taft, and 
each member of our panel of private witnesses who have agreed to 
testify before us here today. The human emergency that has developed in 
the region as a result of massive outflows of refugees is staggering.
    Assistant Secretary Taft, I know that you have been actively 
involved in relief efforts in the Balkans for some time now, first 
focusing aid on alleviating the plight of internally displaced in 
Kosovo, and now attempting to respond to the needs of the enormous 
number of refugees scattered throughout Kosovo's neighboring states. I 
understand that you visited the Balkans at the beginning of the month, 
and have recently returned from a conference in Geneva at which donor 
nations gathered to coordinate an international response to meet the 
needs of those who have fled Kosovo. I look forward to hearing your 
testimony today.
    As you are all aware, there are now over six-hundred thousand 
ethnic Albanian Kosovars scattered across borders in the Balkans. 
Approximately half a million of them fled Kosovo after March 24 of this 
year. Not due to the commencement of NATO air strikes, as the Serb 
propaganda machine would have the world believe, but as a result of 
Slobodan Milosevic's policy of ethnic cleansing.
    Let us not forget that Milosevic had forty thousand troops massed 
at the Serbian border, waiting for the order to wipe the ethnic 
Albanian presence from Kosovo. He alone is responsible for the massive 
exodus of the past three weeks.
    Though the blame for the present level of human suffering lies 
squarely on the shoulders of Milosevic, the United States and our 
allies are absolutely correct in responding with all of our resources 
to provide for those who left of their own volition or were driven at 
gun point from their homes.
    Unfortunately, the places they have fled are not wealthy. Albania 
and Macedonia are among the poorest countries in Europe. They lack the 
resources to respond effectively to the rapid influx of refugees. In 
addition to being materially difficult, it is politically difficult for 
some states to accept refugees. Macedonia is a fledgling democracy 
where potentially de-stabilizing ethnic tensions lie just beneath the 
surface. The presence of over one hundred thousand ethnic Albanians is 
only increasing these tensions.
    Montenegro is part of the Federal Republic of Yugoslavia itself, 
and vulnerable to the Serbian authority in Belgrade. Already the 
Washington Post has reported a crackdown on the independent media in 
that republic. Whether or not they can afford politically to continue 
to host over fifty thousand refugees is highly questionable.
    Perhaps the most troubling aspect of the refugee situation is the 
question that no one here can answer with certainty. What is the fate 
of the estimated four to five hundred thousand internally displaced in 
Kosovo? They may not have crossed an international border, but these 
people are facing the same devastating consequences of being forced 
from their homes as those who have. Even worse the international 
community cannot reach them to give much needed aid.
    The Administration was right to provide a place for twenty thousand 
refugees, should these people so desire. We must do our part to provide 
a safe haven for ethnic Albanians until such a time when they can 
return to a Kosovo where their security is assured.
    Mr. Chairman, I thank you for allowing me to be here today. I look 
forward to hearing from our witnesses.

    Senator Abraham. We have also joined by another member of 
our subcommittee, Senator Specter from Pennsylvania, and so I 
will turn to him for his questions at this time.
    Senator Specter. Thank you very much, Mr. Chairman.
    I join my colleagues in thanking you for coming, and 
certainly understand the tremendous travail and problems that 
you have sustained. So we appreciate you being here to give us 
information which will enable us to proceed on quite a number 
of lines. I could not be here earlier. We are having hearings 
on independent counsel at the same time, but I wanted to come 
by.
    With respect to the sequence of events on the atrocities 
being committed here by the Serbs, there has been an argument 
that the NATO bombing has either caused it or expedited it. 
There has been a very careful analysis done to the contrary, 
that President Milosevic had this plan long in advance and 
carried it out, and that this was something that was going to 
occur with or without the NATO bombing.
    I would be interested in the sequence of events, if some of 
these atrocities began prior to March 24th on the NATO bombing. 
Could you shed any light on that, Dr. Dobruna?
    Dr. Dobruna. Yes. I mean, my opinion is that NATO just 
accelerated the ethnic cleansing. Ethnic cleansing was ongoing 
for years now, and as a citizen of Kosovo I think that this 
should have been foreseen.
    Senator Specter. It has been going on for years, you say?
    Dr. Dobruna. It has been going on since 1989, practically, 
since adoption of the constitution of unification of Serbia. 
That constitution was adopted March 28, 1989. So since then, 
the ethnic cleansing of Kosovo was done systematically, 
perfectly.
    Senator Specter. Was it intensified at some point in the 
past?
    Dr. Dobruna. It was intensified after the NATO air strikes.
    Senator Specter. After the strikes?
    Dr. Dobruna. Yes. It is just intensified, but they have 
already cleansed several territories.
    Senator Specter. You say they had planned?
    Dr. Dobruna. Yes, they have planned.
    Senator Specter. How do you know that?
    Dr. Dobruna. It was announced in media. There were 
documents published in the Serbian language for years that this 
was going to happen. Several leaders, political leaders and 
high officials in Serbia have announced it. Of course, they are 
saying that during election campaign, but nevertheless it is 
not excused like it was only for internal purposes. But we knew 
it was going to happen, but unfortunately we were not aware 
that it was going to happen on this large scale and all this 
brutality as it happened these days.
    Senator Specter. I understand that you wish to be 
classified as deportees and not refugees so that you will have 
status to return to Kosovo. Is that true, Mr. Nimani?
    Mr. Nimani. Yes.
    Senator Specter. To what extent is the country decimated? 
How much rebuilding will it take? From what we have seen here, 
the reports that we have, it is going to be an enormous 
rebuilding job. Could you shed any light on that, Ms. Kelmendi?
    Ms. Kelmendi. I think that before it happened, almost the 
biggest part of the population, more than 50 percent of Kosovo, 
was already destroyed; all the villages were destroyed during 
this year of war. In the meantime, now the biggest damages are 
done to the cities, but nevertheless people are ready to go 
back.
    Senator Specter. Is that the general attitude, that people 
do want to return and rebuild the homeland?
    Ms. Kelmendi. Yes, of course.
    Senator Specter. What is your sense as to how it will be to 
return? What is the future likely to hold with so much 
animosity and hatred having built up for such a long period of 
time? Will you be able to return and live in peace?
    Ms. Kelmendi. The population of Kosovo already was peaceful 
for many, many years and they didn't want to fight. And 
finally, in Rambouillet, they signed the peaceful agreement 
solving the problems of Kosovo, and we didn't reach this 
agreement because of Mr. Milosevic and the Serbian government, 
who didn't want to sign that agreement.
    And from my point of view, we didn't ask for NATO bombing, 
but Milosevic asked for it. And so in this direction, we ask 
for protection, and that protection is as it is in the 
Rambouillet document, so NATO forces as peace-keeping forces in 
Kosovo, and as a protection not only for Albanians, but also 
for Serbs in Kosovo, from Belgrade.
    Senator Specter. Just to follow up on what Senator Biden 
had asked about, the business about gathering evidence as to 
President Milosevic is ongoing. And I concur with what Senator 
Biden has said and many have said that we should treat 
Milosevic as a war criminal, and we have had representatives in 
Kosovo from the State Department acquiring the evidence for 
presentation to the War Crimes Tribunal.
    So to the extent that you are able to provide any 
information--and it is complicated to find the evidence, but if 
you see raping where there is a superior officer present or 
where there are others present who are condoning it and that is 
a sign of official action, or where there is torture or where 
there is any violation of human rights and people are condoning 
it of superior rank, that is an indication that others are 
involved.
    And we have a system of justice which will require, 
notwithstanding what Milosevic has done, that we are able to 
prove these cases in court. So to the extent that you are able 
to provide any information along that line, it would be very, 
very helpful.
    Again, we thank you for your courage. Thank you for coming 
and we will do our very, very best to help you. Thank you. 
Thank you, Mr. Chairman.
    Senator Abraham. Senator Specter, thank you.
    I want to, in conclusion, rather than more questions--I 
think you have very effectively addressed the questions that 
all of us have--thank you again for what you have done and the 
courage of coming here. I hope as many of our colleagues who 
are not here today as possible will have the opportunity either 
to see the C-SPAN coverage of this or to hear and learn more 
about what you have told us.
    I hope those who have been skeptics about the nature and 
degree of the atrocities that have taken place will, because of 
this hearing, have a better and fuller understanding of exactly 
what has happened and continuing to happen. And I hope that 
people who have had some doubtsabout exactly what you have gone 
through will appreciate better what you have, and also appreciate your 
desire to be able to go back home.
    There is a tendency, I think, often when refugee situations 
or deportation situations or expulsion occurs like this--people 
jump to quick conclusions that somehow people want to be 
somewhere else, whether it is the United States or it is 
Germany or other places where resettlement temporarily occurs. 
But as I think we have learned, most people are alike in the 
world; they want to be back home. And I think you have all very 
eloquently made that case, and I hope that we can do as a 
Congress and as a country as much as possible to make that 
happen, but also in the interim make sure that as many people 
as possible who are still suffering can be protected and in as 
humanitarian a way as possible be taken care of during the 
period of time before it is possible for them to go home.
    So on behalf of our committee and on behalf of the U.S. 
Senate, I want to thank each of you for your courage and for 
taking a little time to share your experience with us. We are 
deeply appreciative and we will do our best to follow up in the 
ways we have already indicated. Thank you.
    We will now ask our Assistant Secretary of State to join 
us, and this panel is certainly welcome to stay with us if you 
would like, or if you have other commitments to move on to 
those at this time.
    On our second panel today, we will hear from Julia Taft, 
who is the Assistant Secretary of the State Department's Bureau 
of Population, Refugees, and Migration. I too want to thank you 
for being with us and for agreeing to allow the refugee panel 
to appear first. I think it probably puts in context all of 
what you plan to say and all of our thoughts here today 
probably as eloquently as it could.
    Assistant Secretary Taft is the person who is in charge of 
refugee matters at the Department of State, which is a serious 
responsibility even in the best of times, and obviously an 
extraordinarily challenging job at the moment.
    You have served with distinction in this administration and 
in others, and we all have appreciated working with you over 
the last couple of years and look forward to working together 
as we confront now probably the most serious challenge not only 
that we have had recently but, as we have discussed, in a very 
long period of time. So thank you for being here and we will 
turn to you for your testimony.

   STATEMENT OF JULIA V. TAFT, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF POPULATION, REFUGEES, AND MIGRATION, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Taft. Well, thank you very much, Mr. Chairman. During 
the past 3 weeks, the world has witnessed one of the most 
sustained and cruel crimes against humanity during this 
century. It is a very somber note to be leaving this millennium 
on and one that I hope that we can work together to try to 
remediate as soon as possible.
    The calculated dislocation of hundreds of thousands of 
Kosovars during this past year by Serb forces has reached 
devastating proportions in recent weeks. Since March 24, almost 
half a million refugees have been forced from Kosovo, and many 
thousands more may yet flee. I think all of us today have been 
profoundly moved by the testimonies of the three persons that 
we have heard. They have really put the human face on this 
tragedy and I am pleased to have been able to hear them.
    I am also pleased that the NGO's were able to find them and 
that your committee wanted to have them be here, and that the 
State Department, in spite of all the things that are going on 
in Skopje and Tirana, was able to get the visas in a matter of 
just days.
    I would like to take this opportunity to give you an update 
of the situation as we see it in Macedonia and Albania, and our 
efforts in other countries to provide protection and assistance 
and what we see ahead. I will be glad to answer questions. You 
have set some forward in your remarks, Mr. Chairman, and I want 
to make sure that we cover all of those.
    The U.S. and its NATO allies are working with humanitarian 
organizations to alleviate as much of the crisis as we can. We 
will do whatever is necessary to ensure that Milosevic's 
current campaign of ethnic cleansing does not stand and that 
refugees can return to their homes, villages and towns and 
rebuild their lives.
    What we have watched ever since the Rambouillet process is 
a systematic expulsion of the Kosovar Albanians. I want to 
emphasize here that this expulsion was well underway before 
NATO bombing commenced. We have already heard from the previous 
witnesses. I won't go into detail, but I would like to make a 
point about the issue of the expulsion and whether they are 
called deportees or whether they are called refugees.
    A deportee connotes the method in which people left and, in 
fact, the pernicious way and terrifying way in which these 
people were expelled from their country does make them 
deportees. However, as refugees, that connotation should not be 
diminished either. These people are deportees and they are 
refugees because they are afraid to go back home, for fear of 
persecution. So I hope that we can use both of those 
references.
    While over 680,000 Kosovar Albanians have been forced to 
flee, hundreds of thousands are believed to be still displaced. 
The figures that we are operating on in the State Department 
are between 700,000 and 800,000. After a short lull when 
borders with Macedonia and Albania were closed by the FRG, and 
after large numbers of refugees seemed to have disappeared on 
the FRY side, we saw that this past weekend there was a 
resumption of small movements into Macedonia and Albania.
    We haven't talked enough about Montenegro. Montenegro, as 
the chart that Senator Biden has shows, has received 36,000 
refugees. But over the weekend and in the last 24 hours, they 
got 1,700 more. These are coming up from the area of Pec and 
they are now in Montenegro, so that border is opening.
    Senator Biden. Mr. Chairman, if I can make a point, I 
didn't mean to interrupt by putting this up, but this is only 
current as of 48 hours ago.
    Ms. Taft. Yes, sir, that is right.
    Senator Biden. Thank you.
    Ms. Taft. I have it as of 6:00 a.m. this morning, but----
    Senator Biden. My point is your figures are more accurate 
than mine. That is the point I was making.
    Ms. Taft. But the point I wanted to make, sir, is that 
there is still some movement out, not enough as far as I am 
concerned, but there still is movement out. And in Montenegro, 
at the port of Bar, there are tens of thousands of World Food 
Program commodities, some of which are being able to be 
processed within Montenegro by the ICRC, by World Vision, by 
Mercy Corps International, to use to get access to the people 
in Montenegro who have been affected by this.
    The refugees tell of extreme violence--people forced to 
leave their homes at gunpoint; women and children forcibly 
separated from their husbands, fathers and sons; homes and 
villages torched. Even more serious are the reports of 
arbitrary and summary executions, of mass graves, and most 
recently of the rape of young women and girls. We are extremely 
concerned about the fate of the 700,000 to 800,000 who remain 
in Kosovo, and are exploring a variety of ways to meet these 
people so that they can be given life-sustaining support.
    Senator Kennedy, you mentioned earlier about the three 
options. I assure you all three options are being pursued, and 
I would be delighted to share--and that is very sensitive--the 
modalities for how we might be able to reach these people, and 
we will be glad to give a briefing to you and your staff.
    The biggest problem we have is that the Serb authorities 
have not provided the security assurances needed for any of the 
modalities to ensure access by ICRC or other international 
organizations. Last week, Deputy Secretary Strobe Talbott and I 
visited Albania and Macedonia and other countries in the region 
to thank them for their support, particularly Albania and 
Macedonia, but also urge very strongly an open-borders 
attitude. This was particularly difficult in Macedonia because 
of all of the doubling--day after day, the influxes were 
doubling for Macedonia, and they were very politically 
concerned about the destabilization.
    In fact, Milosevic's plan is to destabilize Albania and 
Macedonia and other front-line states. So it was very important 
for us to go and try to do whatever we could to reassure them 
that we and the allies stand by them. But we stressed very 
firmly with the government of Macedonia the importance of 
getting that border open and keeping it open. And I am pleased 
to be able to say that having worked all night long with them a 
week ago Saturday, decisions were made to open up the NATO 
camps, get them ready for opening on Sunday. They were opened 
up Sunday night and the people from the border area in no man's 
land all were processed into those camps by morning of Tuesday, 
so that the muddy, awful, terrible valley of death that was out 
there--there wasn't death; there were 11 deaths, but it was 
just a terrible humanitarian mess. That has now been cleared 
out, very much thanks to NATO and the willingness of the 
Macedonians to let these people come forward.
    In spite of the forced expulsions of the Serbs and the 
stories that we have all heard, I have not, nor have any of the 
relief agencies or NATO people, heard anyone blame the NATO 
bombings on their plight. In fact, everybody has been very 
supportive of the efforts that have been made to stop 
Milosevic's aggression.
    On my way back from the region, I joined my counterparts 
and other major donors in countries in the region for an UNHCR 
conference to see how we can improve the coordination of the 
response on a multilateral basis, and I think that was a useful 
thing to do. Operation Sustain Hope was announced by President 
Clinton on March 5 to coordinate our own humanitarian response 
to the refugee crisis, and we have committed $150 million in 
financial and material assistance since the crisis began.
    This includes $50 million recently authorized to help 
address the urgent needs of the refugees, $25 million, of 
course, which is from our emergency account, and $25 million 
from the Defense Department.
    The limited capacity of Albania and Macedonia to cope with 
this enormous number of refugees has really overwhelmed them, 
and while I would like to pay special tribute to the generosity 
of the people of these countries, you know, the first flows--
80,000 of the first people who went into Albania went into 
families, and 60,000 that went into Macedonia went into 
families. The challenge now is making sure those families don't 
get overwhelmed and to make sure that the assistance that is 
directed for the refugees also goes to support the families.
    I would also like to commend Turkey for stepping forward on 
this issue of the absorptive capacity in Macedonia. Macedonia 
was really getting overwhelmed and they did not believe that 
they could sustain the constant influx of people, unlike 
Albania which, of course, is all Albanian. There is a different 
ethnic balance in Macedonia.
    For this reason, we offered to try to get other countries 
to give temporary asylum to these people to help take the 
burden off Macedonia, and the first country to come forward was 
Turkey and they had offered to take 20,000. We offered to 
assist in the financing of their program, as well as to offer 
temporary asylum to 20,000 for the United States.
    Many other countries have come forward. I have got a whole 
list of those that have expressed willingness to provide 
temporary asylum. But at this point, we think that the Turkish 
offer, the numbers that are going to Germany, those that are 
going to Norway, and the ability of Albania to absorb more has 
gotten us a respite right now, so that the United States is not 
actively transporting any of the 20,000 that we said that we 
would give temporary assistance to.
    NATO, I must say, throughout the entire effort has been 
wonderful. They have established air cells and air bridges, and 
there are over 50 flights a day which are coming into Albania 
and 50 flights a day coming into Macedonia. It is getting very 
crowded, as you can imagine, in the warehouses and the 
airstrips, but the relief program to undergird the UNHCR is 
making great progress.
    From the United States side, of course, we have been 
providing tens of thousands of HDR's already, and we are 
sending in a million. Those are humanitarian daily rations. We 
have been underwriting the World Food Program, a third of its 
costs. We have about 600 military personnel working on the 
humanitarian program. In addition, we have just given ICRC $3 
million to really launch a major tracing program and they have 
established a hotline in Geneva, as well as processing in the 
various countries of asylum so that they can work very closely 
on family tracing.
    Let me just spend one minute clarifying exactly what the 
status of Guantanamo is. Guantanamo is prepared to receive 500 
people when we need them to come out of the region. They are 
ready in the facility, which does not have concertina wire, 
which would be humanely managed. But right now, we have not 
asked DoD to activate this request, but if it is required--and 
we still have 700,000 people still inside of Kosovo. If they 
all come out, we are really going to be overwhelmed and we will 
have to do a major airlift.
    We all are aware of the problems of Guantanamo. You all are 
as aware as anyone. Fortunately, at the State Department, the 
colleague Assistant Secretary, Harold Coe, was the lawyer in 
the private sector who sued the U.S. Government in terms of the 
treatment of Haitians and Cubans on Guantanamo. So he and I 
have been working very closely on this and we know the 
constraints on Guantanamo. We have talked with the NGO's and 
the human rights groups, and that is why it is a--you know, it 
is there, but we really do not expect to have to use it.
    I know that a number of your constituents may have been 
calling you about processing of refugees or their relatives as 
refugees. I think I can say no more about this at this point 
except that we believe that most of the people want to stay in 
the region. They want to go back home to their homes. Right 
now, our focus is trying to provide care and feeding and 
security and safety for those that are in the locations of 
Albania and Macedonia, and we do not at this time have a 
program that we would process any of these candidates for 
refugee status. However, we are working to try to collect as 
much information as we can, and should it be appropriate, we 
stand ready to come back to you and talk to you about refugee 
numbers and how we might proceed.
    On that, sir, those are the highlights that I wanted to 
share with you and I am glad to answer any questions.
    [The prepared statement of Julia V. Taft follows:]

                  Prepared Statement of Julia V. Taft

    Thank you, Mr. Chairman. During the past three weeks the world has 
witnessed one of the most sustained and cruel crimes against humanity 
during this century. The calculated dislocation of hundreds of 
thousands of Kosovars during this past year by Serb forces reached 
devastating proportions in recent weeks. Since March 24 almost half a 
million refugees have been forced from Kosovo and many thousands more 
may yet flee.
    I am honored to have the opportunity of testifying before you today 
on the U.S. government's efforts to assist and care for the refugees. I 
would like to give you an update on the situation of the refugees in 
Macedonia and Albania, our efforts and those of other countries to 
provide protection and assistance, and what we see ahead. I will then 
be happy to answer any questions you might have.
    The U.S. and its NATO allies are working with humanitarian 
organizations to alleviate the humanitarian crisis. We will do whatever 
is necessary to ensure that Milosevic's current campaign of ethnic 
cleansing does not stand and that refugees can return to their homes, 
villages and towns and rebuild their lives in Kosovo.
    What we have watched ever since the Rambouillet process is the 
systematic expulsion of Kosovo Albanians. I want to emphasize here that 
this had begun before the NATO bombing commenced. While over 680,000 
Kosovo Albanians have been forced to flee Kosovo in the past year, the 
majority during the last three weeks, hundreds of thousands more are 
believed to be displaced within Kosovo. After a short lull, when 
borders with Albania and Macedonia were closed by the Federal Republic 
of Yugoslavia and after a large number of refugees on the FRY side 
disappeared, we saw this weekend the resumption of small movements of 
refugees out of Kosovo.
    The refugees tell of extreme violence: people forced to leave their 
homes at gun point, women and children forcibly separated from their 
husbands, fathers and sons, homes and villages torched, passports and 
other identity documents confiscated. Even more serious are the reports 
of arbitrary and summary executions, of mass graves, and most recently 
of the mass rape of young women and girls.
    We are extremely concerned about the fate of between 700,000-
800,000 ethnic Albanians who remain in Kosovo, many of whom are 
displaced. We are exploring ways to reach these people with the 
humanitarian assistance they so clearly need but as you can imagine 
there are many security constraints. The FRY government has not 
provided the security assurances needed nor the authorization for ICRC 
or other international agencies and NGO's to operate in Kosovo.
    Deputy Secretary Strobe Talbott and I visited Albania and Macedonia 
and other countries in the region from April 3 to 5 to thank them for 
supporting NATO operations and for receiving the refugees and to 
underscore our commitment to providing the assistance needed to address 
the impact of the unfolding humanitarian, economic and security crises.
    Witnessing the masses of people who have been stripped of their 
dignity, identity cards and wordly possessions was a profoundly moving 
experience. In spite of their forced expulsion by the Serbs, many 
herded into box cars and transported to borders, all the refugees 
expressed support for NATO and the effort of the Allies to stop 
Milosevic's aggression. On my way back, I joined with my counterparts 
from other major donors and countries in the region at a conference 
hosted by UNHCR to map a coordinated multilateral strategy for the 
humanitarian response.
    Operation ``Sustain Hope'' was announced by the President on April 
5 to coordinate our own humanitarian response to the refugee crisis in 
the region. The U.S. has committed over $150 million in financial and 
material assistance since the crisis began just over a year ago. This 
includes the $50 million recently authorized by the President to help 
address the urgent needs of the refugees. We are sending over 1 million 
humanitarian daily rations to the region, as well as tents and other 
relief supplies. Other countries are also mobilizing large relief 
efforts.
    The limited capacity of Albania and Macedonia to cope with these 
enormous numbers of refugees was completely overwhelmed. I would, 
however, like to pay tribute to the enormous generosity of the people 
of these two countries who have so generously opened their countries 
and their homes to refugees. In Albania, approximately 80,000 refugees 
are being housed in private homes. Macedonian families are hosting 
about 60,000. I would also like to commend Turkey for stepping forward 
immediately to take 20,000 refugees and help alleviate the pressure on 
Macedonia--a gesture which the USG has volunteered to help finance.
    Because of the enormity of the effort required and despite the best 
efforts of UNHCR and the other relief organizations on the ground, NATO 
was asked to take a role in undergirding the humanitarian assistance 
infrastructure.
    NATO, with its logistical and operational expertise, is working 
closely with UNHCR and other aid agencies to build refugee camps, 
distribute aid and assist with transportation and the organization of 
relief efforts. In Albania, thirty camps are being built throughout the 
country. While UNHCR remains the lead humanitarian organization this 
cooperation is an example of the excellent coordination between NATO 
and UNHCR. We are now beginning to see the situation for the refugees 
improve although much still needs to be done to ensure that all receive 
the full range of assistance they need.
    The President has also directed that additional U.S. forces be 
deployed in Albania and Macedonia to support the relief effort. We 
anticipate the deployment of at least 1,000 airlift, medical, 
engineering, logistics and security personnel. About 600 U.S. military 
personnel are already in the region to support the humanitarian 
operation.
    ICRC has begun efforts to trace and locate missing persons to help 
reunite families. It has established a hot line in Geneva to receive 
calls from around the world and has sent tracing personnel to Macedonia 
and Albania. Many other relief organizations from around the world are 
assisting in this mammoth effort. We are supporting our U.S. NGO's with 
funding and supplies.
    As part of a multi-nation effort to relieve the effects of the 
refugee outflow on neighboring countries, especially Macedonia, we have 
stated that we are prepared to accept up to 20,000 refugees. We are 
prepared to implement this commitment when necessary. However, as in 
other refugee crises, our preference has been to ensure safe and humane 
refuge in the region, as close to Kosovo as possible so that people may 
return home when it is appropriate to do so. Based on a recent visit to 
the region of the UN High Commissioner for Refugees, UNHCR has advised 
us, as well as other countries that have made commitments to offer 
temporary refuge to Kosovars, that it would not be appropriate to 
relocate refugees far from the region at this time. Thus, we are 
focusing most of our efforts at present on making asylum in the region 
possible. Nevertheless, the situation remains fluid and we believe that 
we--as well as other governments--must remain prepared to take refugees 
if the situation requires it.
    I know that many of your constituents, particularly those with 
relatives among the refugees, are asking why we do not bring refugees 
to the United States. Our first priority is to ensure the safety and 
the care of over half a million people. This is an emergency situation 
and, we hope, a temporary one. Therefore, we do not anticipate a 
general U.S. refugee resettlement program at this time. The aim of our 
military and political action is to enable the Kosovo Albanians to 
return to their homes when conditions permit. In the meantime, we are 
committed to doing everything possible to work with other countries to 
ensure that the refugees are provided with temporary asylum and with 
care and assistance. I must underscore that everything we are doing and 
planning for is geared to the safe return of the refugees to Kosovo 
which we hope will be possible in the near future.

    Senator Abraham. Thank you very much.
    We will turn immediately to Senator Kennedy. I know he has 
a conflict of schedule here.
    Senator Kennedy. Thank you very much, and thank you. Julia 
Taft has had a long career in working on refugee matters and I 
think all of us are very fortunate to have her services now. I 
join with others in commending your typical courtesy in letting 
the others speak and then responding to questions now.
    A few matters, because we have a number of our colleagues 
here, just quickly. I am sure it has been the experience of 
other members here--we have a strong Albanian population in my 
own State of Massachusetts. We have many there that have 
relatives, they believe, in the refugee camps and they are in 
touch with us. We are trying to be in touch with you, but they 
are interested in if there are going to be the movements of 
people at least being considered, rather than going to an 
interim step down in Guantanamo.
    The object of our policy is for safe return, but as we have 
seen, picturing the worst kind of case possible, I think having 
someone think of how we can facilitate the movement of people 
and whether we can not go through a transition in Guantanamo 
Bay, but have some other kind of way which they may be joined 
either with families or relatives or settled here--I think 
having someone in your Department that is working with these 
would be helpful, and we would obviously want to cooperate in 
that.
    I would always hope--and this is a long way down the road--
NATO troops have been great in setting up these matters, the 
tents. I mean, it is unbelievable how well and fast--I mean, it 
is miraculous; it is the one great hope that has happened out 
there, what has been done when we finally got to it. But we 
want to hope that they are not going to transition out.
    You know, we let these other groups who are inundated with 
these kinds of challenges and doing so well and have done well 
in the past and all the rest of it in this transition period--I 
don't see it coming up right now, but it is something that we 
have all learned about. When they transition out, they have in 
the past, when it has not been done well, left these agencies 
up in the air, and I would hope that that would not be the 
case.
    I see Senator Schumer, who has been enormously interested, 
as I and others have about the conditions of these other 
individuals who are displaced and are facing extraordinary 
human tragedy. But let me mention three quick areas.
    We have a wonderful friend from Vietnam refugee days named 
Tom Durant, who works up at Mass General. He has just been over 
there for 2 weeks and I have been in touch with Tom, and he 
feels that there is an enormous need for vaccinations over 
there. We have been free from these contagious diseases almost 
miraculously, but there is an enormous need in terms of 
vaccinations, and particularly the spread of diseases like 
measles. They are going to come back and make some 
recommendations. I am just giving you a heads-up.
    First, the help and assistance for children. So many of the 
children are separated from parents, and the degree of trauma 
that children have been going through and what we can do in 
terms of help and assistance in terms of getting people that, 
you know, obviously are going to be able to communicate with 
language and culture and, you know, their chance to do so. You 
are not going to have, I suppose, an enormous pool, but this is 
an area of special need.
    And then a second area of concern that he had was what you 
mentioned in your testimony about the people in his instance of 
a small, tiny cottage in Macedonia where they had 51 people 
living there, which you pointed out in your testimony were the 
first refugees that came there were settled in these various 
houses. And they have enormous kinds of pressures, and we are 
dealing with the humanitarian needs we want to be able to help 
and assist people who have really been attempting to--they are 
enormously poor people in any kinds of events and they have 
been opening up their homes, and we want to try and do this.
    I will make sure that some of these ideas that Tom has will 
get to you in a timely way very quickly. But if you could take 
a look at those and then we can follow up with staff with you 
to see how those measures would be going on.
    Ms. Taft. Fine.
    Senator Kennedy. Just finally--and I know there are 
communications, and you mentioned earlier when Senator Schumer 
wasn't here the delicacy of these negotiations between air 
drops, between mercy corridors which we have done. Biafra was a 
case, but we have done it in other humanitarian areas as well 
with some success, and sometimes it has been impossible, or 
otherwise working with the Russians or the Greeks as being more 
acceptable to try and get that in.
    As I understand it, it is better to get that in a situation 
which is sensitive, and therefore would welcome the chance to 
be able to do that. And I respect your limitations to be able 
to talk about it. I think you have gathered the sense yourself 
of urgency that many of us have about the hours that are going 
by and the importance of the immediacy of trying to deal with 
the issue. It is just one of enormous kind of dimension and 
incredible need, and I think we really have to take risks for 
assistance on this.
    I don't think we can play this with a safe dimension. There 
is just too much at risk now. So I would hope that we are 
really going to be as forthcoming as we possibly can. That is 
certainly at least this individual's hope and expectation on 
it, and I will look forward to hearing from you and others 
about what the state of play is on it.
    Thank you, Mr. Chairman.
    Ms. Taft. If you have just a minute, I know you have to 
leave, sir, but let me just say really quickly you talk about 
the miracles here. It was just 3 weeks ago that the Serbs 
started, and I am amazed that we don't have outbreaks of 
disease. Three instances of measles; 11 people died in 
Macedonia. This is really amazing, as tragic as any of this is. 
There is a vaccination campaign that is getting started with 
UNICEF and WHO in Albania, and will start in Macedonia.
    On the issue of the separation of children, there is a 
wonderful story I have to just tell you of our ambassador in 
Albania, Marisha Lino, who was out at one of these camp sites 
and she saw a mother with several children who was crying. And 
she goes and she talks to her and puts her arm around and says, 
you know, I am so sorry for you, but at least you have your 
children here. And she said, no, I don't. And she had four 
young children, and she said, I have triplets, 6-year-old 
triplets that got separated from me in Pec and they ended up on 
one bus and I ended up on another bus and I am in Albania and I 
don't know where they are.
    So our ambassador got in touch with the ICRC, in Geneva, 
and said the mother thinks these children went to Montenegro. 
Can you see if you can find them? And in very short order, they 
did find these children in one of the camps in Montenegro, 
because ICRC is still there. They are not reunited, but at 
least they know where each other belongs. And I think we are 
going to find many, many more stories like that as it proceeds.
    With regard to the issue of air drops, you know, we are 
talking about really dangerous, life-threatening interventions 
either for NGO's or for the military that fly an air drop or 
for agencies who are unarmed. And in all of these instances 
going in in a non-permissive environment is really very 
dangerous. But we are working on the details with all of the 
interlocutors that you have mentioned.
    And the thing that has been very helpful is we have gotten 
calls from many Members of Congress who have been in touch with 
their constituents who have helped us pinpointand map out where 
these pockets of people are, in addition to some of the surveillance we 
have been able to gather. So we can pretty much figure out where these 
people are and, in terms of corridor, trying to find very targeted ways 
to get them.
    But it is very dangerous and it is really a question of how 
much further is Milosevic going to go in this war against his 
own people. You know, I mean if he and his troops will not 
allow even humane access, it just further underscores the fact 
that this man--you know, he wants his land, but he hates his 
people. And we have got to figure out who else can get to him 
on these life bridges because, as you say, every minute is 
perilous there.
    Senator Kennedy. Well, we appreciate it, Ms. Taft, and we 
obviously can tell from your own reaction and response your 
deep desire to try and get some resolution of this. We will 
look forward to working with you.
    I thank you very much, Mr. Chairman, for this hearing, and 
I look forward to working with you. I think that we are going 
to have a great deal of work to do over the period of these 
next days and months, and I think it has been enormously 
reassuring to have the breadth of interest and support that you 
have brought through this committee on these issues.
    In this area of humanitarian concern, there is no question 
about the uniformity of interest of all the American people. 
There may be some differences in other aspects of policy over 
there, but there is absolutely none in this area, and we are 
going to do everything we possibly can to work with you and all 
of those groups, independent groups, church groups, and other 
international groups that can possibly help and assist the 
children, the women, the families and the people that have been 
so terribly abused.
    We thank you.
    Senator Abraham. Senator Kennedy, thank you, and thank you 
for working with us on this hearing. We appreciate it and look 
forward to continuing this effort.
    Senator Schumer.
    Senator Schumer. Thank you, Mr. Chairman, and I again want 
to thank you. Some of us didn't have a chance for an opening 
statement, but I want to thank you for your efforts and 
leadership, and Senator Kennedy as well over the years. This is 
an example of Congress working at its best, the Senate working 
at its best, in a bipartisan way.
    I also want to say, Ms. Taft, I appreciate the obvious 
compassion you show. You are doing a job that is a huge 
logistical job, but your feelings are strong. I would just like 
to dwell a little bit more on the area I talked about with the 
refugees. In fact, the NSC is going to brief a few of us on 
this issue, so there are probably some things that you can't 
say, but just in general, because to me we do have this 
immediate crisis on our hands.
    You are right. Within 3 weeks, the refugee assistance that 
we have led and NATO has done is nothing short of remarkable. 
There is a strain on resources. We need more tents, more food, 
more blankets, but it is amazing what has been done. The place 
that we haven't been able to do anything yet and has the 
greatest immediacy and which relates to this immediate crisis 
is the 700,000 internally displaced Kosovars who are in a 
desperate race against time.
    We don't know much about their fate because they are 
internal. We know some, but not enough. But word is beginning 
to trickle out--more massacres, rapes, possible starvation. And 
I have heard some of these from own constituents who are in 
touch with people. Fortunately, we have cell phones and you can 
actually hear some of the anecdotal, awful evidence about what 
is going on. So it seems to me that this calls for immediate 
action.
    Yesterday, I talked to Sandy Berger about this and he said 
this was the most immediate, pressing problem we face at the 
moment in any sphere. And so I would like to ask you the same 
questions, and I know you might be somewhat constricted in how 
you can answer--that I will ask the NSC people at our meeting 
in a little while.
    The first is how much do we know about these however many 
hundreds of thousands of people within Kosovo who were cleared 
from their homes, tried to come over the border, but then were 
stopped and are somewhere in Kosovo? How great are the risks--
you mentioned the risks--of each particular type of plan? The 
obvious one is drop food, and the obvious answer is the C-130 
is sort of a sitting duck and the food wouldn't get there 
anyway, so then the question of safe havens; third-party 
assistance, which, as you say, has been done in part through 
your efforts in other places. Getting a neutral third party to 
be involved in this and then maybe having some kind of relief 
through the air, preferably, or the ground is probably the best 
way to go, but one fraught with many difficulties.
    Can you comment on these things and give us whatever you 
are at liberty to disclose about what can be done, because I 
think all of us feel the angst of these people, particularly 
when you meet with their relatives who are here and just day by 
day, minute by minute, hanging by a thread when they don't know 
what will happen within the next 10 minutes to their relatives, 
their friends, their family.
    Ms. Taft. The last food deliveries that were made by the 
network of NGO's and UNHCR, et cetera, inside of Kosovo was 
March 23, and then people left. So from then on, the normal 
food deliveries, which were always pretty meager anyway, from 
Serbia down to Kosovo--those stopped and it was a question of 
what was remaining in the pipeline or inside of the various 
stores in Kosovo.
    All of the UNHCR facilities were ransacked and a warehouse 
of WFP's was ransacked, so we believe there is virtually no 
externally supported--so this is what has prompted us--I mean, 
well, not only, but this is a very sad commentary on what these 
people are able to have. We have had reports that they are 
eating berries. In Africa, we call it famine foods when you 
find different ways to cope for the time being. But this is a 
big problem, and particularly for the elderly and the children.
    So in terms of trying to get at these people, we do have a 
pretty good idea. And I wouldn't say it is just the people who 
were turned away from the border. There was always a lot of 
internal displacement, and this is what happened even long 
before the bombing started, where the Serbs were displacing 
people from the villages and sending them to the cities. And 
the cities like Pristina ended up with 150,000 more people than 
they had had before the war. So a lot of these people were 
displaced. Not all of them had tried to get out and then come 
back in. We have aerial photos, which you will no doubt be able 
to see, of where we know there are clusters of people who are 
out in the open.
    Senator Schumer. Do you have any idea how many?
    Ms. Taft. We have estimates, yes, sir.
    Senator Schumer. Can you tell us?
    Ms. Taft. It ranges from a few hundred to several thousand.
    Senator Schumer. In each cluster?
    Ms. Taft. Yes. We can't count them.
    Senator Schumer. Obviously not.
    Ms. Taft. And then there is a particular area in the 
Drenica triangle where we have had some very good reports via 
constituents of Congressman Engel and probably you and others 
where we are trying to piece together on-the-ground estimates. 
But, you know, estimating populations of displaced persons----
    Senator Schumer. Very hard.
    Ms. Taft [continuing]. Is almost a science. And after I 
finish answering your questions, I want to get back to this 
because this has been a plaguing problem we had in Macedonia 
and I would like the record straight on that. But, anyway, on 
the issue of where the people are, we can find them.
    In terms of interventions, the first one everyone thinks of 
is air drops, which have worked in some places sometimes, but 
certainly did not work in Turkey when the Kurds were in the 
mountains in Turkey, have not really worked in the Sudan and 
other places because they are very unwieldy and if you have to 
drop them from 15,000 feet on pallets with parachutes, you 
never know who is going to get hit on the ground or whether 
they will be diverted. And 15,000 feet off the ground is very 
dangerous for any aircraft going in a non-permissive 
environment.
    Senator Schumer. And to go much higher, you would risk--
just the food would be gone.
    Ms. Taft. Right. So our military has said if anyone is able 
to do air drops, a neutral country or a UN agency, we will 
provide guarantees in terms of our air space for access.
    Senator Schumer. Right.
    Ms. Taft. But that does not enable permissiveness on the 
part of the Serbs. That has to be done.
    Safe havens require ground troops. Third-party neutrals I 
have talked about in terms of air drops. We also are working 
with some NGO's to see if they can't negotiate a way to get in. 
And, finally, an area that you didn't mention, but I keep on 
trying to push, is the smugglers' routes. The area between 
Albania and Kosovo has for centuries had various routes, and 
this is where the KLA has been able to come in and out. I don't 
think there is enough structure there, but we stand ready to 
anyone who is able to get their pack animals or go inside to 
try to assist, and that is another feature.
    So I hope that answers some of your questions. You will get 
more specifics, I am sure, from the NSC, but this is on a very 
urgent--let's look at all sides.
    Senator Schumer. I don't know what the answer is and there 
are no good answers, obviously, as there are no good answers in 
this whole region right now. But let's just make sure we do 
everything we can because we would rue the day, as I mentioned 
earlier, if our air war succeeded 3, 4 weeks from now and then 
we saw that tens of thousands of people had died and maybe 
didn't have to.
    Ms. Taft. Well, I am afraid we are going to find that 
anyway because of the way they have been treated and displaced 
so brutally for so long.
    Senator Schumer. Do we have reports of--I mean, what is the 
food level of the people? I guess it is different in many of 
the different places. How imminent is starvation for some of 
these folks?
    Ms. Taft. Obviously, individuals' metabolism operates in 
different ways. I mean, for a real famine in an African 
context, it takes about 2 months where the body--but you have 
to have water and you have to have some famine foods. I am not 
a nutritionist, so I can't really answer that, but let me just 
say that I am sure the situation is dire.
    Senator Schumer. Thank you. And again, Mr. Chairman, thank 
you, and I thank you for your herculean efforts under the most 
difficult of circumstances.
    Ms. Taft. We have got a lot of people working very hard in 
a good way, and I want to thank the bipartisan nature of this 
because I guess I am lucky in Government because I get to do 
the humanitarian activities that everybody has a very strong 
non-partisan and humane approach to. And I have always felt 
that, and I am really pleased that you are having this hearing. 
We have a lot of work to do together and I appreciate this.
    Senator Abraham. Secretary Taft, we appreciate you being 
here. I also want to thank you and the State Department for 
helping actually to facilitate the participation today of our 
refugees, deportees, or whatever term they choose or we choose 
to use. Getting the visas in time for their appearance made, I 
think, this hearing more helpful and meaningful, so thank you 
for that.
    I want to just ask a couple of questions. In the testimony 
we heard earlier, there were some concerns raised about very 
recent actions in the Macedonian camps that sounded obviously 
very concerning. That kind of comes on the heels of something I 
raised in my opening statement, the concerns that have been 
expressed with respect to the perhaps in some instances 
involuntary removal from the Macedonian refugee areas of people 
on planes, which was actually reported in the media and how we 
came to hear about it.
    I just wondered if, in your judgment, these situations--
well, let's just start with some of the things mentioned this 
morning. Are these problems that you are hearing about or is 
this information that is new? And if it is in the latter 
category, is it something that we can try to address 
immediately?
    Ms. Taft. Let me start with what I know and then what was 
new to me.
    Senator Abraham. Sure.
    Ms. Taft. When we were in Macedonia last weekend--no--the 
weekend of the 3rd and the 4th, it was very clear that the 
Macedonians were not able to open that border. There was no 
place for them to go. When we got the camps operational, in 
just a matter of 24 hours, a decision was made that they could 
open to receive people from no man's land and from the rest of 
Blace if there was some movement out.
    The president on down in Macedonia said that we have to 
have an evidence that somebody else is going to help share our 
burden. At that point, Turkey came in and they sent in two 
flights; they sent in two relief flights, and then they 
processed out people before IOM and the UNHCR had fully 
documented them. They say that they didn't force anybody on a 
plane, and I have to believe them because after the flurry came 
up, they said, listen, we are not taking anybody out unless IOM 
and UNHCR processed them.
    At the same time, 300 buses of people from Macedonia--the 
government put on 300 people and sent them to the south, to 
what ended up being Albania, and that was pretty messy. But the 
people are all under shelter now and there is a UNHCR presence 
and they are now being documented, as are the Turks. I think 
about 1,000 people, in total, went out in these unregulated 
ways.
    I got a telephone call in Geneva saying, Julia, the whole 
thing is going to collapse if you don't authorize some payment 
for the Macedonian aircraft to transport people to Turkey. And 
I said, is somebody watching this? And they said yes, so they 
put people on the planes. The ambassador swears that there were 
not people who were forced and ripped apart from families and 
put on planes. But you never can tell.
    I mean, I was involved in the Vietnamese airlift, you know, 
24 years ago and these things tended to be not according to any 
regime or voluntary or structured way that the UNHCR or the 
U.S. Government or IOM wanted. So we said we would not pay any 
more money until there was a process. So I must say about 1,000 
people did get out in an irregular process. Now, it is in 
place. No flights are going to any of these countries, whether 
it is Germany, Norway or Turkey, that have not been registered 
by IOM. We have launched tracing services to pick up all the 
families that were in these other places, and anyone that is 
split, we have an agreement they will be reunited in the same 
location.
    Senator Abraham. So you feel pretty confident that at least 
going forward----
    Ms. Taft. Well, you know, this is--I can't----
    Senator Abraham. Let's put it this way, that there are as 
many safeguards as can be reasonably put in place for the 
future. That is kind of where we are at?
    Ms. Taft. Absolutely, and I must say the first couple of 
days were not done according to any standard that we would 
want. But we are remedying it and getting on with how we really 
need to do it in the future.
    Senator Abraham. Well, I think the tone of all of us here 
should be, recognizing the emergency nature, that we can 
probably, in post-mortem, talk about preparedness, and so on. 
But right now at least this Senator is mostly interested in 
going forward in terms of whether or not we feel we have got a 
sufficient now oversight situation where we can provide those 
assurances that are reasonable.
    I recognize we are not going to be able to operate in this 
situation the way we would in the context of a non-warlike 
circumstance, and so on. But I just want to make sure that you 
feel comfortable that you have been given the help to do what 
you need to do in that respect.
    Ms. Taft. Yes, sir, and we have invested the resources. We 
have given $3 million now to make sure that the systems are 
working and in place. Let me just say that even during the 
early hours of this negotiation, there was a concern that 
Macedonia was going to say if 1,000 leave, we will let 1,000 
more in from no man's land. And our position was that is 
inhumane; you can't do it. We are showing we are moving people 
out. You have got to move all these people into shelter which 
was being put up.
    Senator Abraham. Right.
    Ms. Taft. And I said to them, I said, you know, if you want 
countries to give temporary asylum, they will only give 
temporary asylum to healthy refugees, and they are not going to 
be healthy if they are out in the rain and the mud. And they 
then immediately started allowing them to come forward, so I 
think it is in hand now.
    Senator Abraham. Well, let us know, too. I think this is a 
situation where, if we are going to have the kind of 
congressional involvement that I am sure you want and support, 
if there are problems developing it is probably better that on 
the front end we try to address them or give you help if it is 
needed.
    Back to the earlier panel--and you were going to address 
that as well--were some of the reports that we heard from our 
first panel about ongoing problems ones that are consistent 
with the reports you have been getting or is this something 
new?
    Ms. Taft. I hadn't heard about the two people that had left 
Brajde camp, sort of escaped and gotten beaten up. That was 
news to me. My colleague said that she had read a report. I am 
going to find out about that. The issue that we have there is 
what do we want NATO to do, what do we want the host country 
security forces to do, police forces to do, and what do we want 
the UN system and NGO's to do. And these are starting to get 
mixed up.
    NATO has put the infrastructure in; they are trying now to 
turn it over to the UNHCR and to NGO's. We are trying to make 
sure that there is no gap and there is no precipitous hand-
over. NATO has done an incredible job in doing these camps 
virtually overnight, but there needs to be a seamless transfer 
here and a lot more involvement of the UN to help that happen.
    The question then comes, what do you use the NATO forces 
for? Would they do perimeter security or internal camp 
security? And this has not been resolved. In the meantime, 
since they are in--and I am mostly talking about Macedonia--
since these camps in Macedonia are really in the jurisdiction 
of Macedonia, their police have a responsibility. But I must 
say they were quite heavy-handed and not well-trained for this, 
and we are aware of that and we are trying to work out a way to 
make sure that they just do perimeter security and we have some 
other ways to deal with inside the camp.
    Senator Abraham. Good. Well, I think it is important to 
convey that concern to--I am sure you are trying to--obviously 
the Macedonian officials because we have had visits just 
yesterday from--the Macedonian ambassador to the United States 
came up to the Hill, and I know they are interested in securing 
some support and help in their efforts. And that is harder to 
obtain if the information we are getting is of the sort we have 
heard this morning.
    Now, the transfer, as you described it, sort of from NATO 
to voluntary agencies in terms of running these camps--do you 
have a timetable on when that is expected to be happening?
    Ms. Taft. It is different for each camp, and I find this 
quite concerning. Each of the various NATO troops on the ground 
have been helpful in setting up a camp. So the Germans put up a 
camp and the Turks put up a camp and the Brits put up a camp, 
and they are now negotiating with certain NGO's that are active 
in Macedonia that we are supporting to do pieces of services in 
those camps.
    My feeling is--and we have been talking with the UNHCR 
about this--these should all be UNHCR camps and there needs to 
be a clarity of which NGO's are going to be the partners to do 
what services in each of those camps. We can't goaround this 
region having an Italian camp here, a USA camp here. I mean, this is 
not rational.
    I think the biggest challenge--and I am going to have to go 
out there again this week--is to see if we can't come up with a 
proper, organized way to deal with the military on this and to 
have a system which is accountable to the international 
community and have the NGO's provide those services. NATO has 
told us they are not going to pull out their support until 
there is a proper turnover, but I think it has to happen fairly 
soon.
    Senator Abraham.  I agree. Back to just the general 
question of the population still within Kosovo and the 
possibility that if somehow the opportunity for them to leave 
occurred and they in larger numbers did so, I know everybody, 
and I am sure your office more than anyone, is shuddering at 
the possibility of having to deal with another surge of that 
sort. Are we prepared, in your judgment, to deal with that or 
do we have to do more, given the potential numbers. And if so, 
what can we do?
    Ms. Taft. Well, given the difficulty it is to reach these 
people inside of Kosovo, I really pray they can get out. I 
don't care if we have to work harder than we are working now.
    Senator Abraham.  Sure. Well, everything I have heard 
today, I think, indicates that----
    Ms. Taft.  Well, let me just say that Macedonia is probably 
at its absorptive level. Turkey will take more. We are working 
on some camp sites in Albania. Albanians politically want to 
have these people stay there, and we are trying to figure out 
how we can make it an asset rather than a liability. I am sure 
Italy will take more. We have pledges from many countries to 
take more who come out, if they are able to get out.
    One of the unknowns here also that we haven't talked enough 
about is Montenegro and whether or not only the 65,000 refugees 
that are in Montenegro might go out through Croatia or to 
Bosnia. We don't know, but we are ready for those. I don't 
know. I think we will be because we now know who our partners 
are. We now know where every tint in the world is. We now have 
a sense of the magnitude of this, and that is one of the 
reasons in Albania we are trying so desperately to move the 
people from the mountain side, Kukes, where they have come 
across the border, down into the other parts of Albania because 
if there is another influx, that is where they are going to 
come in and they are going to need to be taken care of.
    In Macedonia, that no man's land in Blace is all cleaned 
out and they are sanitizing it and putting up another area to 
be able to receive more people. We will be, I think, in OK 
shape, but the people who come across will not be, and so we 
may need to identify real field hospital sources and things 
like that if they are to come out, and I am sure contingencies 
are working on that.
    Senator Abraham. Well, I think that is reassuring 
information, though, because, as I say, there will be time for 
post-mortems, but I think the concern I am getting from some of 
my constituents--and we have large populations of people from 
these areas in our State--is just that given the tenor of 
things leading right up to the initiation of the bombing, the 
sense that this might happen seemed at least to a lot of people 
in the communities in my State as a very real possibility.
    And they are deeply concerned now that there wasn't more 
preparation. Whether that was proper or not in terms of 
assessment, the concern now is now that we are there, now that 
we have got this potential, are we getting ready and will we be 
ready if something additional happens.
    Ms. Taft. Just to disabuse your constituents and to set the 
record straight, UNHCR was in Albania, for instance, working on 
contingencies for outflows. We had expected 60,000 people last 
June into Albania. Only 18,000 came, so that they still had a 
process where they could absorb 60,000 there and about 20,000 
in Macedonia. We also had prepositioned or in the procured 
pipeline enough food for 400,000 people for 6 months. We, of 
course, thought that was going to feed the people inside 
Kosovo, but it still was available for redirecting for them 
outside.
    I think that everybody was surprised at the intensity and 
the unbelievable inhumanity of the expulsion of these people so 
dramatically. But, you know, if you think about being able to 
serve 500,000 people without the incredible problems that you 
could anticipate in very inhospitable areas, particularly in 
Albania, I think it really is amazing how well it has gone. But 
we have a lot of work to do in contingency, but I don't think 
it was because we were so unprepared; also, very fortunate to 
have NGO's that had been working in Kosovo, knew the people, 
had really good systems in place. They evacuated to Macedonia 
and then Albania, and they are the ones we are going to have to 
rely on in the next months ahead.
    Senator Abraham. So one of the problems is that while we 
had food, it was in Kosovo?
    Ms. Taft.  Some was; 1,000 metric tons was in Kosovo. Some 
was in Serbia. We had a lot in Bar, the port of Bar, and it is 
still there or in Montenegro, plus we had food on the high seas 
and call forwards around the world, the World Food Program did. 
So, that has not been the problem. Right now, it is just how do 
you get enough food up one road going up into Albania, which is 
the same road that you need to bring people down on to get them 
away from the border. So it is going to be probably more 
difficult if we don't have NATO around to construct yet again 
lots more tents, but I have been assured that if we need them 
for another surge, they will do whatever is necessary.
    Senator Abraham.  The last question I am going to ask is 
just sort of a follow-up on your comments with regard to 
Guantanamo and the possibility of temporary resettlement there 
to meet America's commitment. You indicated that you don't 
foresee the likely need for that at this point. If there was an 
overflow from people who have been prevented from leaving, is 
it likely that would trigger the need to----
    Ms. Taft.  I think it would. I mean, depending on how big 
an overflow it is, I do believe it would. Now, what we need to 
do right now--and I really do need guidance from the committee 
here, and the House Judiciary Committee, too. There are a 
variety of ways to bring refugees in. There are a variety of 
ways to protect refugees offshore, you know, whether it is 
parole, whether it is temporary protective status, whether it 
is bringing people in as refugees with a round-trip ticket to 
go back home. We have a variety of options.
    The bottom line is how do we process--whatever we are going 
to do, how is the best way to process it. And I come out right 
now that we will probably need to process people closer to 
home. We certainly can't do it in Albania; it istoo dangerous. 
You don't have the infrastructure. Macedonia would be difficult, so we 
might have to bring them to Guantanamo and process them in for whatever 
status they might have in the United States. We really need to think 
through this and what would make the most sense.
    In the meantime, we are going to try to collect as much 
data and information we can about people who do have relatives. 
And if we find these people, we will be ready to move with 
those that would more likely want to come to the United States, 
but I don't think we are there yet. I really think we have to 
talk about it. We want to have these contingencies. That is why 
we have Guantanamo as a contingency, but let's hope we don't 
need it.
    Senator Abraham.  Well, hopefully, that is true. The other 
issue I know that may be raised in the next panel is the 
question of whether or not it is more cost-efficient, as 
opposed to the costs that would be involved in bringing people 
to Guantanamo and housing them there in a humane way, to 
perhaps support the housing of people closer, perhaps in 
Albania or other places where right now they may have reached a 
limit, but with assistance perhaps less expensive costs than 
would be incurred if----
    Ms. Taft. We are doing that, we are doing that.
    Senator Abraham. How much do we have? I mean, in other 
words, do we----
    Ms. Taft.  We have identified the sites. We have identified 
the sizes of the encampments we would have. DoD just needs to 
figure out how they are going to pay for it, and I need to have 
money to pay for the social services of the NGO's inside of it. 
But we have planned to go ahead with that, and so anything----
    Senator Abraham.  Would that be an option for the 20,000?
    Ms. Taft.  Yes, sir; yes, sir. But, you know, if 700,000 
more come out, 20,000 is a drop in the bucket.
    Senator Abraham.  Sure.
    Ms. Taft. So we really have to have broader contingencies. 
But what we are doing now is responding to the interests of the 
Albanians, the plea of the UNHCR, and the plea of the refugees 
themselves that they want to stay close to Kosovo.
    Senator Abraham.  I agree.
    Ms. Taft.  So we are going to do this 20,000--well, it is 
not a big camp of 20,000, but several locations, and we will 
pay for it and we will get that up and running. It is in 
process of the design and hopefully will be up in just a few 
weeks.
    Senator Abraham.  Well, I am going to end questions at this 
time. I am certain we will continue to work together with your 
office and our committee, and also perhaps follow up with 
additional hearings at appropriate points, if that is called 
for. But we appreciate what you are dealing with right now, and 
I think frankly having this hearing was in part for us at least 
an opportunity to catch up a little, but also to expose people 
here to exactly the magnitude of the challenge you confront.
    So what I will do is leave the record open, since a number 
of our colleagues had to leave, for additional questions they 
may want to submit to you in writing, although perhaps some of 
that will happen just as a matter of our ongoing relationship.
    Ms. Taft.  Thank you.
    Senator Abraham.  Thank you very much.
    We have a third panel, so what we are going to do is 
adjourn at this time and return at 1:30 p.m., and then we will 
start up again at that time so people can have an opportunity 
to make some lunch plans, as well as other accommodations, and 
then we will begin again.
    The meeting is temporarily adjourned.
    [The subcommittee stood in luncheon recess from 12:10 p.m. 
to 1:42 p.m.]
    [The subcommittee reconvened at 1:42 p.m., Hon. Spencer 
Abraham presiding.]
    Senator Abraham. The hearing will resume at this time, and 
I must begin by welcoming our audience here who stayed with us, 
or perhaps just arrived. We have one panel remaining, and I 
appreciate and want to thank the panelists for the patience 
they have shown both to stick it out this long and also to 
agree to this interruption for the break we took.
    I stressed, I think, in the last panel that this is an 
issue that certainly is not going to consume only 1 day of 
attention from this subcommittee. I expect we will be on this 
issue or the issue of the refugees here from Kosovo for some 
time, and so we may well be inviting people back on other 
occasions. But right now we will hear from panel, which 
includes two representatives from organizations that have been 
very important with respect to this crisis.
    We will hear first from Bill Frelick, who is Senior Policy 
Analyst for the U.S. Committee for Refugees. And then we will 
hear from Maureen Greenwood, who is the Advocacy Director of 
Amnesty International for Europe and the Middle East.
    Again, I think that in light of the fact that there aren't 
a lot of other Senators likely to attend, we are not going to 
put the lights on here. We would ask you to keep the length of 
your remarks reasonable, but we are not going to keep you to 
the 5-minute limit if there is important information we should 
share.
    So we will start with you, Mr. Frelick. Thank you for being 
with us.

 PANEL CONSISTING OF BILL FRELICK, SENIOR POLICY ANALYST, U.S. 
COMMITTEE FOR REFUGEES, WASHINGTON, DC; AND MAUREEN GREENWOOD, 
   ADVOCACY DIRECTOR FOR EUROPE AND THE MIDDLE EAST, AMNESTY 
               INTERNATIONAL USA, WASHINGTON, DC

                   STATEMENT OF BILL FRELICK

    Mr. Frelick. Thank you. I will submit my written remarks 
for the record.
    Senator Abraham. Without objection, that will be included.
    Mr. Frelick. And what I would like to do is to just make a 
few highlights, bearing in mind especially the testimony that 
you have already heard today. And I think we were all very 
impressed with that and note that.
    The situation has been incredibly fluid and what I might 
have said here last week when we were first planning this 
session and what I say today could be very different. Our 
priorities have shifted throughout. I think that the real 
turning point was the unilateral declaration of the cease-fire 
by Milosevic, accompanied by the absolute closure of the border 
at that point.
    If there was ever any doubt prior to that that this was a 
mass expulsion, that this was a spontaneous movement based on 
the bombing campaign alone, those doubts were laid completely 
to rest. And I think that we can mark that as a changing point 
in terms of the improvement of the situation for those people 
who had managed to escape up to that point, but it also 
presents a grave warning for the safety of the people who are 
still left inside Kosovo today. So I would like to address both 
of those groups.
    First, looking at the refugees outside the country, as has 
been mentioned earlier today and I would reiterate, because the 
situation is so unstable and so unpredictable, we need to be 
preparing now for the next influx. And one issue that we have 
heard addressed is the prepositioning of aid and assistance and 
the pipeline of aid to these very inaccessible areas, but the 
other that I think we really need to underscore is the issue of 
protection at the border so that we don't have a repeat of the 
conduct of Macedonia when they were treating refugees, 
traumatized people, in a completely summary fashion, in a 
deplorable fashion really, given the conditions.
    I would take issue, although I agreed with most everything 
that Julia Taft said earlier, when she used the word 
``processing'' to describe the herding of these people in the 
dead of night, without UNHCR, without any transparency, and 
splitting up families. I think that was a poor choice of words.
    What we need to do now beyond focusing on the camps--I 
think we have put a great deal of focus on the camps this week 
and getting assistance to the camps. That is fine,that is one 
thing. And the camp that was mentioned to you, in particular, that is 
the Macedonian government-run camp is a cause of great concern. 
However, I would like to draw your attention to the critical need to 
support refugees who are staying in private homes.
    It is the culture of the Balkans not to keep people in 
camps and to get them into private homes as quickly as 
possible. We have seen that in Croatia, we have seen that in 
Bosnia. And, yes, we have seen it in Serbia as well, Serbs 
opening their homes to Serbian refugees.
    In Macedonia, according to the latest figures that I have, 
60 percent of the refugees are actually staying in people's 
homes. And in Albania, even more remarkable, in this short 
period of time it is up to 80 percent now that are actually in 
people's homes. I myself have slept in the private homes along 
the northern Albanian border--extremely poor people, houses 
filled with refugees. They made a little more space available 
for me coming up there.
    I know the kind of hospitality, I know the ethnic 
solidarity for this region, and what we need to do is to 
facilitate that and to promote that. We are getting enough food 
into the camps. We don't have enough food going into these 
people's homes so they can keep them open, and that is 
something that I think is extremely important.
    I also want to simply mention that--and I think the 
Government has come around on this--the idea of having a 
massive evacuation to third countries, including to the United 
States, really puts the cart before the horse in the way that 
you approach a refugee emergency. And I don't want to dwell on 
that, but I do want to say, in particular, that Guantanamo is 
still on the table.
    Whatever improvements they are talking about making to it, 
which would certainly be welcome, it is still a rights-free 
zone. A baby born there is still a stateless person. We are 
taking people who are traumatized, who need succor, who need 
healing, who need support, and you isolate them out there, and 
I think that that is the wrong way to treat people. It is not a 
humane thing to do. No matter how you sugar-coat Guantanamo, it 
is still Guantanamo, and I have been there as well.
    So I think the emphasis has to be the traditional emphasis 
in a refugee emergency. It is providing safe asylum in the 
region, getting assistance there as quickly as possible, and 
then helping the local community to try to build the 
infrastructure. They need sewage lines, they need water piping, 
they need roads, electricity, you name it. We could be putting 
a great deal of money into that.
    If the people are able to return home quickly, which you 
heard from all the refugees here and that I have heard from 
refugee testimonials as well--that is what they want to do; 
they want to return home--then, fine. Then you have rewarded 
Albania and possibly Macedonia for their good behavior, for 
their generosity. But if this becomes an even more protracted 
conflict and if they can't go home soon, you want now to begin 
creating the opportunity for local integration so that people 
will be able to remain in the region where they share the same 
culture.
    I would like to turn my attention now to the question of 
internally displaced people. I was heartened to hear the 
questions that Senator Schumer was asking earlier today. These 
are the same questions that we have been asking ever since that 
border was closed.
    What we see are all the signs of a genocide, an impending 
genocide or a genocide that is ongoing. Genocide does not have 
to be massacres in gas chambers, although we may well hear 
quite a bit of evidence about massacres. And, again, speaking 
from personal experience I was outside of Srebrenica and Zepa 
when they fell. I was interviewing refugees as they came out of 
the woods. I interviewed the women who were separated from 
their men just hours before and, of course, they have never 
seen those men again. I remember that very clearly. There is a 
track record here, and in tracking genocide we have to be aware 
of the willingness, the intent, as well as the capacity to 
commit genocide, and we are seeing both occurring now.
    So one thing is massacres; the other is expulsion. 
Milosevic has already succeeded in expelling 25 percent of the 
population. But what I want to focus on today is the question 
of starvation, using food as a weapon. In Bosnia, we saw a 
tactic, and we saw it again and again and again, where Serb 
forces surrounded areas, besieged them, shelled them, and cut 
them off from food. That was the strategy. Rarely did troops 
engage each other in direct battle. That is not the way the war 
in Bosnia was fought. The targets were civilians, they are not 
combatants, and the tactic was to besiege them and to starve 
them out.
    What I saw last year when I was in Kosovo was a systematic 
campaign to deprive and to deplete the food resources in 
Kosovo, and I want to just highlight four or five of the points 
very quickly that were used at that time, and we can see the 
effects today.
    First, there were severe restrictions on basic commodities 
moving into Kosovo from Serbia proper. I went in on an 
International Rescue Committee vehicle. It was thoroughly 
searched; every box was opened. We had humanitarian daily 
rations. They opened up every single box and examined every one 
of them. Commercial trucks had a very, very difficult time 
getting through, and on page 8 of my written testimony there is 
a list of the controlled commodities, which includes just about 
everything that you need to live.
    Second, there was a scorched earth campaign pretty well-
documented, but most people were focusing on the direct 
atrocities that were committed against people. I would like to 
draw your attention to the burning of fields, the destruction 
of crops, burning of haystacks, burning of food stores 
themselves, killing of livestock. Paramilitaries went through, 
killed livestock, and dropped their carcasses into wells to 
contaminate the water.
    Next was a sniping campaign. Serb snipers prevented ethnic 
Albanian farmers from harvesting their crops. So even if aerial 
photography was showing the crops were full, the crops couldn't 
be harvested. And for the spring planting--for the crops that 
should be coming up soon, they were not able to do the planting 
for the same reason, fear of snipers and the actual shooting of 
farmers when they went onto their fields.
    And, finally, there was the creation of 300,000 internally 
displaced people last year. And what those people did was they 
stayed in the private homes of other people and they ate their 
winter stocks. So between destruction of food, consumption of 
food, and the prevention of production of food, we had a 
systematic campaign to deplete the food resources of Kosovo, 
such that Kosovo became completely dependent on the provision 
of humanitarianaid from outside sources. And we have gotten 
some indication from Julia Taft about what that pipeline looked like.
    The situation now is that that pipeline has been completely 
and utterly destroyed. Those food warehouses have been looted 
and burned. None of the agencies that were operating there, 
including the International Committee of the Red Cross, the 
UNHCR, all of the non-governmental organizations that are 
international, plus very importantly the local NGO's that did 
heroic work there last year--they have all been either removed 
from the country, or in the case of the local ones completely 
decimated.
    So now we are faced with a critical food situation, and 
this brings the question of the fatal miscalculation that we 
are still seeing today, that we saw in President Clinton's 
remarks yesterday about grinding down the Serbs, and that we 
saw in the lead editorial in the New York Times yesterday about 
wearing out the Serbs. This is a war of attrition. We are 
hitting the supply lines of the Serbs, but in the time it is 
going to take through a bombing campaign to grind down the 
military machine, these people will be dead.
    The discussions about the decision to deploy these 
helicopters--even after the decision was made, we are told that 
it will take another month for them to come in. We don't even 
have a decision on ground troops yet, and we were told in that 
same New York Times editorial that for just 70,000 troops--and 
I have heard talk of 200,000 before they would enter--that that 
would take another 6 weeks before they could be deployed.
    So the military time line is completely out of sync with 
the humanitarian needs in Kosovo, and I think that is the 
reality that we are staring in the face right now. Civilians 
will starve before men with guns, before soldiers. So what do 
we do about it? We are all grappling with this question, and as 
I say, I appreciate Senator Schumer's concern. I have heard all 
the reasons for not doing food drops. However, I think that we 
need to bust food in there through the air, through the ground, 
however we can do it to get food in as quickly as possible.
    I would caution against the creation of safe havens, and I 
do this because we have a very unhappy history with safe 
havens, per se. They have been a half-measure, they have been 
death traps. They have been used to prevent people from seeking 
asylum abroad. And what we have seen, whether it be in 
Srebrenica in eastern Bosnia, or Kibeho in southwestern Rwanda, 
or Erbil in northern Iraq, is that people there are not 
genuinely protected and they can actually be subject to 
massacres as well.
    But time is not on our side, and I think that what we have 
to do is a rapid deployment of troops to come to the rescue of 
starving people and people that are on the executioner's block 
in Kosovo. Julia Taft said one other thing that sort of caught 
me the wrong way. She talked about the responsibility of 
Milosevic for his people.
    The fact of the matter is Milosevic does not see the ethnic 
Albanians as his people. If we keep maintaining the fiction 
that these are his people and we keep assigning responsibility 
and expect him to act responsibly toward them, we are going to 
be faced with an immense tragedy. We have to make the decision 
that they are not his people. They don't want to be his people, 
he doesn't want them to be his people, and we need to draw the 
line and realize that Serb police and ethnic Albanian civilians 
don't mix.
    Thank you very much.
    Senator Abraham. Thank you, Mr. Frelick.
    [The prepared statement of Mr. Frelick follows:]

                   Prepared Statement of Bill Frelick

                       the kosovo refugee crisis
    Thank you, Chairman Abraham, for the opportunity to testify 
regarding the humanitarian needs of Kosovar refugees and displaced 
persons.
    The U.S. Committee for Refugees is a nonprofit, nongovernmental 
organization, which for 40 years has defended the rights of refugees, 
asylum seekers, and displaced persons in this country and throughout 
the world. Our organization has been documenting the conditions of 
refugees and displaced persons in former Yugoslavia since the beginning 
of the conflict, as indicated, in part, by our publications devoted to 
this issue:
    ``Yugoslavia Torn Asunder: Lessons for Protecting Refugees from 
Civil War'' (1992).
    ``Croatia's Crucible: Providing Asylum for Refugees from Bosnia and 
Herzegovina'' (1992).
    `` `Preventive Protection' and the Right to Seek Asylum: A 
Preliminary Look at Bosnia and Croatia,'' International Journal of 
Refugee Law (1992).
    ``Human Rights and Humanitarian Needs of Refugees and Displaced 
Persons in and outside Bosnia and Herzegovina,'' Helsinki Commission 
testimony (January 25, 1993).
    ``Civilians, Humanitarian Assistance Still Held Hostage in 
Bosnia,'' Refugee Reports (February 1993).
    ``Voices from the Whirlwind: Bosnian Refugee Testimonies'' (1993).
    ``Last Ditch Options on Bosnia'' (1993).
    ``East of Bosnia: Refugees in Serbia and Montenegro'' (1993).
    ``No Escape: Minorities under Threat in Serb-Held Areas of 
Bosnia,'' Refugee Reports (November 1994).
    ``War and Disaster in the Former Yugoslavia: The Limits of 
Humanitarian Action,'' World Refugee Survey (1994).
    ``The Death March from Srebrenica,'' Refugee Reports (July 1995).
    ``Bosnian Refugees,'' Hearing before the Subcommittee on 
International Operations and Human Rights of the Committee on 
International Relations, House of Representatives (September 25, 1995).
    ``Germany to Begin Returning Bosnians,'' Refugee Reports (September 
1996).
    ``Bosnian Minorities: Strangers in Their Own Land,'' Refugee 
Reports (October 1997).
    ``State Department Welcomes, Then Backs Off, Serbian `Humanitarian 
Centers' in Kosovo,'' Refugee Reports (September 1998).
    ``Shaky Ceasefire in Kosovo; Displaced People Come Out of Woods, 
Fears Remain,'' Refugee Reports (November 1998).
    ``Fighting Heats Up Kosovo Winter,'' Refugee Reports (February/
March 1999).
    Today, we come to you at perhaps the darkest hour we have seen 
since these human tragedies began six years ago. In the past, we have 
testified about the possibilities for humanitarian action. Today's 
testimony will reflect the marginalization of the humanitarian 
community in this conflict.
    I thought long and hard about what recommendations to make to you 
today. I have considered every angle I can think of. Recommendations 
that would adhere to principle seem to hold little hope for the rescue 
of people who are now in immediate danger. I can and will decry how we 
have come to the present juncture, but I fear that the recommendations 
I would want to make are limited by the presuppositions and 
miscalculations that have gone before.
    The refugee situation in and around Kosovo remains extremely fluid 
and unpredictable. However, at this moment, NATO and the humanitarian 
arms of the international community working with local Albanians and 
Macedonians have managed to bring a modicum of order to the chaotic 
disaster that overwhelmed Macedonia and Albania during the first two 
weeks of the air campaign. The primary reason for an improved refugee 
situation, however, the closing of the borders with Macedonia and 
Albania by Serb forces on April 7, raises even more serious concerns 
about the welfare and safety of those now trapped within Kosovo itself.
    Outside Kosovo, the stopped refugee flow provides what might only 
be a short breather before the next influx. The international community 
must attend to the needs of those who have already arrived. It also 
needs, however, to prepare for the next influx so that we do not repeat 
recent mistakes. This includes improvement of the infrastructure and 
logistical capacity of Macedonia and Albania to receive and care for 
sudden and large refugee influxes. It also includes the need for the 
international community to be clear about its expectations regarding 
Macedonia's treaty obligations as a signatory to the UN Refugee 
Convention, so that we do not witness a repeat of Macedonia's harsh and 
shabby treatment of vulnerable and traumatized people last week.
    At the same time, the international community must remain seized 
and sharply focused on the civilians outside our reach: those who 
remain inside Kosovo, among them perhaps a half million internally 
displaced persons in dire need of food, shelter, and other relief 
assistance. Refugee testimonies tell us that those left behind are in 
grave danger and that the threat of genocide is real and immediate. The 
international community, and the United States in particular, bears a 
heavy moral responsibility for their safety, perhaps for their very 
survival.
    NATO's military time-line is out of sync with the humanitarian 
needs of the civilian population inside Kosovo. Essentially NATO has 
opted to wage a war of attrition. Unfortunately, such a military 
strategy presupposes a long stretch of time to accomplish its 
objectives. However, before such objectives can be achieved, before the 
bombing campaign can succeed in degrading Yugoslavia's military 
capacity to operate, Yugoslav military and Serb police and paramilitary 
forces will already have succeeded in accomplishing their objectives: 
the death, burning, terror, and displacement of the ethnic Albanian 
population.
    We have witnessed NATO debate about whether to deploy AH-64D Apache 
helicopters capable of attacking tanks and armored personnel carriers 
and watched NATO arrive at a decision to deploy them, only to be told 
that the U.S. military cannot make them operational in Kosovo for 
another month. Extend this process to the larger and pertinent question 
about deploying NATO ground troops into a nonpermissive environment in 
Kosovo. How long will such a decision take? How soon after such a 
decision will NATO be able to mount an invasion force? By the time the 
first invading NATO soldier sets foot inside Kosovo, will there still 
be a civilian population inside the province to be saved?
    In Bosnia, humanitarian agencies operated throughout the conflict, 
often providing what came to be known as the ``humanitarian alibi'' 
that covered the failure of the international community's political and 
military wings to take responsibility to rectify the causes of the 
human misery that the humanitarians were trying to treat.
    The conflict in Kosovo has taken a different course. With the 
bombing campaign of March 24 all organized humanitarian actors have 
been removed from the scene: There are no international human rights 
monitors operating in Kosovo; the International Committee of the Red 
Cross (ICRC) and the UN High Commissioner for Refugees (UNHCR) are out; 
international NGO's, which distributed food and other relief supplies, 
are sidelined outside Kosovo; and the local humanitarian organizations 
that have done heroic work inside Kosovo during the last year have 
themselves been decimated by the onslaught of the Serb forces. I 
recently received a message from a young Kosovar who had worked as an 
interpreter for American aid workers before he became a refugee last 
week. He said that all local activists were targeted, and that Mother 
Theresa Society warehouses were looted and burned and that all Mother 
Theresa Society activities inside Kosovo have stopped. The Mother 
Theresa Society was the largest of the local humanitarian agencies 
operating within Kosovo.
    In summary, humanitarian agencies cannot bring assistance to those 
in need inside Kosovo. Human rights organizations cannot directly 
monitor abuses. For the time being, this is a military operation that 
leaves little room for any other form of intervention. However, the 
military has a responsibility to assist and protect those made even 
more vulnerable by the onset of all-out war, particularly in the 
absence of any space for humanitarian agencies, including the ICRC, 
which has a specific mandate under the Geneva Conventions to operate in 
wartime.
    We are left, however, with strange, ironic, and tragic discord 
between the military and humanitarian realities. NATO embarked on the 
bombing campaign purportedly to stop the slow ethnic cleansing of 
Kosovo and to prevent the destabilization of the region that could be 
caused by mass refugee flows. Tragically, but predictably, it had the 
opposite effect. This was because the opposing military forces didn't 
actually engage each other. NATO planes and missiles struck at 
targets--such as buildings, bridges, fuel depots, and air defense--only 
indirectly connected to the perpetrators of ethnic cleansing. Serb 
police and paramilitary units, unable to strike back at NATO planes, 
retaliated against their easiest, and favored, target--unarmed 
civilians. A high-tech war conducted from high altitudes was completely 
ineffective in thwarting a low-tech war being conducted with small 
arms, truncheons, and arson against civilians on the ground.
    In criticizing U.S. and NATO policymakers, I don't in any way mean 
to suggest that I am absolving Milosevic and his henchmen of their 
responsibility for war crimes. The blame and responsibility for killing 
and terrorizing civilians and for looting and burning their homes and 
properties rests squarely on them. Nevertheless, whatever NATO's 
intentions and goals, its bombs provided a cover under which ethnic 
cleansing accelerated both in swiftness and brutality. Nongovernmental 
organizations predicted the retaliatory attack on civilians that a 
bombing campaign would precipitate. On January 22, two months before 
the start of the air campaign, one of our colleague agencies, 
Physicians for Human Rights, wrote to President Clinton saying: ``A 
bombing campaign alone might open Kosovar civilians and international 
humanitarian workers to reprisals by the thousands of Serb forces that 
remain in Kosovo. The deployment of ground forces across Kosovo is 
needed to protect the human rights of civilians living in the region.''
    In fact, the bombing campaign precipitated such reprisals, and the 
consequent refugee flows and regional destabilization that they were 
intended to prevent. Had President Milosevic intended to ethnically 
cleanse Kosovo all along? It certainly was a wish, but not necessarily 
a plan. He is the consummate opportunist, and will take what he can get 
away with. Last year, his strategy did not appear to be ethnic 
cleansing per se--the magnitude of that task and its prospects for 
success too daunting. So, he followed a classic counter-insurgency 
strategy, in the process of which his forces displaced about 300,000 
people within Kosovo.
    We can debate whether this would have become ethnic cleansing by 
slow bleeding in the absence of NATO bombing, instead of the hemorrhage 
that occurred after March 24. My guess is that it may well have 
happened. However, I also think that the hemorrhage could have been 
avoided if a significant number of NATO troops had been deployed in the 
region during the Rambouillet negotiations such that Milosevic would 
have had to consider the credible threat of a NATO ground incursion 
before embarking on his campaign of accelerated ethnic cleansing. As it 
was, Milosevic proceeded, confident of President Clinton's loud 
assurances that he had no intention of committing ground troops.
 internally displaced people and other at-risk civilians inside kosovo
    Amnesty International and others today will testify regarding the 
reports of atrocities and other human rights abuses occurring inside 
Kosovo. But, I want to add a few words based on our previous experience 
with refugees on how to interpret what we are seeing from the 
sidelines. Refugee testimonials about Serb police and paramilitary 
units separating men and boys from their families as they were being 
expelled are credible, plentiful, and chilling. I was on the frontline 
in Bosnia in 1995 when Srebrenica and Zepa fell. I interviewed the 
women who had just seen their husbands and fathers taken away. They 
never saw them again.
    The closing of the border on April 7 represents the loudest and 
clearest warning of the dangers these people face. From Nazi Germany to 
Cambodia, we have seen the significance of closed borders for regimes 
that have demonstrated the will and capacity to commit mass murder. 
Genocide has many tools. It does not require gas chambers or even mass 
graves. Milosevic is using a combination of tools:
    <bullet> Expulsion is one. Make no mistake. The estimated 418,000 
refugees who appeared in Albania, Macedonia, and Montenegro between 
March 24 and April 7 were not spontaneous arrivals fleeing falling 
bombs. They were expelled. When it suited Milosevic's purposes to 
declare a unilateral ceasefire and stop the refugee flow, he stopped it 
on a dime, and ordered the displaced who were still heading toward the 
border to make an about-face return into the hands of their 
persecutors. That demonstration of power and control is truly 
frightening.
    <bullet> Massacre is another tool. Amnesty International and 
others, I am sure, will give credible testimony today of killings. We 
have already seen a pattern of atrocities taking place, such as the 
Racak massacre on January 15, and can only imagine how many such acts 
may have been repeated since the international human rights monitors 
left.
    <bullet> The final tool of genocide that I want to focus on, 
however, is a campaign of calculated starvation. We have seen this used 
in most of the major genocides or attempted genocides of this century, 
including the Nazis, the Khmer Rouge, and, most recently, the current 
Sudanese regime. The victims are denied an avenue of escape and are 
denied food. Whether or not they are detained by the state authorities 
perpetrating genocide, they are at least confined to an area where they 
have little or no access to food. Eventually they starve or, weakened 
by malnutrition, succumb to disease.
    Last year, the U.S. Committee for Refugees began documenting the 
use of food as a weapon in Kosovo. I traveled to Kosovo, and was struck 
by the Serb authorities' concerted and systematic efforts to limit 
Kosovo food imports and production. Here is the pattern that I saw and 
documented at that time:
    (1) Serb authorities imposed local ``control'' of basic food items 
into Kosovo. I entered Kosovo from the Belgrade road in a clearly 
marked and UNHCR-licensed International Rescue Committee vehicle. Serb 
police thoroughly checked the humanitarian daily rations (HDR's) we 
were carrying, opening and examining every box. After arriving in 
Kosovo, I discovered that local commercial trucks carrying essential 
food stuffs had much greater difficulty. Here is the list of 
``controlled'' commodities that I obtained during my visit: wheat 
flour; rice; oil; margarine; butter; sugar; salt; meat and meat 
products; milk and milk products; all kinds of cheeses; canned fruits; 
canned vegetables; canned fish; mashed potatoes; pasta; corn; 
unprocessed wheat; livestock; animal feed; detergent liquid and powder; 
soap, shaving cream, tooth paste and shampoo; all kinds of lubricants; 
diesel fuel, heating fuel; gas; medicines and medical equipment. Local 
markets in Pristina showed significant price increases and commodity 
shortages. In addition to my first-hand observation of this, Newsday 
reported August 2: ``Serbian police have seized shipments of essential 
foodstuffs on the main road into Kosovo. * * * A Kosovo transport 
company that had two shipments seized in the past two weeks said the 
prohibited goods include: sugar, flour, milk and milk products, edible 
oils, animal feed, grains, meat and live animals. Random checks in 
Pristina, Kosovo's capital, show that such goods are not widely 
available, and certainly not in private shops run by Albanians. They 
are available in limited quantities at state-owned stores run by Serbs, 
but prices in Kosovo are double elsewhere in Yugoslavia.''
    (2) Serb forces engaged in a scorched earth policy to destroy last 
year's food stocks and to cripple Kosovo's capacity to produce food 
this year. During attacks on ethnic Albanian towns and villages, Serb 
forces looted houses and stores of goods and food. Serb forces also 
deliberately burned agricultural fields, haystacks, winter food stocks, 
and firewood. Serb paramilitaries killed livestock, sometimes dropping 
their carcasses into wells to contaminate the water.
    I have the honor today of testifying today with the director of the 
Center for Protection of Women and Children in Pristina. This heroic 
NGO, whose reports we have closely followed during the past year, 
reported on August, ``Hundreds of houses are in flame. Grain fields are 
in flame too. Targets of the constant shelling are mostly innocent 
civilians * * * animals, houses, and food.'' On August, Reuters cited a 
World Food Program official in Kosovo saying that the area around 
Malisevo was ``a wasteland of destroyed villages and burned fields 
littered with dead cattle.'' The scorched earth policy was unconnected 
to military strikes. On August 5, the Washington Post reported on U.S. 
Ambassador Christopher Hill's visit to central Kosovo, saying, ``He 
[Hill] noticed several villages and towns that were burning today in 
areas where there was no fighting.''
    (3) Serb snipers prevented ethnic Albanian farmers from harvesting 
their crops last autumn or from planting seeds for the crop due this 
spring. Such sniping was reported by Catholic Relief Services on July 
16. In the Drenica area, in particular, ethnic Albanian farmers 
reported that they were not able to harvest their wheat crop because of 
Serb snipers.
    (4) The Serbian police harassed and persecuted local humanitarian 
aid workers in Kosovo who distributed food and other humanitarian aid 
to displaced civilians. On July 11, Serb police arrested the vice 
president of the Djakovica regional Mother Theresa Society, Fatime 
Boshnjaku, and twoother Mother Theresa Society workers, for delivering 
food to a town under KLA control. Local independent media also reported 
that Serb snipers ``positioned in the vicinity of the open pit coal 
mines in Bellaqevc shot and wounded two humanitarian workers while they 
were distributing aid.'' (Reported by the Open Society Institute on 
July 17.) On August 24, three Mother Theresa Society aid workers were 
killed while delivering three metric tons of food parcels and stoves 
that they had received from a USAID-funded convoy. Shortly after 
passing through a Serb checkpoint, and while in an open field in mid-
afternoon, their vehicle, piled high with white boxes marked with the 
blue emblem of Doctors of the World, came under direct shell fire. 
There were no uniformed KLA soldiers reported in the area.
    (5) Serbian forces raided food warehouses. On Sunday, July 26, Serb 
police raided the Mother Theresa Society warehouse in Vucitrn and 
confiscated 12.5 metric tons of wheat. The raid occurred during food 
distribution to the needy, causing additional fear among would-be 
beneficiaries. (Reported by Mercy Corps International on July 28.)
    During the winter, food stocks were depleted. More than 200,000 
internally displaced persons were in Kosovo at the time. They were not 
accommodated in camps or collective centers. In some cases, they were 
in the woods without shelter. In many other cases, internally displaced 
people found shelter with local host families, consuming their food 
stocks. In any case, the displaced were usually in inaccessible areas 
or fearful of coming to central locations for food distribution.
    Kosovo is not a self-sufficient food producer in the best of times. 
With planting and harvesting brought to a halt last year, with food 
deliveries cut, and with food stocks consumed or destroyed, there are 
no reserves at the present time.
    Serb and Yugoslav military strategy in Kosovo will follow the 
pattern of Bosnia: They will avoid direct confrontation with opposing 
armed forces, but will prefer to encircle, shell, and besiege targeted 
civilian populations.
    What is the present situation for internally displaced people in 
Kosovo? On Sunday, April 11, British Foreign Secretary Robin Cook said, 
``They lack the basic elements of relief and are particularly short of 
food. The weather currently is against them. It is snowing today in 
western Kosovo.''
    The American and world public are not aware of the calculated steps 
Milosevic has taken over the course of the last year to use food as a 
weapon. Few are aware that, after a year of squeezing Kosovo of its 
last food reserves, starvation can now be used as a tool of genocide. 
Because there are no television cameras inside Kosovo, because we no 
longer see images of hungry, desperate refugees (and because those we 
do see are now being fed and cared for), the public is not yet aware, 
let alone roused, by the looming threat of starvation inside Kosovo.
    NATO's war of attrition is ill suited for these circumstances. 
Those least able to hold out are the very people this campaign is 
supposed to protect. They are likely to succumb before it has a chance 
to succeed. NATO military planners may think that time is on their 
side. In humanitarian terms, this is a fatal miscalculation.
                             what not to do
For persons displaced within Kosovo: An internal safe haven is a bad 
        idea
    On Monday, April 12, the former director of the State Department's 
Bureau for Refugee Programs, Princeton Lyman, wrote an op-ed piece for 
the Washington Post arguing in favor of creating a safe haven for 
ethnic Albanians inside Kosovo modeled on the safe haven for the Kurds 
in northern Iraq in 1991. The northern Iraq model is flawed in a number 
of respects. First, the Kurds in northern Iraq were unwelcome in both 
neighboring Turkey and Iran, and essentially had nowhere to flee. As 
previously mentioned, Albania has welcomed these refugees; refugees 
needing to flee Kosovo have a place of refuge outside the country. 
Second, in 1991, Saddam Hussein was already beaten by coalition forces 
at the time the safe haven was declared. He was in no position to 
resist, and coalition ground troops did not have to fight their way 
into northern Iraq. Milosevic has not been beaten and his troops are in 
Kosovo. Prior to Milosevic's defeat, if the international community set 
its sights on defending only a patch of Kosovo territory as a haven for 
persecuted civilians, it would signal its willingness to concede 
control of the rest of Kosovo to Serb forces and, in effect, give the 
green light to cleansing those areas of their ethnic Albanian 
population.
    Lyman quickly brushes past the international community's unhappy 
experiences with safe havens in Bosnia, Rwanda, and elsewhere. As I 
mentioned previously, I was near Srebrenica and Zepa as the survivors 
of those safe areas straggled out. Srebrenica and Zepa stand as 
monuments to the international community's failure to resist ethnic 
cleansing. They represent the international community's timidity in the 
face of aggression and brutality. Finally, they represent a false 
promise that has undermined the international community's credibility 
and encouraged despots to test its resolve. The promise of safety has 
too readily lured innocent people into death traps. Furthermore, the 
very existence of such safe havens has often been used as the excuse to 
deny asylum to would-be refugees. People who are frightened, people who 
seek refuge outside their borders are told to remain in places where 
the international community continues to recognize the sovereignty of 
the very powers that have been persecuting them. Safe havens are an 
invitation to ethnic cleansing. To say that one particular area of a 
country is safe, concedes that the surrounding area is not. It invites 
the ethnic cleansers to herd people into the safe areas. At that point, 
whetherin Kibeho in southwestern Rwanda or Srebrenica in eastern 
Bosnia, international forces who were present at the time did not 
prevent massacres of people whose safety they were there to ensure.
For refugees outside Kosovo: Now is not the time for a resettlement 
        operation, temporary or permanent, to Guantanamo or to the U.S. 
        mainland
    With tens of thousands of refugees stranded in the no man's land 
between Kosovo and Macedonia last week, Macedonia threatened to close 
its borders if NATO did not remove the refugees from its soil. Under 
this blackmail, and seeing mass misery and suffering on the Albanian 
and Macedonian borders, and a tide of incoming refugees, the United 
States and allied countries agreed to resettle the refugees on a 
temporary basis. The U.S. agreed to take 20,000 refugees and to house 
them at the U.S. naval base at Guantanamo Bay, Cuba.
    At the height of a refugee emergency, the primary concerns ought to 
be quickly providing clean water, adequate sanitation, food, shelter, 
medicine, and clothing. Just as important is the issue of protection--
ensuring that refugees are not forced back to their country or 
prevented from fleeing violence and persecution, and that they are not 
mistreated in the country to which they have fled.
    As a general rule, the complex logistical task of delivering 
humanitarian assistance in refugee disasters dictates bringing the aid 
to the refugees where they are. The exception to this rule is if 
security concerns require refugees to be moved away from border areas.
    The ideal solution to a refugee crisis is for refugees to be 
allowed to return to reclaim their homes and property. Resettlement is 
normally used as an option after time has elapsed, for refugees who 
cannot return to their homeland. It is used after other options have 
been exhausted, and after refugees have been registered and screened. 
Resettlement should never be imposed on refugees against their will, 
and families should always be kept together. Until now, resettlement 
has always been considered as a permanent solution.
    In making the offer of ``temporary'' resettlement, the United 
States and allied countries were well intentioned. They were responding 
to the Macedonian threat to close its borders. The offer was made to 
prevent refoulement and to preserve first asylum, and, for that, the 
motive behind it is praiseworthy. But, the temporary resettlement 
decision was hurried and ad hoc. The allies committed themselves to a 
course of temporary resettlement before fully considering other 
alternatives more in accord with the wishes of the refugees themselves.
    After the evacuation policy was announced, Kosovar refugees were 
dragged, manhandled and forced onto planes against their will. It was 
heartbreaking to watch news footage of traumatized refugees being 
treated this way.
    As noted previously, Serb police and paramilitary forces separated 
many men and boys from their families during the expulsion. Others have 
joined the KLA. Intact refugee families in Albania or Macedonia have 
been the rare exception. Especially in a society as traditional as that 
of the ethnic Albanians, women, children, and the elderly do not want 
to be taken long distances from their husbands, fathers, brothers, and 
sons.
    The logistical difficulties and cost of transporting tens of 
thousands of refugees out of the region at the height of the emergency 
is a misuse of resources and further complicates an exceedingly 
difficult relief aid pipeline. Choosing which refugees are in greatest 
need of resettlement, which countries are most appropriate to resettle 
them, and registering and tracking them as they move is time and labor 
intensive. Failure to plan resettlement properly results in chaos, 
including splitting families.
    We were pleased to learn that the U.S. government does not appear 
to be rushing forward to bring Kosovar refugees to Guantanamo. However, 
construction of the camp reportedly continues and if the United States 
sees fit to evacuate refugees from the region, it is still committed to 
holding them there. This is a bad idea. The U.S. courts have 
essentially declared Guantanamo a ``rights-free zone'' as far as 
refugees are concerned. Refugee children born there would be stateless; 
any rights would be severely limited. Several years ago, Haitian 
refugees sent to Guantanamo were put in tents on a tarmac, surrounded 
by barbed wire and watchtowers. I was there. It was isolating and 
intimidating--not a place for traumatized guests of our country in need 
of succor and healing.
    Some have suggested bringing the refugees to the U.S. mainland, 
certainly a preferable alternative to Guantanamo. In due time, if 
Kosovar refugees cannot return to their homeland, the United States may 
well have good reason to offer permanent resettlement to some, 
particularly those with family connections in the United States. At the 
present time, however, this is premature, unnecessary, logistically 
complicating, wasteful of resources, and sends the wrong message to the 
ethnic cleansers inside Kosovo. It does not take into account other 
alternatives that support the refugees' preference to return to Kosovo 
as soon as they can do so in safety and dignity. If Macedonia, indeed, 
cannot be persuaded to allow refugees to remain on its soil, the wishes 
of the refugees ought to be taken into account, and they should be 
relocated in the most humane manner possible to Albania, where they 
would be welcome.
    Although poverty stricken and overwhelmed with refugees already, 
Albania is willing to take in refugees threatened with expulsion from 
Macedonia. Despite their poverty, Albanians have shown remarkable 
solidarity and hospitality toward the ethnic Albanian refugees from 
Kosovo. In manycases, they have opened their homes and have shared what 
little they have.
    Temporary resettlement outside the region should be considered as a 
last resort. Not now. Both the wishes of the refugees and the goals of 
the international community are for the prompt and safe return of the 
refugees to their homes. The focus on resettlement--at Guantanamo or 
the U.S. mainland--at this time, is ill-advised and unnecessary.
                               what to do
    Needless to say, it's easier to say what not to do and what has 
been done wrong than to give the prescription for ``solving Kosovo.''
Regarding refugees outside Kosovo
    This is largely a question of timing and staging. I would have made 
very different recommendations last week at the height of the sudden, 
chaotic mass influx than I am making today.
    Obviously, we need to be better prepared in the event of another 
mass influx. Reception camps on the immediate borders need to have 
adequate sanitary facilities, sources of potable water, food, tents, 
blankets, vaccines, etc.
    As essential as assistance needs are, there is also a need to 
protect the principle of first asylum. In Macedonia, especially, the UN 
High Commissioner for Refugees--perhaps with emergency assistance from 
OSCE monitors stranded outside Kosovo--should be an active and visible 
presence on the border, receiving and registering refugees, and 
preventing the kind of summary treatment of refugees by the Macedonians 
that caused gratuitous suffering and hardship last week.
    Every effort should be made to assist the ICRC, the UNHCR, and 
other agencies involved in the tracing and reunification of split 
families.
    Resources should be poured into Albania, especially, and Macedonia 
as well, to build their capacity to host large refugee populations. It 
is remarkable at this early stage of the refugee crisis, that 60,000 of 
the 98,000 refugees estimated to remain in Macedonia (as of April 11) 
are living in private homes. Although I do not have this week's figures 
on the percentage of the 300,000 refugees in Albania who are living in 
private homes, on April 7, the Washington Post reported that more than 
130,000 were being hosted in private homes (``Albanians Share What 
Little They Have,'' by Peter Finn, Washington Post, April 7, 1999, p. 
A1 and A16).
    Despite the large number of people who have been displaced in the 
Balkans since 1991, relatively few have remained in camps within the 
region. Whether the hosts are Croats, Bosniaks (Bosnian Muslims), 
Serbs, or Albanians, they have opened their homes to the displaced. The 
international community should encourage and facilitate such 
hospitality and generosity.
    Rather than build a refugee camp in Guantanamo that should and 
likely will remain empty, the U.S. government and military ought to be 
building Albania's infrastructure--sewage lines, roads, electricity, 
water pipes, to enable it to support this huge surge in its population. 
The cost of maintaining 20,000 refugees at Guantanamo would be about $1 
million per day, $180 million if they were to remain there for six 
months. Instead of squandering enormous resources on massive relocation 
schemes, those resources should be poured into Albania. In addition to 
emergency relief aid, Albania's infrastructure should be improved--
roads, housing, sewage, electricity. If the Kosovo crisis is resolved 
and the refugees are able to repatriate, such improvements will be a 
permanent benefit to Albania after the crisis is over, a reward for its 
generosity of spirit and a contribution to regional stability. In the 
event the refugees are not able to return to Kosovo, building up 
Albania's infrastructure would enhance its ability to absorb and 
integrate this massive increase in its population. If the conflict is 
protracted and return delayed, this would help refugees to integrate 
into Albania and to contribute to its economy rather than be a drain on 
it.
Regarding internally displaced people and other at-risk civilians
    To be honest, I don't feel that I have the answers. I am not a 
military expert and at this point in time, this is a military question. 
I can't tell the military how to do its job. But I think we need to 
agree on what its job ought to be.
    On April 7, UN Secretary-General Kofi Annan said, ``Of all gross 
violations, genocide knows no parallel in human history. Though we have 
no independent observers on the ground, the signs are that it may be 
happening once more in Kosovo.'' This is a remarkable statement by the 
UN Secretary-General who has a history (during Rwandan genocide, for 
example) of exercising extreme caution in characterizing an ongoing 
situation as genocidal. In the meantime, the U.S. government has been 
uncovering evidence of mass graves and gathering other information 
indicating that mass killings might be taking place. But genocide can 
be perpetrated without mass executions. As we have already established, 
above, the Serbs are denying food to the displaced, itself a grave 
breach of Protocol II, Article 14 of the Geneva conventions.
    The retired generals now serving as pundits for the television 
networks tell us all the reasons air drops of food parcels will not 
work. I concede that they might not. Food dropped from planes might 
fall into the wrong hands and feed Yugoslav soldiers and Serb police. 
However, one rule ofwar I do know is this: men with guns do not starve; 
civilians do. We are not going to beat the Yugoslav military by 
starving them out, and if we did, the civilians would perish long 
before them. This is a risk we have to take. Until the military can 
secure territory and deliver food and other relief aid overland, there 
is no choice but to try dropping food in as an emergency interim 
measure to keep people alive. Will it feed all who are hungry? Of 
course not. It is no panacea. Not remotely. But in the absence of any 
other means to deliver food, it needs to be tried.
    Humanitarian assistance is one side of the coin. Protection is the 
other. I don't want to be simplistic. But I don't understand the U.S. 
government. On the one hand, our government is busy documenting and 
publicizing evidence that genocide is happening. On the other, it is 
saying that it has no intention of introducing ground troops until 
Milosevic has agreed to their arrival (the ``permissive'' environment). 
If the U.S. government believes what it is saying about genocide, how 
can it wait for the perpetrators of genocide to give their permission 
for it to introduce the ground troops that are supposed to protect 
people from those same perpetrators?
    Bolstered by the evidence of genocide that the U.S. government 
itself has collected, its failure to suppress genocide will be all the 
more forgivable. It is already too late to prevent the onset of a 
genocidal campaign. It is too late to suppress its completion? The 
military time-line is utterly out of sync with the moral imperative to 
suppress genocide. I don't want to sound cavalier about the lives of 
American and other allied servicemen. But the people on the 
executioner's block cannot wait for a risk-free, soldier-friendly 
environment for invasion. They can't wait for the massing of 200,000 
troops, if that will take months of build up and field support.
    Can the military respond quickly enough? If we take them at their 
word, the answer is no. Frankly though, I don't know if they should be 
taken at their word. How quickly could the U.S. armed forces respond if 
their Commander in Chief gave clear, unambiguous orders for their rapid 
deployment in Kosovo? Needless to say, they haven't heard such an 
order. In the meantime, NATO seems shy about massing troops and armor 
in the event of such an order.
    It may not be the time to talk about the political settlement of 
this conflict. Suffice it to say, if ever there was a chance of 
muddling through with a compromise ``autonomy'' foisted on both 
unwilling Serbs and ethnic Albanians, that point has passed. It is time 
for the United States, leading the international community, to jettison 
that approach and to revise the presuppositions and goals for Kosovo 
and the region.
    Even at this juncture, no government has challenged the 
international presupposition of preserving the existing borders of the 
six republics that made up the former Yugoslavia, thereby maintaining 
Serbian sovereignty over Kosovo. The international community's goal of 
maintaining the status quo on borders stems largely from the Helsinki 
principles of 1975, which affirm the territorial integrity of all 
existing states. But the Helsinki principles embrace a quid pro quo; 
for their borders to be respected, states must respect the rights of 
minorities within those borders.
    Serbia does not. It has been as exploitative and repressive as any 
colonial power. For years, Serbia has brutally suppressed even modest 
expressions of ethnic Albanian rights. Serbs living in Kosovo, less 
than 10 percent of the population, have overwhelmingly worked in the 
security apparatus or in controlling the region's rich mining and 
energy reserves. Long before the current rupture, the Serb and Albanian 
communities of Kosovo--with no common language, religion, or culture--
have been segregated and at loggerheads.
    How can the U.S. maintain its position of restoring Kosovo's 
autonomy within Serbian (or Yugoslav) sovereignty? It can't have it 
both ways; it can't accuse the Serbs of committing genocide against 
ethnic Albanians and then require the ethnic Albanians to remain in 
Serbia. The United States needs to reassess its policy. It needs to 
support an independent Kosovo, internationalizing the border between 
Kosovo and Serbia.
    An independent Kosovo need not create a precedent for every 
minority's claim to self determination. The Helsinki principles would 
remain the valid framework for assessing such claims. But Milosevic's 
abuse of minority rights has disqualified Yugoslavia from the Helsinki 
guarantee for territorial integrity. To uphold those same Helsinki 
principles, however, the price of Kosovo's independence would be 
guarantees from the ethnic Albanian authorities that they will respect 
the rights of the Serb minority living there. Based on prior experience 
in Croatia and Bosnia, I am not sure how many Serbs would want to 
remain in a non-Serb-controlled Kosovo, but those who would want to 
should have the opportunity to stay or to return.
    Regardless of the political solution, NATO has clearly stated its 
objective to be the withdrawal of Milosevic's police and army from 
Kosovo. I am convinced that they will not leave unless they are forced 
out. That, frankly, at this point, is the only way to protect the 
civilian population. Serb police and ethnic Albanian civilians don't 
mix. Any autonomy that envisions such a mixture is doomed to tragic, 
bloody failure. The international community cannot keep a peace 
predicated on holding them together. But it can enforce a separation. 
And that enforcement can and should devolve to the Kosovars themselves. 
Ultimate success hinges not only on arming and training the citizens of 
Kosovo to defend themselves, but on reconstructing war damaged 
properties and infrastructure as well as promoting civil society and 
democratic institutions. Aligning nationality and statehood would 
enable the people of Kosovo to become the masters of their own fate 
and, in time, the guarantors of their own security.

    Senator Abraham.  We will now turn to Ms. Greenwood. Thank 
you for being here, and again I apologize for the delay in 
getting this panel started.

                 STATEMENT OF MAUREEN GREENWOOD

    Ms. Greenwood. Mr. Chairman, thank you for inviting me here 
today to discuss the Kosovo refugee crisis. I think it is so 
important that you are paying attention to this issue.
    For the last 3 weeks, we have all watched the images of 
these refugees flash across our TV screens--a lost child, a 
mother's tears, an exhausted man's blank face. Each of these 
pictures is a fleeting glance at a very dark nightmare come to 
life.
    We have already heard extensive details about what is 
happening actually to the refugees. Many of the points that I 
wanted to make have already been mentioned and they are in my 
written testimony, which I submit for the record.
    Senator Abraham.  We will put it all in the record.
    Ms. Greenwood. But I did want to focus on international 
norms for treatment of refugees and U.S. responsibilities. The 
refugees in northern Albania currently have eyewitness tales of 
systematic extra-judicial executions carried out by Yugoslav 
and Serbian security forces and paramilitary groups. In short, 
Yugoslav security forces and paramilitary units are conducting 
a calculated campaign of mass expulsion, and the refugee crisis 
is a direct result of these policies.
    Now, while Kosovo has mainly just come to American 
attention in the last few weeks, Amnesty International for the 
last 10 years has been calling it a human rights crisis and 
trying to alert the world about its potential to explode. Ever 
since Yugoslav President Slobodan Milosevic dissolved the 
autonomy of Kosovo and disbanded the parliament in 1990, 
Amnesty has been talking about systematic human rights 
violations, including torture, ill treatment by police, death 
in police custody, unfair trials for political prisoners. The 
frustration and anger built up in Kosovo, and it is precisely 
because of these long, unaddressed grievances have erupted in 
this kind of anger that has led to the violent conflict.
    None of the abusers for the past 10 years in human rights 
violations in Kosovo have yet been brought to justice. Amnesty 
International has people in the field right now directly taking 
testimony from refugees. We are also going to be monitoring the 
treatment of refugees in Europe and if they go to any other 
places.
    One thing about the terminology. Yes, the refugees said 
that they would prefer to be called deportees. But we are also 
calling them refugees, as Assistant Secretary Taft noted, 
because ``refugee'' means that they have certain legal rights 
according to the 1951 United Nations Convention on Refugees.
    The treatment of refugees is governed by clear legal 
standards, all of which the U.S. has accepted. These are the 
following principles. Macedonia, Albania and Montenegro are 
obligated to allow all refugees at their border to enter, and 
to provide them with protection at least until other solutions 
are found, such as voluntary resettlement to a third country or 
voluntary repatriation, when it is safe to do so.
    Refugees must be accorded basic rights, such as access to a 
determination procedure for status and respect for the 
principles of family unity, reunification and choice. No 
refugee can be moved to a third country involuntarily. Other 
countries must share in the responsibility for protecting 
refugees. The principle of non-refoulement is the cornerstone 
of refugee protection. Refugees should not be returned to their 
country if they have a well-founded fear of persecution.
    From the outset of the crisis, Amnesty International has 
called on the international community to provide adequate 
assistance for countries neighboring Kosovo, including offering 
resettlement opportunities. But the wishes of the refugees must 
come first. They need to be respected and must be foremost in 
any consideration of what happens.
    We are keenly aware of the enormous stress that the refugee 
crisis has placed in Kosovo's neighbors, and we welcome the 
offers that have come from third countries toassist in 
relocating some of these refugees. However, we strongly condemn the 
involuntary nature of a significant number of these relocations, 
carried out by the Macedonian authorities, as well as the fact of 
family separation. This topic has already been discussed today.
    Other governments are expected to admit Kosovar refugees 
under a temporary protection agreement. We are troubled by the 
lack of international consensus regarding the meaning of 
``temporary protection.'' For instance, in Bosnia-Herzogovina, 
temporary protection was used as an excuse in some cases to 
forcibly return Bosnian refugees before it was safe for them to 
go home. We believe that any temporary protection status should 
not be used as a means of circumventing full refugee status, 
and the U.S. Government has an important role to play in 
standard-setting in terms of influencing its European partners 
in the treatment of refugees.
    We also have related concerns about the suggestions that 
have been advanced about Guantanamo. I understand that the 
plans are currently on the back burner, but Amnesty 
representatives have visited Guantanamo on several occasions 
when it housed Cubans and Haitians the last time in November 
1994. Rather than being a place of welcome, and despite the 
best intentions of the military, Guantanamo had many of the 
attributes of a prison camp, with concertina wire and 
restrictions on movement.
    It is unacceptable to confine these refugees for the 
duration of their stay in the United States to Guantanamo. They 
should have the right to full and fair U.S. asylum 
determination procedures once they are under the control of the 
U.S. authorities. Neither Guantanamo nor Guam nor any other 
U.S. territory should be used as a dodge to evade U.S. 
obligations under its own and international law. While in most 
major displacements, most refugees prefer to go home, the 
international community has a responsibility to offer these 
refugees protection, if that is what they choose.
    Finally, the terrible cost of this human rights and 
humanitarian catastrophe demands once again that we seek more 
effective ways to address chronic abuses of universally 
recognized human rights before they explode into civil wars, 
uncontainable hatred, or genocide. For many years, Amnesty has 
been documenting the human rights abuses in Kosovo. We can't 
help but wonder how things might have been different if the 
U.S. Government and its allies in Europe had devoted a little 
bit more sustained and serious attention to these abuses over 
the last 10 years.
    What if Western governments had spoken more strongly and 
more consistently against the repression of the Serb 
independent media, non-governmental organizations, and Serb 
dissidents, and against the repression of Albanian institutions 
and culture in Kosovo? Perhaps this crisis could have been 
avoided. If NATO governments had promoted peaceful resolution 
to the conflict in Kosovo much earlier, perhaps the ethnic 
Albanians would not have been persuaded to join the KLA and 
resort to violence.
    If the U.S. and its allies had denounced the atrocities 
committed by Croatian forces against Croatian Serb civilians in 
1995 and 1996 and had pressured the Croatian government to 
pursue justice for the victims, perhaps the Serbs would cling a 
little less ardently to the conviction that they have been 
victimized by the West. If the international community had 
embraced more vigorously the work of the International Criminal 
Tribunal for War Crimes in the former Yugoslavia, perhaps some 
of those now conducting some of the human rights violations, 
such as Arkan, would now be arrested. We will never know for 
sure about these ``what ifs,'' but I urge the U.S. Government 
to ensure that we consider questions like these before they 
turn into crises.
     What can the U.S. Government do now? One thing that the 
U.S. Government can do is to share all intelligence, including 
satellite photos and Yugoslav security force radio 
communications, with the International Tribunal. And Senator 
Kennedy mentioned the need to share information with the 
Tribunal. The Tribunal has told Amnesty, and it has been 
reported, that they are greatly disappointed with the amount of 
intelligence that they are receiving, which is what Graham 
Bluett, the deputy prosecutor, said last week.
    Second, NATO forces need to arrest indicted war crime 
suspects. Third, we need sufficient financial support for the 
Tribunal. In addition, U.S. support for an international 
criminal court would also be a factor in deterring abuses, and 
the lack of such support is regrettable. The U.S. Government 
needs to take the lead in refugee protection and in human 
rights throughout the world.
    Thank you.
    [The prepared statement of Ms. Greenwood follows:]

                Prepared Statement of Maureen Greenwood

    Thank you for inviting me here today to discuss the Kosovo refugee 
crisis.
    For the last three weeks, we've all watched the images of these 
refugees flash across our TV screens--a lost child's bewildered gaze, a 
mother's anxious tears as she ponders the fate of the husband she left 
behind in Kosovo, an exhausted old man's vacant stare as he faces the 
prospect of spending his remaining days in exile. Each of these 
pictures is a fleeting glimpse of a very personal, unfathomable 
nightmare come to life.
    Amnesty International has received consistent and credible reports 
that members of Yugoslav security forces and paramilitary units have 
arrived at houses and apartment blocks of Kosovar Albanians and forced 
the inhabitants to leave. Some refugees describe seeing houses and 
apartments in flames as they left the city. Some refugees expelled have 
been ordered on trucks or busses, some transported to the border in 
sealed trains, and others have made their way on foot. The men were 
either detained or rounded up and taken away while women and children 
were ordered to continue their journey. Refugees in Northern Albania 
have eye-witness tales of systematic extra-judicial executions carried 
out by Yugoslav and Serbian security forces and para-military groups. 
The vast majority of those who have succeeded in fleeing the country 
are women, children, and elderly men. Many of the refugees have been in 
appalling condition--weak from lack of food and exhaustion. In short, 
Yugoslav security forces and paramilitary units are conducting a 
calculated campaign of mass expulsion and the refugee crisis is a 
direct result of these policies.
    NATO nations must be galvanized by their responsibility to help 
ensure that no further harm comes to these people, who have suffered 
more than most of us can imagine. NATO nations, including the United 
States, must be absolutely committed to fulfilling these international 
obligations. The U.S. government has spoken, and rightly so, of the 
international national obligations being violated by Yugoslavia. But 
these will be significantly weakened if we now fulfill international 
norms in a half-hearted way, or worse, violate them. Amnesty 
International will be watching carefully to see whether all those 
expelled from Kosovo by the Yugoslav government--wherever they end up--
receive the full legal protection they are afforded under international 
law.
    These refugees have already experienced numerous violations of 
their rights. They have been uprooted from their homes and brutally 
expelled from their own country. Some have been forcibly returned, 
while others have been denied entry at borders because of delays and 
closed border crossings. Many have been forcibly relocated, separated 
from other family members, and placed in temporary refuge schemes 
rather than accorded their rights under the 1951 United Nations 
Convention on Refugees. In addition, refugees have been forced to 
remain for days at borders, without any of the necessary assistance to 
maintain even the most basic of their needs, including food, water, 
sanitation and shelter. In too many instances, those responsible for 
giving these people immediate refuge have cast aside standard 
procedures designed to ensure that refugees are given the protection 
they are due under international law.
    While the full dimensions of the refugee crisis unfolded, Amnesty 
International dispatched researchers to Macedonia and Albania to take 
detailed testimonies from refugees about the human rights violations 
they have witnessed and experienced. Amnesty International has been 
documenting and publishing the systematic violations for a decade, 
since Serbia dissolved Kosovo's parliament in 1990. For the past ten 
years Amnesty has been denouncing a human rights crisis, including 
systematic torture, ill-treatment by police, death in police custody, 
and unfair trials for political prisoners. Frustration and anger built 
up in Kosovo because those responsible for these abuses have never been 
brought to justice. These long un-addressed grievances contributed to 
the violent eruption of the conflict today.
    Today we face a situation that changes day-to-day. Amnesty 
International is very worried about the internally displaced people 
inside Kosovo, as we have little information about their welfare. 
Meanwhile, as the situation for many of the refugees begins to 
stabilize, Amnesty International is preparing an increased presence in 
the field. In addition to documenting refugees' accounts of human 
rights crimes, we will be monitoring the standards of protection they 
are receiving in host countries, both in the region and in host 
countries outside the region.
    According to the United Nations High Commissioner for Refugees 
Washington Office as of yesterday, there are currently 65,500 refugees 
and displaced in Montenegro, 116,500 in Macedonia, and 314,300 in 
Albania. Humanitarian evacuations from Macedonia have reached 9,351 
people. According to UNICEF there are between 400,000 and 750,000 
internally displaced persons.
    Those fleeing the current conflict are refugees under the 1951 
United Nations Convention on Refugees, an international treaty, which 
the U.S. is subject to. The treatment of refugees is governed by clear 
legal standards, all of which the U.S. has accepted.
    Our monitoring of the protection of refugees will be guided by the 
following principles:
    <bullet> Macedonia, Albania, and Montenegro are obligated to allow 
all refugees at their border to enter and to provide them with 
protection, at least until other solutions are found, such as voluntary 
resettlement to a third country or voluntary repatriation when it is 
safe to do so.
    <bullet> Refugees must be accorded basic rights, such as access to 
a determination procedure for status, respect for the principles of 
family unity, reunification and choice.
    <bullet> No refugee can be moved to a third country involuntarily.
    <bullet> Other countries must share in the responsibility for 
protecting refugees.
    <bullet> Kosovar refugees should not be treated differently from 
other refugees.
    <bullet> The principle of non-refoulement is the cornerstone of 
refugee protection. Refugees should not be returned to their country if 
they have a well-founded fear of persecution there.
    From the outset of this crisis, Amnesty International has called on 
the international community to provide adequate assistance for 
countries neighboring Kosovo, including by offering resettlement 
opportunities. The wishes of the refugees need to be respected and must 
be foremost in any consideration of what happens, whether that is 
resettlement or return. We are keenly aware of the enormous stress the 
refugee crisis has placed on Kosovo's neighbors, and we welcome the 
offers that have come from third countries to assist in relocating some 
of the refugees. However, we condemn the involuntary nature of a 
significant number of these relocations--carried out by Macedonian 
authorities--as well as the fact that these forced relocations resulted 
in many family members being separated from each other. We hope we have 
seen the last of such callous and unacceptable treatment.
    Some governments are expected to admit Kosovar refugees under a 
temporary protection arrangement. We are troubled by the lack of an 
international consensus regarding the meaning of temporary protection. 
In Bosnia-Herzegovina, for instance, temporary protection was used as 
an excuse in some cases to forcibly return Bosnian refugees before it 
was safe for them to go home. Consequently, we strongly believe that 
any temporary protection status should not be used as a means of 
circumventing full refugee status for those expelled from Kosovo. This 
includes allowing all refugees meaningful opportunity to have their 
individual asylum claims considered before being returned.
    We have related concerns about some of the suggestions that have 
been advanced for accommodating refugees in third countries. For 
instance, we would be very concerned about the use of facilities like 
the U.S. military base at Guantanamo, Cuba, to house refugees beyond 
whatever brief period may be necessary for their initial reception into 
the United States. Amnesty representatives visited Guantanamo on two 
occasions when it housed Cubans and Haitians, the latter time in 
November 1994. Rather than being a place of welcome, and despite the 
best efforts of the military, Guantanamo had many of the attributes of 
a prison camp, with concertina wire and restrictions on movement. It is 
unacceptable to confine these refugees for the duration of their stay 
in the U.S. Kosovar refugees should notbe denied their rights to seek 
and enjoy asylum, that is, have access to a full and fair U.S. asylum 
determination procedure once they are under the control of U.S. 
authorities. Neither Guantanamo, nor Guam nor any other U.S. territory 
or base should be used as a ``dodge'' to evade U.S. obligations under 
its own and international law. While in most major displacements, most 
refugees prefer to go home, the international community has a 
responsibility to offer these refugees protection as long as they need 
it and offer them access to asylum processing procedures if they so 
choose.
    Finally, the terrible cost of this human rights and humanitarian 
catastrophe demands once again that we all seek more effective ways to 
address chronic abuses of universally recognized human rights before 
they fester and explode into civil wars, uncontainable ethnic hatred, 
or genocide. For many years, Amnesty International has been documenting 
a systematic pattern of arbitrary arrests, unfair trials, torture, and 
extrajudicial killings directed against Kosovar Albanians by the 
Yugoslav government. We can't help but wonder how things might have 
been different if the U.S. government and its allies in Europe had 
devoted more serious and sustained attention to these abuses over the 
last ten years.
    If Western governments had spoken out more strongly and more 
consistently, in unison, against the repression of the independent Serb 
media, non-governmental organizations, and Serb dissidents--and against 
the repression of Albanian institutions and culture in Kosovo--perhaps 
this crisis could have been avoided. If NATO governments had promoted a 
peaceful resolution in Kosovo much earlier, perhaps the ethnic 
Albanians who formed and joined the KLA would not have decided to use 
violence. If the U.S. and its allies had denounced the atrocities 
committed by Croation forces against Croatian Serb civilians in 1995 
and 1996, in the retaking of areas occupied by Croatian Serbs, and 
pressured the Croatian government to pursue justice for the victims 
instead of a blind eye to these terrible crimes, perhaps Serbs would 
cling a little less ardently to their conviction that they have been 
victimized and vilified by the West. If the international community had 
embraced more vigorously the work of the International Criminal 
Tribunal for the former Yugoslavia, including by pursing and arresting 
all war crimes suspects indicted by the Tribunal, perhaps the Tribunal 
could have served as a more effective deterrent to war crimes in 
Kosovo.
    We will never know for certain the answers to these ``what ifs.'' 
But I urge the U.S. government to help ensure that, in other emerging 
human rights crises, we consider questions like these long before we 
are left only to ponder them in hindsight.
    One thing the U.S. government can do now is to urge NATO to share 
all intelligence with the Tribunal now and arrest indicted war crimes 
suspects. U.S. support for the International Criminal Court would also 
be a factor in deterring abuses, and the lack of such support is 
regrettable. The United States government should take the lead in 
refugee protection and in supporting human rights throughout the world.

    Senator Abraham. Thank you both. I guess there are a lot of 
questions. We may submit some in writing and we will keep the 
docket open for other members as well, but let me just ask one 
question before we adjourn here and you leave us.
    Each of you I think has expressed great concern about the 
possibility of trying to bring people to Guantanamo or some 
other location far removed from Kosovo. Succinctly, what do you 
think would be a more sensible approach for us to take which 
would at the same time maybe meet the commitments that have 
been made by the United States, yet at the same time be more 
humane and more perhaps appropriate for the people who are 
refugees?
    Mr. Frelick. Well, Albania, I think we need to understand, 
has made an offer with no ceiling, no upper limit, that they 
would take as many refugees as come, including refugees that 
would be expelled from Macedonia. So there is a remarkable 
offer that you don't often find in a refugee crisis of this 
magnitude of a neighboring country that shares the culture, 
that is in very strong solidarity with the refugees themselves, 
that says just give us the wherewithal and we will do it, we 
will double up, triple up, quadruple up.
    So I think what we really need to do is to help the 
Albanians build their infrastructure, give them building 
materials, if it comes to that; give them all the support we 
possibly can. I was very gratified to hear Julia Taft talk 
about the actual plans now for building a camp, which I think 
we should think of in terms of a transit camp with 
transitioning people into private homes to the extent possible. 
That is where I would put my emphasis entirely.
    If it comes to a more protracted issue, because I think 
even on an emergency basis we can keep them there--we can 
manage to do that particularly now that we have got the kind of 
presence that we have there. But if it comes to a protracted 
situation where people cannot return home, at that point I 
think we can talk about various avenues for bringing them to 
the United States through our refugee resettlement program, 
which you are very familiar with; parole authority, if that is 
the appropriate vehicle to use on an emergency basis for 
medical evacuations and that sort of thing.
    I would just reiterate we are not at that stage now. It 
complicates the issue incredibly to try to do this kind of a 
mass evacuation when you are really trying to get the 
assistance on the ground.
    Senator Abraham. Yes. I also just have to say it seems to 
me if you begin the process of taking people and displacing 
them far away from Kosovo that you almost, it seems to me, 
encourage the continued forcing out of people and make it more 
and more difficult to produce a situation where anybody ever 
goes back.
    Mr. Frelick. It certainly seems to me to send the wrong 
signal to Milosevic.
    Senator Abraham. Yes, that is my sense, but I don't want to 
preempt you. So, please, Ms. Greenwood, if you would comment on 
that as well.
    Ms. Greenwood. I would say the Amnesty position is similar, 
but not entirely the same as what Bill said. Essentially, 
although it is preferable probably both from the refugees' 
point of view and for other reasons that they be in neighboring 
countries, we also believe that the refugees have a right to 
choose, and also that there is responsibility-sharing in terms 
of the entire international community in terms of resettlement.
    So we would see Guantanamo as an option for extreme short 
term, as well as options to the U.S. mainland. But we would 
just object to Guantanamo if it was over an extended period and 
they were not allowed access to asylum processing procedures.
    Senator Abraham. Were you surprised at that proposal when 
you heard it, given the previous experiences with Guantanamo?
    Mr. Frelick. I would have to say that when I first heard 
it, which was--again, the situation has changed so greatly.
    Senator Abraham. Right, I understand.
    Mr. Frelick. When I first heard it, there was a huge mass 
of people at the border. There were more people behind them 
that we knew about. It didn't look like there was going to be a 
stop in the flow. We didn't know about the clarity of the 
Albanian offer. We thought they had reached their capacity, and 
the Macedonians were blackmailing the international community 
at that point, to put it frankly.
    So it was an ad hoc response. It was a hurried response, 
for understandable reasons, and I think that we need to be--
again, as you indicated in your questioning of Julia Taft, we 
have to be somewhat charitable in second-guessing what they 
were doing at that time. But I think we are in a different 
situation now, and I applaud the flexibility of people in the 
NSC and State Department and what not who didn't feel that they 
had committed themselves, painted themselves into a corner and 
felt that they had to just go on auto pilot here and are 
willing to reconsider this. So I think that we need to applaud 
that flexibility.
    Ms. Greenwood. Yes, we were surprised. Most of our European 
allies don't have Guantanamos where they can bring refugees in, 
and if we are trying to model good behavior with our colleagues 
for the treatment of refugees, Guantanamo is certainly a 
strange option.
    Senator Abraham. Well, I want to thank you both again for 
helping us with this. We will be obviously continuing the 
process of both monitoring what is happening and trying to help 
in the crafting of solutions. With the uncertainties obviously 
that exist in any time of war, it is very hard, as you both 
have said, to ascertain today where we are going to be in 
another week or 2 weeks, and a lot of views may change. I think 
we should in some sense establish for the record that there has 
to be a lot of flexibility here because we really can't 
prejudge things too far down the road.
    Hopefully, as I have said, and maybe in just sort of 
summary remarks about today's hearing, we have sent a strong 
signal to people who had doubts about the extent and the depth 
of the problems and the atrocities that have been committed 
that, in fact, today we have established clearly that no one 
should be in the dark any longer.
    I think we have established that there is a strong 
bipartisan willingness on the part of this committee, and I 
think probably the broader Judiciary Committee and the Senate 
certainly to try to work together to provide assistance, to 
find solutions. But we will need the ongoing involvement and 
ideas of people who are interested in and have experience with 
these refugees issues and other issues that pertain to this 
type of tragic condition.
    Certainly, as the chairman of the subcommittee, I am very 
interested in reaching out to as many people as possible who 
want to help. I am hopeful that we will see the generosity of 
our country on display here not just in terms of what 
Government can do, but, as we have already begun to see, what 
individuals can and will do.
    So with that, I thank this panel, as I thank the audience 
and our earlier panels as well, and we will adjourn the hearing 
at this time.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


       Responses of Julia V. Taft to Questions From Senator Leahy

    Question 1. The lack of information about the numbers and fate of 
internally displaced people in Kosovo makes it difficult for relief 
workers to prepare for a new flood of refugees should Milosevic decide 
to reopen the border. Relief agencies have urged the administration to 
release relevant aerial and satellite photography of Kosovo. What is 
the Administration's position with regard to this request? Is the 
United States dedicating photo interpretation resources to gather 
evidence in Kosovo so people who have committed atrocities may be 
brought to justice?
    Answer 1. With the opening up of Kosovo and the deployment of NATO 
troops, the needs of internally displaced people in Kosovo are being 
addressed. NATO and UNHCR relief operations are moving quickly to 
locate and provide aid to IDP's throughout the region. Relief efforts 
to IDP's are being aided by information gathered from various 
intelligence sources including imagery taken by U.S. satellites of 
possible IDP locations. Additionally, using the latest GIS technology, 
the USG has been working with UNHCR and others to develop a 
comprehensive mapping system of Kosovo which will combine maps with 
databases to provide valuable information on road systems for 
humanitarian operations, numbers and locations of IDP's, and possible 
damage assessments of housing in urban and rural areas.
    On the issue of bringing the perpetrators of atrocities to justice, 
the USG is working very hard to support the Tribunal. We have 
contributed substantial resources to this effort, including a voluntary 
contribution to the Tribunal for the Kosovo investigation, a team of 
FBI personnel to assist with the investigation, and the use of national 
technical means.

    Question 2. In an April 3rd New York Times article an 
Administration official was quoted as saying that, ``while it would be 
difficult to persuade Congress to raise the overall ceilings for 
refugees, the Administration could admit several thousand Kosovar 
Albanians to the United States by cutting the number of refugees 
admitted from other parts of the world.'' The fact is, the 
administration, and not Congress set the refugee ceiling at 78,000. 
Both the Senate and the House have issued bipartisan requests to 
increase the ceiling without success. In light of the recent crisis, 
and the prospect that the situation may continue to deteriorate, 
shouldn't the Administration raise this ceiling?
    Answer 2. Section 207(b) of the Immigration and Nationality Act 
provides a mechanism to increase refugee admissions levels during the 
fiscal year if the President determines, after appropriate 
consultations with the Congress, that (1) an unforeseen refugee 
emergency exists, (2) the admission of additional refugees is justified 
by grave humanitarian concerns and is in the national interest, and (3) 
the admission of these refugees cannot be accomplished under the 
regular refugee admissions program for the current fiscal year.
    On April 21, after careful review of the situation of Kosovar 
refugees and in response to an appeal by the U.N. High Commissioner for 
Refugees (UNHCR), the Administration announced that the United States 
would participate in the multi-national Humanitarian Evacuation Program 
initiated by the UNHCR. The President authorized the Secretary of State 
to consult with the Senate and House Judiciary Committees about the 
need to increase the fiscal year 1999 refugee admissions ceiling by 
20,000 to accommodate the admission of ethnic Albanian refugees from 
Kosovo. The Administration is currently in the process of carrying out 
the Congressional consultation process.

    Question 3.  How much is left in the Emergency Refugee Migration 
Assistance (ERMA) Fund? What is the Administration going to request in 
supplemental funding for refugees, and how much of this will go to the 
UNHCR and how much for other NGO's?
    Answer 3. Prior to the enactment of the supplemental appropriation, 
$7,857,659 was available in the ERMA Fund. The current balance is 
$172,857,659, which includes funds from the supplemental.
    The Administration's final request for supplemental funding was 
$266,000,000 for the Migration and Refugee Assistance (MRA) account and 
$165,000,000 for the ERMA Fund.
    As programming decisions are made in response to events and on the 
basis of who can address the needs of the population, figures regarding 
fund allocations between organizations are not available at this time. 
We based our budget on providing the traditional U.S. share of 20-25 
percent to the major humanitarian international organizations, 
including UNHCR, but will monitor for effectiveness of programming 
before making particular funding decisions. (In compliance with 
legislation, the Administration will notify Congressional committees 
before contributions to UNHCR are made.) Funds will also support 
directly the programs of non-governmental organizations that complement 
international assistance efforts.

    Question 4. The UNHCR reports that several cases of measles have 
been confirmed among refugee children in Albania. Do relief agencies 
have the necessary medicines and medical supplies to deal with the 
acute health needs of the refugees?
    Answer 4. The only significant outbreak of measles reported among 
refugees in Albania and Macedonia was in the Kukes area in April. 
UNICEF and WHO immediately began a series of immunization programs for 
refugees in that area. Additional immunization programs have been 
conducted in refugee camps and public centers in Macedonia and Albania 
since April. Immunization campaigns are also being planned for IDP's in 
Kosovo.

    Question 5. The Administration planned to use Guantanamo naval base 
to temporarily shelter Kosovar Albanians should it be necessary. 
Refugee groups have expressed concern about this decision. What is your 
view?
    Answer 5. Initially, the Administration considered providing 
temporary protection for several thousand Kosovar Albanians at 
Guantanamo naval base. However, after further review the Administration 
determined that resettlement in the United States, under the auspices 
of the refugee admissions program, was a more appropriate means of 
providing protection for these individuals. Persons resettled in the 
U.S. as refugees are legally eligible to work and to receive 
assistance, such as medical care, as needed.
    The United States remains steadfast in its determination to 
establish peace in Kosovo and ensure conditions which will permit the 
refugees to return to their homes. We expect most of the Kosovars 
resettled in the United States will want to return to Kosovo once it is 
safe to do so. The U.S. Government will assist those who wish to when 
conditions permit.

                                <greek-d>

</pre></body></html>
